<html>
<title> - LEGISLATIVE HEARING ON H.R. 569, H.R. 570, H.R. 602, H.R. 671, H.R. 679, H.R. 733, H.R. 894 AND H.R. 1405</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             LEGISLATIVE HEARING ON H.R. 569, H.R. 570, 
              H.R. 602, H.R. 671, H.R. 679, H.R. 733, H.R. 894 
              AND H.R. 1405
=======================================================================


                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        TUESDAY, APRIL 16, 2013

                               __________

                           Serial No. 113-16

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
80-455                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
MARK AMODEI, Nevada                  BETO O'ROURKE, Texas
PAUL COOK, California                RAUL RUIZ, California
                                     GLORIA NEGRETE MCLEOD, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             April 16, 2013

                                                                   Page

Legislative Hearing On H.R. 569, H.R. 570, H.R. 602, H.R. 671, 
  H.R. 679, H.R. 733, H.R. 894 And H.R. 1405.....................     1

                           OPENING STATEMENTS

Hon. Jon Runyan, Chairman, Disability Assistance and Memorial 
  Affairs........................................................     1
    Prepared Statement of Hon. Runyan............................    29
Hon. Dina Titus, Ranking Minority Member, Subcommittee on 
  Disability Assistance and Memorial Affairs.....................     2
    Prepared Statement of Hon. Titus.............................    30
Hon. Jeff Miller, Chairman, Committee on Veterans' Affairs, U.S. 
  House of Representatives.......................................     3
    Prepared Statement of Chairman Miller........................    30
Hon. Michael Michaud, Ranking Minority Member, Committee on 
  Veterans' Affairs, U.S. House of Representatives...............     5

                               WITNESSES

Hon. Chellie Pingree, U.S. House of Representatives (D-ME-01)....     5
    Prepared Statement of Hon. Pingree...........................    31
    Executive Summary of Hon. Pingree............................    32
Hon. Bill Johnson, U.S. House of Representatives (OH-06).........     7
    Prepared Statement of Hon. Johnson...........................    33
    Executive Summary of Hon. Johnson............................    34
Hon. Timothy J. Walz, U.S. House of Representatives (MN-01)......     9
    Prepared Statement of Hon. Walz..............................    34
Jeffrey C. Hall, Assistant National Legislative Director, 
  Disabled American Veterans.....................................    11
    Prepared Statement of Mr. Hall...............................    35
Raymond Kelley, Director of National Legislative Service, 
  Veterans of Foreign Wars.......................................    13
    Prepared Statement of Mr. Kelley.............................    39
Colonel Robert F. Norton, USA (Ret.), Deputy Director of 
  Government Relations, Military Officers Association of America.    15
    Prepared Statement of Mr. Norton.............................    40
    Executive Summary of Mr. Norton..............................    45
Heather Ansley, Esquire., MSW, Vice President of Veterans Policy, 
  VetsFirst, a program of United Spinal Association..............    16
    Prepared Statement of Ms. Ansley.............................    46
    Executive Summary of Ms. Ansley..............................    49
Michael D. Murphy, Executive Director, National Association of 
  County Veterans Service Officers...............................    18
    Prepared Statement of Mr. Murphy.............................    50
    Executive Summary of Mr. Murphy..............................    51
David R. McLenachen, Director, Pension and Fiduciary Service, 
  U.S. Department of Veterans Affairs............................    23
    Prepared Statement of Mr. McLenachen.........................    52
    Accompanied by:

      Mary Ann Flynn, Deputy Director, Policy and Procedures, 
          Compensation Service, U.S. Department of Veterans 
          Affairs

      Richard Hipolit, Assistant General Counsel, U.S. Department 
          of Veterans Affairs

                        STATEMENT FOR THE RECORD

American Legion..................................................    63
Iraq and Afghanistan Veterans of America.........................    67
National Organization of Veterans Advocates......................    69
Wounded Warrior Project..........................................    71
American Civil Liberties Union (ACLU)............................    74


  LEGISLATIVE HEARING ON H.R. 569, H.R. 570, H.R. 602, H.R. 671, H.R. 
                 679, H.R. 733, H.R. 894 AND H.R. 1405

                        Tuesday, April 16, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:37 p.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Runyan, Bilirakis, Cook, Titus, 
Ruiz, and Negrete McLeod.
    Also Present: Representatives Miller, and Michaud.

              OPENING STATEMENT OF CHAIRMAN RUNYAN

    Mr. Runyan. Good afternoon. This legislation hearing on 
H.R. 569, H.R. 570, H.R. 602, H.R. 671, H.R. 679, H.R. 733, 
H.R. 894, and H.R. 1405 will now come to order.
    Today we have a large number of witnesses present due to 
the high level of interest in some of the bills before us. 
Therefore, in the interest of time, I am going to forego any 
lengthy opening statement and just briefly touch on three of 
the bills on the agenda today that I am proud to introduce.
    First off, we have H.R. 569. The Veterans' Compensation 
Cost-of-Living Act or COLA of 2013 provides a cost-of-living 
adjustment increase to veterans' disability compensation rates 
and other benefits.
    Also, H.R. 570, the American Heroes COLA Act, which is 
related to the former H.R. 569 COLA Act of 2013, except this 
bill seeks to make permanent the annual increase to veterans' 
disability compensation rates and other benefits by tying the 
increase to the cost-of-living adjustment for Social Security 
benefits.
    With the passage of the American Heroes COLA Act, veterans 
will never again have to depend on congressional action to 
receive an increase in their cost-of-living adjustments they 
have more than earned throughout their service.
    Instead, this increase will become automatic from year to 
year just as Social Security benefits increase and are adjusted 
automatically every year.
    As some of you may recall last year, our annual COLA bill 
was held up in the Senate with reports that had been put on a 
secret hold by a senator. There is some question as to whether 
this bill would pass and that veterans would receive their 
annual COLA in a timely manner.
    This situation was unacceptable and unfair to veterans and 
thankfully with pressure from this Committee and the veterans' 
community, it was ultimately passed and signed into law. And I 
can tell you it was really close to the end of the year. It was 
November 27th which I know for a fact because that happens to 
be my birthday.
    However, the final bill that I have here today that I have 
sponsored is H.R. 733 along with my good friend, Congressman 
Walz, the Access to Veterans Benefits Improvement Act, which 
provides certain local government employees and certain 
employees of Congress access to case tracking information 
through the Department of Veterans Affairs.
    There is no doubt that we have a responsibility to serve 
our veterans by ensuring that every effort is made to simplify 
the claims process. Key actors in this effort are county 
veteran service officers whose expertise in claim development 
benefits veterans in many communities across America.
    Their assistance is especially critical to many thousands 
of veterans who live in rural areas hours away from a VA 
regional office.
    Many veterans are overwhelmed as they try to navigate their 
way through the claims process and they are also further 
frustrated when they ask for help from their county VSO or 
their Member of Congress and that person cannot directly access 
even the most basic information about the status of their 
claim.
    This bill would allow these local government officials to 
check on the status of the veteran's claim and ensure that VA 
has all of the information needed to process claims in the most 
efficient manner possible.
    Again, in the interest of time, I would reiterate my 
request that today's witnesses abide by the decorum or the 
rules to this hearing to summarize your statement to five 
minutes or less during the oral testimony. We have a large 
number of individuals ready to testify on the legislation 
today. I want to make sure everyone is heard in a timely 
manner.
    I want to also remind all present that your written 
testimony will be made part of the hearing record, without 
objection.
    I appreciate everyone's attendance at this hearing and now 
call on the Ranking Member, Ms. Titus, for her opening 
statement.

    [The prepared statement of Chairman Runyan appears in the 
Appendix]

              OPENING STATEMENT OF HON. DINA TITUS

    Ms. Titus. Thank you, Mr. Chairman.
    I do realize we have a full schedule and I will keep my 
remarks brief as well. But I think it is important that we 
thank our colleagues for the good work that they have done on 
these various bills and point out that they address some of the 
unique needs of our Nation's veterans.
    The bills that are before us today are a variety of issues. 
They range from military sexual assault, recognizing guard and 
reserve members, increasing compensation, and improving the 
appeals process, things that we have heard a lot about in 
testimony before this Committee.
    I am also pleased to say that I am proud that I worked with 
the Chairman to introduce the disability compensation COLA 
bills which are H.R. 569 and 570.
    Another bill on the agenda, H.R. 671, the Ruth Moore Act of 
2013, is introduced by Ms. Pingree. I am very pleased to see 
that here today because we have heard some very compelling 
statistics about the women who are in our military and some of 
the problems that they face personally and also professionally 
as a result of this and how difficult sometimes it is to 
receive assistance and compensation and counseling and the 
things that they need. H.R. 671 will address some of these.
    Also, H.R. 679, Mr. Walz's bill to honor the guard and 
reserves when they retire and they have been in that service 
their entire careers, just maybe not have been in the field, 
certainly should be recognized. And I support that.
    Your other bill, Mr. Chairman, H.R. 733, Access to Veterans 
Benefits Improvement Act, would grant county officers and other 
state employees access to some records. We want to protect the 
privacy of our veterans, but we certainly need to expedite the 
process in helping them get compensation and remove the backlog 
as quickly as possible.
    I know in my district office, as we try to help veterans, 
this is often a problem. I think your bill will go a long way 
to addressing that.
    There are other bills that are before us today which target 
the appeals process. I am anxious to hear from our colleagues 
on these and, again, appreciate your thoughtful work.
    I yield back.

    [The prepared statement of Hon. Dina Titus appears in the 
Appendix]

    Mr. Runyan. I thank the gentle lady, and pleasure to have 
the Chairman of the Full Committee and the Ranking Member of 
the Full Committee here. And I know Chairman Miller would also 
like to make an opening statement.
    So, Chairman, you are recognized.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    Mr. Miller. Thank you very much.
    With your permission, I want to make a few remarks on H.R. 
602, the Veterans Second Amendment Protection Act, and that is 
a bill that I introduced to protect the constitutional rights 
of our veterans.
    Mr. Runyan. Without objection.
    Mr. Miller. This piece of legislation would end an 
arbitrary process, which veterans are required to go through at 
the Department of Veterans Affairs where they actually strip 
certain veterans and other beneficiaries of their Second 
Amendment constitutional rights.
    Under current practice, veterans who have a fiduciary 
appointed to manage their affairs are deemed to be mentally 
defective and as a result, these veterans are reported to the 
FBI's national instant criminal background check or the NICS 
system, a system which prevents individuals from purchasing 
firearms in the United States and criminalizes the possession 
of a firearm.
    I label this process arbitrary because pursuant to VA 
regulation 38 CFR Section 3.353, the definition of mental 
incompetency is one who because of injury or disease lacks the 
mental capacity to contract or to manage his or her own affairs 
including disbursement of funds without limitation.
    In plain English, this means that if VA determines that a 
person cannot manage their finances and needs a fiduciary, 
their Second Amendment rights are automatically taken away. 
This really makes no sense.
    As a reminder, a majority of VA's regulations concerning 
fiduciary matters are from 1975, although in the course of this 
Committee's oversight, VA has indicated that it will update 
these regulations. To date, no new fiduciary regulations have 
been promulgated.
    In previous discussions with VA, I have emphasized that its 
regulatory scheme does not take into account the importance 
that our judicial system plays in determining when someone's 
constitutional rights should be infringed upon. I would again 
encourage VA to update its regulations accordingly.
    And as a reminder, the department itself was opposed to 
judicial review of any kind on VA determinations all the way 
through 1988. Judicial proceedings are comprehensive and all 
interested parties have a right to be represented and heard 
during them.
    This is a far cry from the process during which VA rating 
specialists determine that a veteran is mentally defective. 
Accordingly, the Veterans Second Amendment Protection Act would 
require that a judicial authority rather than an internal VA 
decision-maker make the determination that a veteran poses a 
danger to themselves or others prior to their name being sent 
to the NICS.
    Taking away a constitutional right is a serious action and 
one that should not be taken lightly, particularly when it 
concerns our Nation's veterans. Affording veterans their due 
process rights under the law in any and all context is of 
utmost important to me and I think most Members of the 
Committee.
    As will be further discussed during this hearing, there are 
other issues with VA's fiduciary program that also affect 
veterans' due process rights. And I will defer to the witnesses 
that have been called here today to testify as to the specifics 
of the fiduciary program as a whole for further comment.
    Mr. Chairman, thank you to you and the Members of the 
Subcommittee, for your time. And I want to encourage all of you 
to support H.R. 602, the Veterans Second Amendment Protection 
Act. And with that, I yield back.

    [The prepared statement of Chairman Miller appears in the 
Appendix]

    Mr. Runyan. I thank the Chairman.
    And with that, the chair would recognize the Ranking Member 
of the Full Committee, Mr. Michaud, for a statement.

           OPENING STATEMENT OF HON. MICHAEL MICHAUD

    Mr. Michaud. Thank you very much, Mr. Chairman and Madam 
Ranking Member, for having this hearing.
    It is good to see the Chairman of the Full Committee. We 
are on the book ends now. Glad to see him here as well.
    And I would like to thank Congressman Pingree for being 
here today to testify. My colleague from Maine introduced the 
Ruth Moore Act to help victims of military sexual assault get 
help that they need. And I am proud to be a co-sponsor of that 
legislation.
    I would also like to welcome Ruth Moore from Milbridge, 
Maine. She is my constituent and the bill's namesake.
    Ruth, I know it takes a lot to stand up and fight for the 
rights. I want to thank you for your continued advocacy of this 
very, very critical issue.
    Sadly, sexual assaults in the military continues to be a 
problem for too many who are serving our great Nation. Our 
Nation must do more to address it and I look forward to hearing 
Congresswoman Pingree's testimony today.
    The Ruth Moore Act is about making sure that victims of 
military sexual trauma get a fair shake and are not further 
victimized by the bureaucracy, something that I am confident 
that this Committee can deal with as we move forward to look at 
this legislation. I look forward to the congresswoman's 
testimony.
    And I want to thank you very much, Mr. Chairman, for having 
this very important hearing on several bills that we are 
hearing today. And with that, I yield back the balance of my 
time.
    Mr. Runyan. I thank the Ranking Member for that.
    And at this time, I would like to welcome my colleagues in 
the House that are currently sitting at the witness table. 
First, we will hear from the gentle lady from Maine, Ms. 
Pingree, who is sponsoring H.R. 671. Then we will hear from the 
gentleman from Ohio, Mr. Johnson, who is sponsoring H.R. 894. 
And finally we will hear from the gentleman from Minnesota, Mr. 
Walz, who is sponsoring H.R. 679.
    I would like to welcome you all to this legislative 
hearing. Your complete and written statements will be entered 
into the hearing record.
    And with that, Congresswoman Pingree, we will start with 
you and you are now recognized for five minutes.

               STATEMENT OF HON. CHELLIE PINGREE

    Ms. Pingree. Thank you very much, Chairman Runyan. Thank 
you to you and Ranking Member Titus.
    I also want to thank Ranking Member Michaud for his very 
kind introduction. We are very proud of the work that Mike does 
back at home in Maine for all of our veterans and the work that 
he does on this Committee. And I am honored to serve with him. 
There are only two of us in Maine, so we have to cover a lot of 
territory.
    And thank you to Chairman Miller for being here today and 
thank you for your great advocacy for veterans and your 
leadership on the Veterans' Affairs Committee. I appreciate 
your presence here and the work that you do.
    I am very grateful that you are considering the Ruth Moore 
Act in this afternoon's legislative hearing and I appreciate 
the opportunity just to talk a little bit more about this bill 
and why I desperately think it needs to become the law.
    The bill has been endorsed by every major VSO including The 
American Legion and the Veterans of Foreign Wars. We appreciate 
their support and all the work that they do for veterans and 
their families.
    The Ruth Moore Act would relax the evidentiary standards 
for survivors of military sexual trauma who file claims for 
mental health conditions with the VA. Currently, MST survivors 
need further proof of the assault which for many of them is 
impossible.
    Under the bill, in order to receive service-connected 
benefits, a veteran would need a statement that the assault 
took place along with a diagnosis from a VA health care 
professional that links the assault to a mental health 
condition.
    This bill also requires the VA to report MST-related claims 
information back to Congress. As Members of Congress, we have a 
responsibility to ensure that the VA is providing timely and 
accurate decisions to veterans, but we cannot do that without 
sufficient data.
    The bill is closely modeled after the 2010 change to VA 
regulations for combat veterans who have filed PTSD claims 
based on their military service. As I am sure most of you know, 
the VA relaxed the evidentiary standards for veterans who 
suffer from combat-related PTSD.
    The VA finally acknowledged that far too many veterans who 
have deployed into harm's way suffered from service-related 
PTSD but could not through no fault of their own locate 
military documentation that verified the traumatic events that 
triggered their PTSD.
    The VA now accepts their statement of traumatic events 
along with a PTSD diagnosis and a medical link as enough to 
receive disability benefits.
    So what we have is an inequity in the system and those who 
were raped or harassed in the military have a much harder path 
to receiving benefits even though these injuries are service-
connected and the same standards should apply.
    Ruth Moore, who Ranking Member Michaud introduced earlier, 
who is here with her husband, Butch, and her daughter, 
Samantha, is who this bill is named for. She is a U.S. Navy 
veteran from Maine who was raped twice during her military 
service. When she reported it, she was discharged and labeled 
as having a personality disorder. She spent 23 years fighting 
the VA to get benefits and she battled homelessness and PTSD 
during that time.
    I am very proud of Ruth for being here with us today, with 
her willingness to come forward and to help so many others in 
her own testimony both before this Committee and with the many 
people she has been willing to talk to about her story.
    Ruth, like many MST survivors, did not have the military 
records that corroborated the rape, so her claim was repeatedly 
denied. And, unfortunately, she is not alone. DoD's own numbers 
indicated that over 85 percent of assaults go unreported.
    So I ask you how are these veterans supposed to qualify for 
the help they need from the VA? The VA will tell you that the 
system accepts secondary markers as evidence to verify that 
these assaults occurred. And as comforting as that sounds, we 
have seen time and time again that the VA is inconsistent in 
applying those standards.
    What one regional office will accept as proof, another will 
deny. Almost every day I hear from another survivor who has had 
their claim denied after these secondary markers were ignored.
    So I think it is a problem of fundamental fairness. If a 
medical diagnosis linked to a claimed event is enough for one 
group of veterans, it ought to be enough for another, 
especially when we know how hard it is for documentation to 
exist to support both instances of sexual assault or combat-
related events.
    Critics of this bill might say that it is too easy and 
veterans can just say anything to get those benefits. First of 
all, that is just simply not true. There still needs to be a 
medical diagnosis and a medical link which are not at all easy 
to come by.
    And, secondly, we heard the same argument when the VA 
proposed similar changes for combat veterans. And I have not 
heard the VA say there were big problems with veterans lying 
about their service.
    The bottom line is that it has gone on for too long. The 
burden of proof has been on the veteran and it needs to change 
now.
    Mr. Chair, over the last two years, I have heard from 
dozens and dozens of veterans from all over the country, men 
and women who volunteered to serve, many of them planning on a 
career in the military, only to have their career cut short by 
the horror of a violent sexual assault.
    Whether the attack happened on a navy base in Europe or a 
national guard training facility here in the U.S., whether they 
were soldiers, sailors, airmen, marines, the story too often 
has the same ending. The victims were blamed. The crime was 
covered up and the survivors themselves become the subject of 
further harassment and recrimination.
    All too often what followed was years of mental health 
issues, lost jobs, substance abuse, and homelessness, but the 
stories do not have to end this way. With the Ruth Moore Act, 
we can change the VA's policies so that veterans who survive a 
sexual assault can at least get the benefits they deserve.
    Thank you very much for your time and thank you for 
considering this bill.

    [The prepared statement of Hon. Chellie Pingree appears in 
the Appendix]

    Mr. Runyan. Thank you, Congresswoman Pingree.
    With that, I would recognize Congressman Johnson. You are 
now recognized for five minutes for your oral statement.

                 STATEMENT OF HON. BILL JOHNSON

    Mr. Johnson. Chairman Runyan, Ranking Member Titus, and 
Members of the Subcommittee, I appreciate the opportunity to 
testify before you on H.R. 894. This is important legislation I 
introduced to reform the Department of Veterans Affairs' 
fiduciary program.
    As most of you know, last Congress I served as the 
Oversight & Investigations Subcommittee Chairman on the House 
Veterans' Affairs Committee. An investigation into the VA's 
fiduciary program by my Subcommittee revealed shocking behavior 
on the part of the VA's hired fiduciaries and gross misfeasance 
on the part of the VA.
    Some fiduciaries entrusted to manage the finances of our 
Nation's heroes who are unable to do so themselves were caught 
abusing the system by withholding funds, embezzling veterans' 
money, and other egregious actions.
    Furthermore, an Oversight & Investigations Subcommittee 
hearing held on February 9th of last year uncovered the fact 
that many of the VA's fiduciary program policies do not 
correspond with actual practices.
    For instance, the VA claims to have a policy stating 
preference for family members and friends to serve as a 
veteran's fiduciary. However, the investigation into the 
fiduciary program revealed instances where this is not the 
case.
    In one instance, the VA arbitrarily removed a veteran's 
wife who served as her husband's fiduciary for ten years and 
replaced her with a paid fiduciary.
    There were also many honest and hard-working fiduciaries 
that experienced difficulty performing their duties due to the 
bureaucratic nature of the VA's fiduciary program.
    We owe it to America's heroes to provide them with a 
fiduciary program that is more responsive to the needs of the 
veterans it is supposed to serve.
    For these reasons, I am proud to sponsor H.R. 894, the 
Veterans Fiduciary Reform Act. This important legislation 
initially introduced last Congress is based on problems 
uncovered before, during, and after the hearing as well as 
valuable input from veteran service organizations and 
individuals who have experienced difficulties with the program 
firsthand.
    It is designed to transform the VA's fiduciary program to 
better serve the needs of our most vulnerable veterans and 
their hard-working fiduciaries. And most importantly, it will 
protect veterans in the program from falling victim to 
deceitful and criminal fiduciaries.
    Specifically, the Veterans Fiduciary Reform Act would 
require a credit and criminal background check each time a 
fiduciary is appointed and allow veterans to petition to have 
their fiduciary removed if problems arise.
    It would also decrease the potential maximum fee a 
fiduciary can receive to the lesser of three percent or $35.00 
per month similar to Social Security's fiduciary program. This 
will help discourage those who enroll as VA fiduciaries with 
only a profit motive in mind.
    Importantly, H.R. 894 would enable veterans to appeal their 
incompetent status at any time, a right currently not granted 
to veterans.
    Additionally, it would allow veterans to name a preferred 
fiduciary such as a family member.
    Last year, my Subcommittee heard numerous complaints about 
the requirement for fiduciaries to obtain a bond. While proper 
in some settings, it is inappropriate when it causes 
unnecessary hardship such as a mother caring for her veteran 
son.
    This legislation would require the VA to consider whether a 
bond is necessary and if it will adversely affect the fiduciary 
and the veterans he or she serves.
    H.R. 894 would also direct the VA's under secretaries for 
Health and Benefits to coordinate their efforts to ensure that 
fiduciaries caring for their loved ones are not overly burdened 
by redundant requirements.
    Lastly, this bill aims to simplify annual reporting 
requirements. Currently, the VA does not have to review a 
fiduciary's annual accounting and when it does, it places an 
onerous burden on those fiduciaries who are serving out of 
love, not of monetary gain.
    This bill will implement a straightforward annual 
accounting requirement and gives the VA the opportunity to 
audit fiduciaries whose accounting is suspect.
    These significant changes would strengthen the VA standards 
for administering the fiduciary program and increase protection 
for vulnerable veterans.
    Requiring background checks and lowering the fee a 
fiduciary can charge would also increase scrutiny of potential 
fiduciaries and help root out potential predators.
    This legislation also adds a layer of protection for 
veterans with fiduciaries by incorporating the ability for 
veterans to petition to have their fiduciary removed and 
replaced.
    I am proud that last Congress, the Veterans Fiduciary Act 
of 2012 passed the House Veterans' Affairs Committee unopposed 
and passed the Full House by voice vote on September 19th, 
2012. Unfortunately, this important legislation was not 
considered by the Senate and, therefore, the VA's fiduciary 
program is still in urgent need of reform.
    Chairman Runyan, Ranking Member Titus, thank you again for 
the opportunity to speak on this important legislation, H.R. 
894. I am hopeful that this legislation will again be favorably 
considered by the Veterans' Affairs Committee and this time 
become law. Our veterans are willing to sacrifice everything to 
serve our Nation and they deserve to receive the care, the 
benefits, and the respect they have earned.
    With that, I yield back, sir.

    [The prepared statement of Hon. Bill Johnson appears in the 
Appendix]

    Mr. Runyan. Thank you, Congressman Johnson.
    With that, I recognize Congressman Walz for his testimony.

                 STATEMENT OF HON. TIMOTHY WALZ

    Mr. Walz. Thank you, Chairman Runyan and Ranking Member 
Titus, for your commitment to our veterans and to our Full 
Committee Chairman and Ranking Member.
    I may be somewhat biased, but I am incredibly proud of this 
Committee and the work you have done. And I would extend that 
to an incredible staff on the majority and minority side of 
making sure they are working to our veterans.
    So thank you for bringing up H.R. 679 to give us the 
opportunity to present it, Honor America's Guard and Reserve 
Retiree Act.
    This is one of those rare, very simple bills. First and 
foremost, it costs nothing, but it extends respect and honor to 
our veterans. It is something that they will not ask for, but 
they have certainly earned.
    This is a case of a guardsman or woman can serve 20 years 
in uniform, by the way, meeting every standard of their active 
duty counterparts from enlistment standards to physical fitness 
to weapons proficiency to their professional training. In some 
cases, those can be months long and they are in many cases 
after 20 years, they are the most senior people responsible for 
the training of our warriors. But if they were never called to 
active duty, Title 10 for other than training for more than 179 
days, we reward them with all of the benefits they have earned, 
financial benefits.
    This bill is not about financial benefits. It is about what 
I consider to be a simple oversight that they do not have the 
legal ability to call themselves veterans of America's Armed 
Forces. And it corrects that. It is the right thing to do.
    It has been vetted in the last two Congresses. The staff 
and the legal counsel have done a wonderful job of putting up a 
firewall to make sure this is not about additional benefits. It 
is about duty, honor, country, and respect.
    It has passed the House of Representatives twice 
unanimously and has stalled in the Senate. And I think since 
that time, we have taken great care to educate our colleagues 
in the other chamber about what this is about.
    I ask that we be given the opportunity to bring this up one 
more time to do what is right to allow those folks--most 
Americans do not know this is the case, but I think sitting 
next to Colonel Johnson and others in this room, veterans are 
very, very particular about getting right of where they served, 
what devices they wear, and how they are addressed. And getting 
this wrong for them, having someone who served in uniform for 
20 years feel bad about referring to themselves as a veteran is 
simply wrong, and we can fix that with this bill.
    So I thank you all.
    Thank you, Chairman Runyan, for being an early supporter of 
this bill and give the opportunity.
    I would also like to add one more word of support for the 
Chairman's H.R. 733, the Veterans Benefits Improvement Act. 
This is smart stuff. It came out of, and I watched this 
firsthand last May traveling with the Chairman in New Jersey 
and Minnesota, listening to veterans and the case was let's use 
this as a force multiplier. Let's use folks who can access 
this, help get knowledge of the claim, help the VA, be a 
partner with them to move this further. And this piece of 
legislation just puts another eye, another help, another way of 
moving the process forward.
    And it originated out of the concerns of veterans and 
watching the Chairman hear that on both sides of the country 
there. And it was the same exact concerns. So I fully support 
this. I think it is a smart piece of legislation.
    And with that, I yield back, Mr. Chairman.

    [The prepared statement of Hon. Timothy Walz appears in the 
Appendix]

    Mr. Runyan. I thank the gentleman for that.
    And in the interest of time, we will forego a round of 
questions unless anyone has any questions for this panel. No?
    On behalf of the Subcommittee, I thank you all for your 
testimony and you are now excused. We will ask the second panel 
to come to the witness table.
    With this panel, we will first hear from Jeff Hall, the 
Assistant National Legislative Director for Disabled American 
Veterans. Then we will hear from Mr. Raymond Kelley, Director 
of National Legislative Service for Veterans of Foreign Wars. 
Next we will hear from Colonel Robert Norton, Deputy Director 
of Government Relations for the Military Officers Association, 
on behalf of H.R. 679. And then we will hear from Ms. Heather 
Ansley, Vice President of Veterans Policy for VetsFirst. And, 
finally, we will hear from Mr. Michael Murphy, Executive 
Director of the National Association of County Veterans Service 
Officers, who will testify on H.R. 733.
    Thank you all for being here today.
    And, Mr. Hall, you are now recognized for five minutes for 
your testimony.

  STATEMENTS OF JEFFREY HALL, ASSISTANT NATIONAL LEGISLATIVE 
DIRECTOR, DISABLED AMERICAN VETERANS; RAYMOND KELLEY, DIRECTOR 
  OF NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS; 
  ROBERT F. NORTON, DEPUTY DIRECTOR OF GOVERNMENT RELATIONS, 
MILITARY OFFICERS ASSOCIATION OF AMERICA; HEATHER ANSLEY, VICE 
 PRESIDENT OF VETERANS POLICY, VETSFIRST, A PROGRAM OF UNITED 
  SPINAL ASSOCIATION; MICHAEL D. MURPHY, EXECUTIVE DIRECTOR, 
    NATIONAL ASSOCIATION OF COUNTY VETERANS SERVICE OFFICERS

                   STATEMENT OF JEFFREY HALL

    Mr. Hall. Thank you.
    Chairman Runyan, Ranking Member Titus, and Members of the 
Subcommittee, DAV is pleased to be here today to offer our 
views regarding pending legislation before this Subcommittee.
    In the interest of time, my remarks today will be limited 
to only a few of the bills.
    As you know, many disabled veterans, their survivors and 
dependents rely solely on their VA compensation or DIC as their 
only means of income. These men and women should not have to 
struggle simply to make ends meet because their rightfully 
earned benefits are not able to keep pace with inflation, nor 
should these deserving individuals have to sit in uncertainty 
from year to year.
    H.R. 569 would provide a COLA effective December 1st, 2013 
while H.R. 570 would provide annual COLAs to be automatic. DAV 
strongly supports enactment of both of these bills.
    However, DAV remains adamantly opposed to the section in 
both of these bills requiring the rounding down of COLA 
increases to the next lower whole dollar amount. This unfair 
practice began more than 20 years ago and was only to be a 
temporary measure.
    Nonetheless, the practice has continued and has cost 
veterans and their families millions and millions of dollars of 
compensation earned through their selfless sacrifice and 
service to this great Nation.
    Likewise, Mr. Chairman, DAV is steadfastly opposed to the 
so-called chained CPI which will not only have an adverse 
effect on disabled veterans, it will be a double impact on 
disabled veterans who are also seniors. And reducing the 
deficit on the backs of our disabled veterans and seniors who 
have already paid the prices is unacceptable.
    Regarding H.R. 671, the Ruth Moore Act of 2013 would change 
the standard of proof required and allow service-connection for 
veterans suffering from certain mental health conditions 
including PTSD resulting from military sexual trauma that 
occurred in service even in the absence of any official record 
of the claimed trauma.
    Enactment of this legislation would allow service-
connection for certain mental health conditions which a 
veteran's claim was incurred or aggravated by military sexual 
trauma in service.
    Similar to the evidentiary standard for PTSD, the veteran 
must have a diagnosis of the covered mental health condition 
together with satisfactory lay or other evidence of such trauma 
and an opinion by a mental health professional that the 
diagnosed mental health condition is related to the claimed 
military sexual trauma if consistent with the circumstances, 
conditions, or hardships of such service.
    As such, Mr. Chairman, DAV strongly supports the enactment 
of H.R. 671 which would provide a more equitable standard of 
proof for veterans who suffer from serious mental or physical 
traumas in environments that make it difficult to establish 
exact causal connections.
    H.R. 733, the Access to Veterans Benefits Improvement Act, 
would provide certain employees and Members of Congress and 
certain employees of state or local governmental agencies with 
the access to case tracking information in the VA.
    DAV supports the intent of the bill as it could be 
beneficial to all parties in the process. However, the bill's 
current language is not explicit enough to ensure the privacy 
of a veteran or a claimant is safeguarded.
    We recommend that the covered employee be required to 
obtain written consent from the veteran to access his or her 
records. Additionally, the veteran should be notified when his 
or her record is being accessed by the covered employee and the 
bill should plainly set forth any penalties for such access 
violations.
    While DAV would not oppose passage of the legislation, we 
would urge the Subcommittee to consider these suggested 
language changes.
    And, finally, H.R. 1405 would require the inclusion of an 
appeals form in any notice of decision from the VA. DAV 
supports the intent of this legislation, but we recommend 
changes to the language to avoid any confusion as to the 
purpose of the bill or what is intended by the phrases appeals 
form or a form that may be used to file an appeal.
    If the intent is to include a standard VBA form to be used 
by a claimant to submit a notice of disagreement, then it 
should clearly state such. Otherwise, the intent of the form 
may become confused with the standard VA Form 9, appeal to the 
Board of Veterans' Appeals, which is currently used by the 
board and included in a statement of the case after a notice of 
disagreement has been submitted.
    It is our understanding that a standardized NOD form has 
been developed by VBA and is currently at OMB waiting approval. 
While we do not oppose the creation and use of any standard 
form directed at simplifying the process, our first concern is 
always with the claimant.
    If VBA is going to use a standard NOD form, it must also 
allow for those instances wherein a claimant will submit their 
NOD in another form such as a letter. VBA should not be allowed 
to simply stop accepting NODs if they are not submitted in the 
prescribed manner.
    Mr. Chairman, this concludes my testimony. I will be happy 
to answer any questions.

    [The prepared statement of Jeffrey C. Hall appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Hall.
    Mr. Kelley.

                  STATEMENT OF RAYMOND KELLEY

    Mr. Kelley. Mr. Chairman, Ranking Member, Members of the 
Committee, on behalf of the two million members of the Veterans 
of Foreign Wars and our auxiliary, thank you for the 
opportunity to testify today on these pending bills.
    The VFW supports H.R. 569. The Cost-of-Living Adjustment 
Act is important to veterans and their survivors' compensation 
to keep pace with inflation. However, to do that fairly and 
effectively, the currently used index, CPIW, must be used in 
relation to this bill and any future COLA adjustments. 
Converting to the chained CPI model will come at the expense of 
the needs of our veterans and their survivors and must be 
prevented.
    The VFW also continues to oppose the round-down of COLA. 
This is nothing more than a money-saving gimmick that comes at 
the expense of our veterans and their survivors.
    The VFW supports the intent of H.R. 570. Placing an 
automatic trigger to COLA adjustments for VA disability pension 
and survivor benefits will prevent confusion among veterans and 
survivors who know that VA COLA is somehow tied to Social 
Security, but do not understand the complete process.
    Using Social Security as that automatic trigger will 
streamline the process and remove the confusion the current 
process holds.
    The only concern the VFW has with this legislation is that 
there has been strong talk to change Social Security COLA to 
the chained CPI model. The VFW believes this index undercuts 
the purchasing power that CPIW provides for those who receive 
VA compensation. We recommend this bill be amended to maintain 
CPIW as the index used to calculate VA COLA.
    The VFW supports H.R. 602. Servicemembers that have sought 
or may seek treatment for mental health conditions including 
TBI must know that seeking treatment and the possible loss of 
Second Amendment rights do not go hand in hand.
    This bill provides an innocent until proven guilty clause 
by ensuring a judicial authority concludes that the veteran who 
sought treatment is a danger to themselves or others before the 
Second Amendment right is revoked.
    The VFW supports H.R. 671, the Ruth Moore Act. Relaxing the 
evidentiary burden on veterans who have experienced or suffered 
from military sexual trauma to the same level as combat PTSD 
only makes sense. We must trust our physicians in determining 
the root cause of this trauma and then make sure that those 
suffering from MST find the care and treatment they need.
    The VFW supports H.R. 679, the Honor America Guard and 
Reserve Retirement Act. Twenty years of service to our country 
regardless of when or where one served should entitle that 
guardsman or reservist to the moniker of veteran. No added 
benefits will be provided, just the recognition that two plus 
decades of service should provide.
    The VFW supports H.R. 733. The bill would grant certain 
Congressional staff and members of local governmental agency 
employees access to VA case tracking information. In doing so, 
this bill will allow Congress to better represent and respond 
to inquiries from their veteran constituents.
    The VFW contends, however, that the state and county 
service officers should only have access to veterans for whom 
they hold a power of attorney or for veterans who are not 
represented by a service officer.
    This will ensure that service officers who hold the POA 
will be maintained as the primary point of contact for the 
veterans they represent.
    The VFW supports the intent of H.R. 894, the Improved 
Fiduciaries Veterans Act. Veterans who need a fiduciary are the 
most vulnerable of us and every effort must be made to protect 
them.
    Congressman Johnson laid out all the reasons why this is 
important. However, in trying to remodel this comprehensively 
at one time, the VFW would like to point out a couple things 
that we feel might be an issue.
    The VFW is concerned that the rewrite to paragraph 5502, a 
veterans' due process may be violated as the bill stands now. 
The reason we think this is currently the appointment of a 
fiduciary is provided for in regulation and not in code. By 
placing the authority of the appointment on the fiduciary in 
code, the appointment and due process provisions and regulation 
will be superseded without the addition of that protection in 
the statute.
    The VFW would be happy to work with the Committee to ensure 
the intent of this bill is realized while due process is 
retained.
    The VFW also supports the intent of H.R. 1405. However, we 
recommend that the bill be amended to describe the proposed 
form as a notice of disagreement and not as an appeals form.
    This concludes my testimony and I look forward to any 
questions the Committee may have.

    [The prepared statement of Raymond Kelley appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Kelley.
    And with that, Colonel Norton.

                 STATEMENT OF ROBERT F. NORTON

    Colonel Norton. Thank you, Mr. Chairman, Ranking Member 
Titus, Members of the Subcommittee.
    On behalf of the over 380,000 members of the Military 
Officers Association of America, I am honored to appear before 
you today.
    I will limit my remarks to H.R. 679, the Honor America's 
Guard and Reserve Retirees Act of 2013. The key word in the 
bill, honor, is the very purpose of this legislation.
    On Veterans Day, Memorial Day, and other days celebrating 
our national heritage and honoring all those who served and 
sacrificed on behalf of our country, there are tens of 
thousands of career national guard and reserve members who 
cannot stand to be recognized during such ceremonies as 
veterans of our Armed Forces.
    That is because they are not veterans under the law, 
strange as that may sound. They are not veterans.
    These are servicemen and women who have completed 20 to 35 
years of service in the national guard or reserves. They are 
entitled to a military pension at age 60, government health 
care, and access to U.S. bases and posts all over the world. 
They have a military retiree ID card. They are also entitled to 
certain earned veterans' benefits.
    Those veterans' benefits include the selected reserve 
Montgomery GI Bill, VA backed mortgage loans, servicemembers' 
group life insurance during service, and veterans' group life 
insurance later, and they are entitled to burial in national 
cemeteries administered by the VA and state veteran cemeteries 
established under Federal dollars.
    During their careers, many of these career service guard 
and reserve servicemembers performed real-world military 
missions, but because their duties were performed under non-
Federal orders, their contributions to the national security at 
home and overseas do not measure up for award of status as 
veterans of our Armed Forces. Only Federal active duty orders 
count for becoming a veteran under the law.
    During the decades of the Cold War and continuing in 
practice today, there are some 29 different types of orders 
that the Pentagon uses to account for reservists' military 
duty. That dizzying array of orders reflects the different pay 
accounts and the types of missions that reservists perform.
    The truth is that the services prefer to access guard and 
reserve manpower for lots of different kinds of work but not 
call them to active duty unless a formal national emergency is 
invoked.
    The point is that in many cases, the work performed under 
those 29 types of orders is, in fact, operational duty or in 
support of operations. However, unless an order is issued under 
Title 10 active duty authority, the mission performed does not 
count for veteran status.
    Under the law, the VA only accepts a DD-214 as proof of 
veteran status except in the unusual case where a reservist is 
injured or killed while performing in active duty or active 
duty for training.
    The Honor America's Guard and Reserve Retirees Act simply 
authorizes career reservists who served for decades and 
performed their duty honorably but not under a Title 10 duty 
order that they be honored as veterans of our Armed Forces.
    The bill is cost neutral and the language specifically 
prohibits the award of any new or unearned veterans' benefits. 
The Military Coalition has again endorsed the legislation and 
its letter of support is in my statement for the record.
    MOAA is very grateful to Congressman Walz and to you, Mr. 
Chairman, for your leadership on this issue. The Subcommittee, 
the Full House Committee of Veterans' Affairs, and the Full 
House have passed similar legislation in the last two sessions 
of Congress. We look forward to the speedy passage of H.R. 679.
    I will close by quoting a letter of a retired New York Army 
National Guard master sergeant who expressed his thoughts on 
this issue to military update syndicated columnist Tom 
Philpott.
    And I quote, ``I served 35 years as a guardsman and I am 
told I am not a veteran. I did two weeks at ground zero and 
many tours in Germany doing logistics for the War in Iraq, yet 
I am still not a veteran.''
    On his behalf and on behalf of tens of thousands of other 
career guard and reserve servicemembers, the Military Officers 
Association of America strongly urges passage again of H.R. 
679.
    Thank you, Mr. Chairman. I look forward to your questions.

    [The prepared statement of Robert F. Norton appears in the 
Appendix]

    Mr. Runyan. Thank you, Colonel Norton.
    With that, Ms. Ansley.

                  STATEMENT OF HEATHER ANSLEY

    Ms. Ansley. Thank you.
    Chairman Runyan, Ranking Member Titus, and distinguished 
Members of the Subcommittee, thank you for inviting VetsFirst 
to share our views regarding the eight bills that are the 
subject of this afternoon's hearing.
    First, we support the Veterans' Compensation Cost-of-Living 
Adjustment Act and the American Heroes COLA Act. Disabled 
veterans and their survivors depend on VA benefits to provide 
for themselves and their families.
    Cost-of-living adjustments are an important aspect of 
ensuring that these benefits are able to meet a beneficiary's 
basic needs.
    We urge the passage of both pieces of these legislation and 
would also associate ourselves with the comments of our 
colleagues who have spoken out against using the chained CPI to 
calculate the cost-of-living for those benefits.
    Second, we support the Veterans Second Amendment Protection 
Act. We believe that this legislation will ensure that a 
veteran's Second Amendment rights are not unduly limited to 
VA's determination that the veteran requires assistance 
managing his or her benefits.
    It will also help to ensure that fears about loss of Second 
Amendment rights are not barriers to treatment for veterans who 
may have mental health concerns. This legislation would ensure 
needed judicial protections.
    Third, we support the Ruth Moore Act. This legislation 
would ease the burden on military sexual trauma or MST 
survivors in receiving benefits for an MST-related mental 
health condition and we also urge swift passage of this 
critical legislation.
    Fourth, we associate ourselves with the comments of my 
colleague, Colonel Norton, in supporting the Honor America's 
Guard-Reserve Retirees Act and hope that that legislation will 
again be passed by this body and enacted into law.
    Fifth, we have concerns about the Access to Veterans 
Benefits Improvement Act. Although we support the goal of 
ensuring that veterans receive timely information regarding the 
status of their claims, we are concerned that providing access 
to sensitive claimant information without regard to the 
designation of a power of attorney or written release of 
information could jeopardize sensitive information.
    With proper safeguards, the ability to access information 
through VA's case tracking system could be of great benefit to 
veterans and those who are assisting them. However, VA must 
also take increased steps to provide accurate status 
information to claimants.
    Next we would like to offer qualified support for the 
requirement for VA to include an appeals form in any notice of 
decision issued for benefits or H.R. 1405.
    Specifically, we support this legislation but propose that 
the language be clarified to state that VA must provide a form 
that may be used to file a notice of disagreement with the 
decision to eliminate any potential confusion with VA's Form 9, 
the appeal to the Board of Veterans' Appeals.
    The remainder of my remarks will be regarding H.R. 894. We 
support legislation to improve the supervision of fiduciaries 
of VA's beneficiaries which is again H.R. 894. We believe that 
VA's fiduciary program must be veteran centered and tailored to 
address the needs of those beneficiaries who truly do need 
assistance in managing their benefits.
    This legislation takes important steps to ensuring that 
VA's fiduciary program has greater transparency. For example, 
if VA determines that a beneficiary is incompetent, then he or 
she must be provided with a written statement detailing the 
reasons for such a determination.
    We suggest, however, that this provision would be 
strengthened by addressing the criteria that VA should use in 
making the determination.
    We would also suggest that the legislation's use of the 
term mentally incompetent does not accurately reflect the 
limits of VA's role and instead suggest the use of the term 
financially incompetent.
    Also included in this legislation are statutory protections 
to ensure that beneficiaries have the ability to request the 
removal and replacement of a fiduciary. This legislation also 
requires that any removal or new appointment of a fiduciary not 
delay or interrupt the beneficiary's receipt of benefits.
    While matters of fiduciary appointments are being resolved, 
veterans must be able to continue to access their benefits. 
Access to benefits including retroactive benefits has remained 
a problem for too many veterans.
    We also believe that efforts to strengthen the inquiry and 
investigation into the qualifications for fiduciaries will 
ensure a higher level of service for many of our beneficiaries. 
It will be important, however, to ensure that VA exercises 
appropriate discretion to ensure that family member fiduciaries 
are not unduly burdened in complying with requirements.
    Again, thank you for the opportunity to share our views on 
each of these bills and we look forward to answering any 
questions that you may have today. Thank you.

    [The prepared statement of Heather Ansley appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Ansley.
    Mr. Murphy.

                 STATEMENT OF MICHAEL D. MURPHY

    Mr. Murphy. Mr. Chairman, Members of the Committee, and 
staff, it is truly my honor to be here for this hearing.
    As Executive Director of the National Association of County 
Veterans Service Officers, I am here today to comment on the 
proposed bill, H.R. 733, to grant access to Veterans 
Administration information to governmental veteran service 
officers.
    The National Association of County Veterans Service 
Officers is an organization made up of local government 
employees, local government employees that believe that we can 
help the Department of Veterans Affairs reduce the number of 
backlogged benefits claims that veterans are currently waiting 
to have adjudicated by the Department of Veterans Affairs.
    Our members work in local government offices as an arm of 
government, if you will, in 37 states and currently it 
comprises 2,400 full-time employees in 700 communities. We are 
not like a veteran service organization. We are not dues driven 
or membership driven.
    Every veteran, their dependents, and their survivors who 
live in our respective jurisdictions are our clients. We serve 
them at no cost to the client. We are equipped to handle and 
ready to assist veterans one on one with every Department of 
Veterans Affairs' benefit, state and local benefits, and the 
reason we are here today to assist them in tracking with their 
claim.
    There are over 22 million honorably discharged veterans of 
the Armed Forces of the United States. During the course of 
their life after the military, they may have occasion to file a 
benefits claim for pension or compensation.
    Most veterans are not a member of a veteran service 
organization, but the chances are that they will live in one of 
our communities served by a state, county, or veteran service 
officer, or city veteran service officer. To the citizens of 
our communities, we are the Veterans Administration.
    The main issue we are here to talk about today is a lack of 
cooperation by the Department of Veterans Affairs in 
recognizing our members as an arm of government. We are treated 
as if we are a veteran service organization rather than what we 
are.
    As governmental employees, we are not unlike the VA itself. 
There is just a failure to recognize us in that light.
    Let's say a veteran comes into my office to file a claim 
for a knee injury that occurred while the veteran was on active 
duty in the army. We have to first determine his eligibility on 
wartime, peacetime service, and a number of factors established 
by the Veterans Administration.
    Let's say the veteran appears to be eligible. We then put 
together a claim for compensation, gather up medical evidence, 
service medical records, service records, buddy statements, and 
other pertinent information and submit the claim to one of a 
number of veteran service organizations.
    We help the veteran select the veteran service organization 
to represent the veteran through the power of attorney. This is 
done so that the veteran may have representation at the VA 
regional office for any subsequent appeals that may occur.
    Our local government veteran service officers may hold the 
power of attorney, but many are just too far away from the 
regional office to adequately represent their client. My own 
office is 305 miles away from the regional office.
    Then after about three months, the veteran comes back into 
my office and asks what the status of his claim is because he 
has heard nothing. I have no way to gain this knowledge even 
though the claim originated in my office. I have to refer him 
to the VA's 1-800 number and hope that he can ask the right 
questions or back to the veteran service organization that 
holds his power of attorney and who he does not know and 
probably won't call. Hopefully he won't go to another 
jurisdiction and file another claim which adds to the backlog.
    What we are asking in this bill under consideration is to 
allow the government veteran service officers to have read-only 
access to their clients' information. This will allow a local 
government veteran service officer to properly track and 
provide follow-up for their clients.
    Sometimes a veteran will file an appeal on a deny claim and 
then go to another veteran service officer in another 
jurisdiction and file another claim for the same thing. This 
ultimately adds to the backlog and unnecessarily bogs down the 
system. If enacted, this bill would avoid duplication of claims 
which in turn will assist in reducing the backlog of claims.
    We know there is much consternation on the part of the 
Veterans Administration regarding this issue. They have had 
some problems in the past keeping secure that information that 
veterans must give to the government to obtain the benefits 
they earned. We understand this and are held to the same 
standards as the VA already.
    Remember that the majority of claims for compensation and 
pension originate in local governmental veteran service 
officers. We are required to keep secure that information that 
we are supplied to the veteran service organizations and 
ultimately to the Veterans Administration.
    As a prerequisite to receive access to the VA databases, 
the government employee must be accredited with the Veterans 
Administration, must have attended and successfully completed 
training responsibility, involvement and preparation of claims 
or TRIP training, and must have had a background check 
performed on them as a condition of employment.
    In closing, the National Association of County Veterans 
Service Officers recommends that this Committee move this bill 
along in the legislative process. We believe that this bill has 
the potential to make a significant difference in the lives of 
returning veterans and will afford them a better opportunity to 
obtain their earned benefits.
    Thank you for your time and attention.

    [The prepared statement of Michael D. Murphy appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Murphy.
    And thank all of you for your testimony.
    I wanted to give a special thanks to Colonel Norton. I know 
he went above and beyond, if you can believe that, having 
emergency dental surgery yesterday and not only that, his 
daughter was in Boston at the marathon.
    So thank you for doing everything you could to get here to 
help us move this important legislation.
    Colonel Norton. Thank you, Mr. Chairman. I appreciate that.
    Mr. Runyan. With that being said, Mr. Murphy, my first 
question is for you. Why do you believe the VA is reluctant to 
grant additional access to county veteran service officers?
    Mr. Murphy. I think it is exactly for the reason I stated 
in the testimony is that they have had problems with 
safeguarding this information in the past.
    I think they received an awful lot of egg on their face 
over that lost computer or whatever the situation was. It hit 
the press. It was a bad situation for everybody involved. And 
we certainly understand that.
    I mean, we are held to the same standards at the county 
level where I work. The HIPAA regulations, everything is 
exactly the same for us as for them. I think that is the main 
reason they are reluctant in doing it.
    Mr. Runyan. I know in a Federal office, a veteran has to 
sign a release for us to even start to process their claim.
    Is it much the same process where you are at?
    Mr. Murphy. Exactly. And when they come in, we hold a file 
on them, our own C file, if you will, and track that claim as 
best we can so that we have information readily available to 
the veteran.
    Unfortunately, we just cannot find out the status of it 
based on that. So----
    Mr. Runyan. That is kind of in the same line of questioning 
to Mr. Hall and Mr. Kelley. I understand the security concerns.
    How do we avoid them? I mean, obviously Mr. Murphy has what 
he feels the fear of the VA, and we know you have to have 
clearance to do any of this. How do we make it happen and 
satisfy the VA fear?
    Mr. Hall. When this legislation was, another version of it 
was in the last Congress, we had recommendations for improving 
the language of that to allow DAV to be able to support this.
    We are pleased to say that it has moved along further in 
the present tense bill and we do not really have a problem in 
supporting this particular legislation or I should say it this 
way. We can support this legislation provided that those 
additional security measures that we are asking for are 
incorporated into that language, written permission from the 
veteran to ensure that he or she has given that to that 
particular service officer to be able to access it, and also--
--
    Mr. Runyan. Do you see an issue with people going out there 
without their request being made?
    Mr. Hall. Could be. Again, one of our previous concerns on 
how we phrased it when the last bill was presented was simply 
they do not have to have a power of attorney and if they have 
access--I have to have a power of attorney through DAV. I am an 
accredited service officer to be able to do that. That gives me 
the ability to access the system.
    What we are talking about in a bill, if we are going to 
allow anybody, any service officer, county service officer in 
this case that we are referring to, to access a record, they 
need to have written permission in the file from the veteran to 
do so.
    Would they? Could. There is nothing in the bill that would 
stop them from doing it which leads to the second point which 
is the bill should contain language or a provision in there 
that clearly spells out any violations of such access.
    And we are not saying that they are out there just 
maliciously and every one of them is going to do it. Let's be 
fair minded here. We want to ensure that it is minimized at the 
very most because even as the gentleman to the end has said, 
you know, there has been incidents in the past. We just want to 
ensure that a veteran is protected and we feel that our three 
recommendations that we have included will do that.
    Mr. Runyan. I know everybody kind of commented on our 
notice of the disagreement of form. Is it more just how we are 
titling the form than anything else, Mr. Kelley?
    Mr. Kelley. It is. We read it and I called Mr. Hall and we 
both concluded the same thing. That there is a process in 
place. And it felt like because of the title of it that the 
process was being diverted. So just changing it to that notice 
of disagreement at the beginning clarifies that, the process 
stays the way it is. Nothing else would need to be changed 
within Code or regulation. And veterans would be better served 
with this bill passing.
    Mr. Runyan. Ms. Ansley, did you want to say something?
    Ms. Ansley. I would like to say I showed the bill to our 
National Service Director and got the very same question of 
which appeal form are we talking about? So it is people who 
look at the claims everyday. Nothing against including a notice 
of disagreement form. But he just was not certain exactly what 
it was that was being referred to, and he has been doing 
benefits for a number of years as an attorney. So we just want 
to make it clear, that was our only thing. And I think that 
would associate with my colleagues.
    Mr. Hall. And again, Mr. Chairman, our understanding as of 
this morning that there is a standardized notice of 
disagreement form that has been created, developed, and is 
currently, by VBA, and is currently over at OMB waiting final 
approval. That clearly would say at the top of it notice of 
disagreement. And I understand now upon first reading it, as my 
colleagues have said, upon first reading, I didn't know exactly 
what form we were talking about. Because the only appeal form I 
know of is the VA Form 9, which is a Board form and not a VBA 
form. And so just a simple clarification of what exactly it is 
that, what form we are talking about to be included. And so if 
it is the standardized notice of disagreement, then that is 
fine.
    Mr. Runyan. Thank you. With that, I recognize the Ranking 
Member Ms. Titus.
    Ms. Titus. Thank you very much, Mr. Chairman. And thank all 
of you for coming. It is very valuable for us to have your wise 
counsel on these bills as we move forward. I would like to 
start by saying that I am the cosponsor, and a proud cosponsor, 
of 569 and 570, the American Heroes COLA Act. And I completely 
agree with those of you who made the statement that we do not 
want to see this tied to any kind of chained CPI. And I, that 
would not be my intent at all and I would fight against that.
    Second, the bill that you all have been talking about is my 
bill, H.R. 1405, about the request to include the form when you 
send out a denial for benefits. And I very much appreciate your 
support. And I look forward to working with you on clearing up 
that language. We do not want to make it more trouble. We want 
to make it easier. And in previous hearings we heard that once 
you get the denial you have a certain amount of time to request 
the form. Then they have a certain amount of time to send you 
the form. And then you are down the road several months. If you 
get the form when you get the denial, then you can go forward 
much more quickly and expeditiously and that is what our intent 
was. So thank you for helping us clear that up. And we want to 
put that language in there that meets those needs.
    Also, I just want to ask you kind of a general question. 
When I was in the Nevada legislature I had a bill to create the 
Office of Women's Services in Nevada. Some states have it. Some 
do not. We did not, even though we had about 30,000 women 
veterans in the state. And they are often referred to as 
forgotten veterans because they are less likely to take 
advantage of benefits, both health care and education, than our 
men. I am very supportive of Chellie Pingree's bill before us 
today about sexual assault. But I wonder if in some of your 
assistance to veterans groups you have come across other things 
that we could do to help with women veterans specifically that 
you might want to suggest to us? And if not right now, maybe 
you would think about that and get that information to me?
    Mr. Kelley. Thank you, ma'am. If I could, as you suggested, 
we would like to submit for the record on that. One of my 
colleagues in our national office has served on the VA Advisory 
Committee on Women Veterans and this is a big issue in terms of 
the cultural development, if you will, the cultural evolution 
of the VA. I think they are doing a lot more to be welcoming to 
women veterans. But there is still a lot more to be done. I 
mean, the face of the VA frankly still today looks like guys 
like me. But we need to be much more receptive to our young 
women warriors who are coming back from Iraq and Afghanistan, 
and for women who have served during previous periods of 
conflict. It is a very important issue. And we would look 
forward to providing some information to the record on that. 
Thank you.
    Ms. Titus. Thank you.
    Mr. Hall. I would just say, I do not personally have that 
in my portfolio at my office. But we do have quite a forward 
Stand Up for Women Veterans initiative that we have had for 
several years. And what I would like to do is take that for the 
record and go back to our Deputy Joy Ilem who handles that 
particular matter and hopefully can provide you some, I am 
sure, some suggestions.
    Ms. Titus. Well I would appreciate that. And we will see if 
there is anything we can do legislatively. And I would like to 
work with the Chairman to follow up on some of that. So thank 
you very much.
    Colonel Norton. I would like to comment as well.
    Ms. Titus. Sure, please do.
    Colonel Norton. Three priorities is passing the Ruth Moore 
Act. Second is outreach to women veterans, to let them know 
they are veterans, to let them know there is access. I was at 
the Baltimore VA yesterday for an appointment. As I walked in 
and checked, I looked over at the sign to point you to the 
right room, there is a women's clinic there. I went up to the 
neurology floor where I needed to be seen, and more than half 
of the patients in there were female veterans. So women are 
starting to recognize they have those, that accessibility.
    We also need to do training. So when a, when any veteran 
walks up, that they are treated properly. And specifically 
women veterans. So there is not the assumption that they are 
the spouse or the daughter of some other veterans. The training 
within VA to make sure that folks know that women veterans are 
coming here, treat them as such.
    Ms. Titus. Thank you. Thank you, Mr. Chairman.
    Mr. Runyan. Thank you. Mrs. Negrete McLeod? Okay. Well on 
behalf of the Subcommittee I want to thank each of you for your 
testimony. And you are all now excused and I will ask the third 
panel to come to the table.
    On this panel we will hear from David McLenachen, Director 
of Pension and Fiduciary Services with the U.S. Department of 
Veterans Affairs. He is accompanied by Mary Ann Flynn, Deputy 
Director for Policy and Procedures Compensation Service with 
the U.S. Department of Veterans Affairs, and Mr. Richard 
Hipolit. Mr. McLenachen, you are now recognized for your 
testimony.

    STATEMENT OF DAVID R. MCLENACHEN, DIRECTOR, PENSION AND 
    FIDUCIARY SERVICE, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
  ACCOMPANIED BY MARY ANN FLYNN, DEPUTY DIRECTOR, POLICY AND 
 PROCEDURES COMPENSATION SERVICE, U.S. DEPARTMENT OF VETERANS 
 AFFAIRS; AND RICHARD HIPOLIT, ASSISTANT GENERAL COUNSEL, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                STATEMENT OF DAVID R. MCLENACHEN

    Mr. McLenachen. Mr. Chairman and Members of the 
Subcommittee, thank you for the opportunity to present VA's 
views on several bills that are pending before the Committee. 
Joining me today, as you just heard are Ms. Mary Flynn, an 
Assistant Director in VA's Compensation Service, and Assistant 
General Counsel Richard Hipolit.
    The issues covered by these bills are important for 
veterans and we look forward to working with the Subcommittee 
on these bills. VA strongly supports the bills providing cost-
of-living adjustments to the rates of disability compensation 
and dependency and indemnity compensation because they tangibly 
express the Nation's gratitude for the service of disabled 
veterans and their survivors.
    We are also glad to offer our support for H.R. 1405, which 
would require VA to provide with notice of each decision on a 
claim for benefits a standard form that may be used to appeal 
the decision. It would simplify the appeal process and improve 
the timeliness and quality of processing notices of 
disagreement.
    H.R. 602 would in effect exclude VA determinations of 
incompetency from the coverage of the Brady Handgun Violence 
Protection Act restrictions. VA does not support this bill. 
However, we believe VA provides adequate protection to veterans 
who cannot manage their own financial affairs under current 
authority, which allows a beneficiary to reopen the issue of 
competence or petition VA for relief from the Brady Act 
restrictions.
    Mr. Chairman, the Secretary and the Under Secretary for 
Benefits have a strong interest in ensuring that military 
sexual trauma receives the attention it deserves in VA. VA is 
committed to serving veterans by accurately adjudicating claims 
based on sexual trauma in a thoughtful and sensitive manner, 
while fully recognizing the unique evidentiary considerations 
presented by each individual claim. To address those 
considerations, VA developed policies and procedures intended 
to assist claimants in developing evidence for these claims and 
trained its personnel on proper adjudication. As we describe at 
lengthy in our testimony, our focused training and recognition 
of the unique evidentiary considerations for each claim has 
yielded a significant increase in grant rates.
    Regarding H.R. 671, we do have concerns detailed in our 
testimony about the evidentiary standards in the bill which 
could have unintended consequences for the claims process. 
Because of the progress we have made with these claims under 
revised procedures, policies, and training, VA prefers to 
continue pursuing non-legislative actions to address the 
special nature of claims based on military sexual trauma.
    H.R. 679 would add a provision to current law to honor as 
veterans based on retirement status alone certain persons who 
performed service in the Reserve components of the armed 
forces. VA recognizes that the National Guard and Reserves have 
admirably served this country. However, VA does not support 
this bill because it represents a departure from active service 
as the foundation for veteran status.
    H.R. 733 would require VA to provide a covered employee 
with access to VA's case tracking system to provide a veteran 
with information regarding the status of his or her claim 
regardless of whether the covered employee is acting under a 
power of attorney executed by the veteran. VA does not support 
this bill because it would lessen veterans' personal privacy 
protections while adding a significant administrative burden 
for VA.
    VA appreciates the Committee's interest in improving the 
fiduciary program but finds several provisions of H.R. 894 
problematic. Although VA does not support these measures, VA 
shares the desire to improve the program and has already taken 
significant steps to address concerns. For example, VA 
consolidated its fiduciary activities to six regionally aligned 
fiduciary hubs; rewrote all of its fiduciary regulations; 
implemented a new field examiner training program; and designed 
a new information technology system for the program.
    Currently, 92 percent of the beneficiaries in the program 
receive services from an unpaid, volunteer fiduciary, generally 
a family member or a friend. However, VA appoints paid 
fiduciary in some of its most difficult cases. This bill would 
reduce fiduciary commissions to three percent of the 
beneficiary's monthly benefits, or $35, whichever is less. It 
would also require both paid and volunteer fiduciaries to pay 
the expense of a surety bond out of the fiduciary's own funds 
rather than out of the beneficiary's funds. These provisions 
would create a strong disincentive for service vulnerable 
veterans and their survivors and might significantly impair the 
program.
    Among other things, VA is also concerned about provisions 
that would require it to obtain an annual accounting regarding 
every beneficiary in the program that has a fiduciary, 
currently more than 135,000 beneficiaries. VA opposes these 
provisions because they would burden fiduciaries, again most of 
whom are volunteer family members or friends, without 
significantly improving VA's oversight.
    Mr. Chairman, this concludes my statement. I am happy to 
entertain any questions that the Subcommittee may have.

    [The prepared statement of David R. McLenachen appears in 
the Appendix]

    Mr. Runyan. Thank you very much. And with that I really 
want to start with the fiduciary program. We had this 
conversation last year and you know, you said you intended to 
take a look at the statutes governing the fiduciary program and 
make recommendations that might improve it. Do you have any 
specific examples of any changes you have made to improve it?
    Mr. McLenachen. You mean separate from statutory matters? 
Yes, sir. In addition to the four that I have mentioned 
actually the system that we have designed is being piloted this 
summer. One of the most significant flaws we have had is an 
inadequate IT system for the fiduciary program. So we are 
actually beyond the point of design. We are building it now. 
And it will be piloted this summer.
    Also we have issued guidance clarifying that the role of 
the fiduciary is actually to determine what is in the best 
interests of a beneficiary, not VA. This is one of the major 
issues that we discussed at the last hearing we attended.
    We have issued guidance regarding fees, specifically 
whether a fiduciary can take fees out of a retroactive benefit 
payment which as you know happens in virtually every case where 
we award benefits. We have made it clear that that is not 
appropriate. Rather, fees can only come out of monthly 
benefits.
    In addition we issued guidance to our fiduciary hubs 
instructing them to advise fiduciaries that they must provide a 
copy of an approved annual accounting directly to the 
beneficiary that they serve again to change the culture in the 
fiduciary program to ensure that fiduciaries are actually 
acting as fiduciaries. The point being that VA is not the 
fiduciary.
    As far as statutory initiatives as part of the President's 
budget submission, we have a legislative proposal to provide VA 
an exemption to the Financial Right to Privacy Act so that we 
can obtain better information directly from financial 
institutions where fiduciary accounts are maintained. That is 
just a sample of some of the things we have done, sir.
    Mr. Runyan. I will go back to the beginning part of the 
statement, when you are referring to guidance are you talking 
about regulation or training letters?
    Mr. McLenachen. Regulations sir, I think as I have 
mentioned in a prior hearing, they have been completely 
rewritten. The concurrence process in VA is as of today almost 
complete. OMB has an advance copy of it. I am very hopeful that 
those regulations will hit the street for public comment very 
soon. Many of the other things that we have done have been in 
guidance to our field personnel through what we call fast 
letters, those are guidance documents that we issue.
    Mr. Runyan. I have another question going back to the 
COLAs. Can you explain the rationale behind the round down 
requirement? And any benefits that are derived from its usage?
    Mr. McLenachen. Well sir, my knowledge of it is pretty much 
consistent with the prior panel. Those round down provisions 
have been in place for approximately 20 years. It is my 
understanding that the original intent was to gain savings. 
However, they have been in place for a long time now. VA does 
not view the round down provision in your bills as a reduction 
in benefits. Rather, it is a continuation of benefits as they 
have been for a very long time. And VA fully supports your 
bills as well on that.
    Mr. Runyan. Is there any other place that round down is 
used? For benefits anywhere else?
    Mr. McLenachen. It is not solely related to the DAC and 
compensation benefits. But I think I had better defer to Mr. 
Hipolit. He may have an idea of where it might be used in other 
law.
    Mr. Hipolit. No, I do not have an example elsewhere, 
although that is something we certainly could check and provide 
to the Committee as a service if you would like us to do that.
    Mr. Runyan. I would appreciate that. And one last question. 
You said, in going back to the fiduciary stuff, you are saying 
they are being rewritten. Is there a timeline where they are 
going to be available?
    Mr. McLenachen. Well I can tell you this, sir, that under 
an Executive Order regarding rulemaking, OMB has 90 days to 
review a regulation once VA submits it to OMB for review. So I 
view that as the outer boundary of the time. I know that all of 
the concurrence process within VA is nearly complete, based on 
the information that I have.
    Mr. Runyan. Okay. With that I will recognize the Ranking 
Member Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. And thank you all for 
being here. I understand your comments about H.R. 671, and the 
preference to do it through regulation, and not through 
legislation. In a previous hearing, the VA indicated that you 
would be willing to, or offering to, readjudicate all 
previously denied claims that were regarding military sexual 
trauma. I wondered if you could give us an update on this? Tell 
us where it is, when it will be completed, how many cases have 
been readjudicated.
    Mr. McLenachen. Ma'am, I am going to let Ms. Flynn answer 
that question. She is the expert in this area.
    Ms. Titus. Thank you.
    Ms. Flynn. Thank you. Yes, ma'am. Since the hearing last 
July we have actually undertaken, we are going to do two 
different reviews. One has been completed, and that was a 
review of a statistically valid sample of MST claims that had 
previously denied where an examination was provided. So we 
sampled approximately 300 claims and our Nashville quality 
assurance office conducted a specially focused review on those 
cases. And that was at the request of Representative Pingree. 
We found that the overall accuracy of that focused review was 
that 86.19 percent were accurate. And that compares favorably 
with the current national benefit entitlement accuracy level of 
86.31 percent.
    With regard to the larger review that you mentioned, we are 
going to be sending out letters to veterans advising them of 
the opportunity to request VA review their previously denied 
MST claims. The steps that we have undertaken leading up to 
that have been that we requested and received an opinion from 
the Office of General Counsel regarding the authority to do a 
review, the scope of that review, and how to resolve various 
effective date issues. We have since prepared a letter to the 
veterans. That is scheduled to go out probably at the end of 
this week. And we expect that a certain percentage of them will 
request that their claims be reviewed again. At which time we 
will ensure that they get the proper full development and 
focused review by our claims adjudicators who have been 
specially trained in MST claims.
    Ms. Titus. And can you tell me how you determine who gets a 
letter?
    Ms. Flynn. In our database we have done a data pull that 
links, these will be people who have previously submitted a 
claim for PTSD based on military sexual trauma. If they were 
denied then they will be sent a letter. Now the caveat is that 
our database only linked that MST identifier going back to 
2009.
    Ms. Titus. Only 2009?
    Ms. Flynn. I'm sorry. It's either 2008 or 2009. But there 
is definitely going to be a gap in years since the regulation 
that relaxed the evidentiary standards was put into place 2002. 
And so for those, to reach those veterans, we plan to have an 
outreach process and a notification process advising them of 
the opportunity to seek review of their claims.
    Ms. Titus. And how will you do that? When you talk about 
outreach, what does that mean?
    Ms. Flynn. Well our Public Affairs Office is working up a 
communications plan. It involves notifying the stakeholders, 
getting the word out to the VSOs, as well as the call centers, 
and the benefits assistance office, and enlisting the help of 
whoever we can to get the word out. In our experience, usually 
favorable reviews such as this, the word spreads quickly. So we 
are optimistic that we will reach the targeted audience.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Runyan. Mrs. Negrete McLeod? No questions? I do have 
another question. Mr. McLenachen, talking about having the 
standardized appeal form, in your opinion would such a form 
have any noticeable impact on the current backlog?
    Mr. McLenachen. Sir, I think it is our position that moving 
forward that is exactly the type of thing that VA needs to do. 
In other words, simplify the benefits programs that we 
administer by having things like standardized forms. What that 
leads to is ease in automating and developing rules based 
systems for the benefits that we administer. So this is a very 
good start. And we wholeheartedly support it for that very 
reason.
    Whether it would have a measurable impact on the backlog? I 
cannot answer that question. On the other hand, it is a matter 
that relates directly to appealed cases. So that is not 
directly related to the backlog of claims that have not been 
adjudicated finally. But to the extent that there is a backlog 
of appeals, or there is delays in the appeals process because 
we cannot identify a notice of disagreement, currently a notice 
of disagreement can be written on anything and given to VA in 
any format as long as it is written. That creates problems 
because we are required by regulation to go out and clarify 
whether that is an NOD and what the claimant's intent is. So to 
the extent all of that removed from the system by having a 
standardized form, it would be very helpful in the appeal 
process.
    Mr. Runyan. Thank you. With that, no further questions? 
Well on behalf of the Subcommittee I want to thank all of you 
for your testimony, and we look forward to working with you 
often in the future on a wide range of challenges facing our 
Nation's veterans. You are all excused. I ask unanimous consent 
that all Members have five legislative days to revise and 
extend their remarks and include extraneous material. Hearing 
no objection, so ordered. I thank the Members for their 
attendance today and this hearing is adjourned.

    [Whereupon, at 4:03 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
    Good morning. This legislative hearing on H.R. 569, H.R. 570, H.R. 
602, H.R. 671, H.R. 679, H.R. 733, H.R. 894, and H.R. 1405 will now 
come to order.
    Today we have a large number of witnesses present due to the high 
level of interest in some of the bills before us. Therefore, in the 
interest of time, I am going to forgo a lengthy opening statement and 
just briefly touch on three bills on today's agenda which I am proud to 
have introduced.
    H.R. 569, the Veterans Compensation Cost of Living Act, or COLA, of 
2013, provides a cost of living adjustment increase to veterans' 
disability compensation rates and other benefits.
    H.R. 570 is the American Heroes COLA Act, which is related to the 
aforementioned COLA act of 2013, except this bill seeks to make 
permanent the annual increase to veterans' disability compensation 
rates and other benefits by tying the increase to the cost of living 
adjustments for social security benefits.
    With the passage of the America Heroes COLA Act, veterans will 
never again have to depend on Congressional action to receive an 
increase to the cost of living adjustment they have more than earned 
through their service. Instead, these increases will become automatic 
from year to year just as Social Security benefits increases are 
adjusted automatically every year.
    As some of you may recall, last year our annual COLA bill was held 
up in the Senate, with reports that it had been put on ``secret hold'' 
by a Senator. There was some question as to whether the bill would pass 
and if veterans would receive their annual COLA in a timely manner. The 
situation was unacceptable and unfair to our veterans. Thankfully, with 
pressure from this Committee and the veterans' community, the bill was 
ultimately passed and signed into law. However, last year's situation 
highlights the need for this legislation.
    The final bill I have sponsored is H.R. 733, the Access to Veterans 
Benefits Improvement Act, which provides certain local government 
employees, and certain employees of Congress access to case tracking 
information through the Department of Veterans' Affairs.
    There is no doubt that we have a responsibility to serve our 
veterans by ensuring that every effort is made to simplify the claims 
process. Key actors in this effort are county veteran service officers, 
whose expertise in claim development benefits veterans in many 
communities across America. Their assistance is especially critical to 
many thousands of veterans who live in rural areas, hours away from a 
VA regional office.
    Many veterans are overwhelmed as they try to navigate their way 
through the claims process, and they are further frustrated when they 
ask for help from their county VSO, or their Member of Congress, and 
that person cannot directly access even the most basic information 
about the status of their claim.
    This bill would allow these local government officials to check on 
the status of a veterans claim, and ensure that VA has all of the 
information needed to process claims in the most efficient manner 
possible.
    Again, in the interest of time, I would like to reiterate my 
request that today's witnesses abide by the decorum and rules of this 
hearing and to summarize your statement to five minutes or less during 
oral testimony. We have a large number of individuals ready to testify 
on legislation today, and I want to make sure everyone is heard in a 
timely manner. I would also remind all present that, without any 
objection, your written testimony will be made part of the hearing 
record.
    I appreciate everyone's attendance at this hearing and now call on 
the Ranking Member for her opening statement.

                                 <F-dash>
                 Prepared Statement of Hon. Dina Titus
    Thank you Mr. Chairman.
    Today, we have a full schedule that includes eight bills before us 
that address some of the unique needs of our Nation's veterans' 
population. The bills pertain to a variety of issues ranging from 
military sexual assault and recognizing Guard and Reserve members to 
increasing compensation and improving the appeals process.
    I support several of these provisions, and I am proud to have 
worked with the Chairman to introduce the disability compensation COLA 
bills, H.R. 569 and H.R. 570.
    H.R. 602, the Veterans 2nd Amendment Protection Act, sponsored by 
Full Committee Chairman Miller would require that a judicial authority 
adjudicate a veteran or other beneficiary in need of fiduciary 
assistance as mentally defective for the purposes of reporting to the 
Department of Justice National Instant Background Check System, instead 
of the current system which requires VA to report these individuals to 
NICS.
    The next bill on today's agenda, H.R. 671, Ruth Moore Act of 2013, 
was introduced by Ms. Pingree of Maine, and I am pleased to see it 
included here today. Many veterans who are victims of military sexual 
trauma (MST) express frustration with attempting to file disability 
claims for post-traumatic stress; particularly in trying to prove to 
that the assault ever happened. In July 2010, the VA relaxed its 
evidentiary standards for PTSD, which also includes MST. However, there 
are still disparities in compensation and confusion within VBA on when 
service-connection compensation for MST is warranted. H.R. 671 seeks to 
ensure that more is done to eliminate these hurdles.
    H.R. 679, the Honor America's Guard-Reserve Retirees Act, sponsored 
by Mr. Walz of Minnesota, a Member of the Full Committee, would grant 
honorary veteran status to retired members of the Guard and Reserve who 
completed 20 years of service. I support this bill but understand the 
reservations concerning moving the envelope on what type of service 
accords veteran status, as outlined in VA testimony and in that of some 
of the VSOs.
    Your other bill, Mr. Chairman, H.R. 733, the Access to Veterans' 
Benefits Improvement Act, would grant county veteran service officers, 
other State and local employees as well as staff of Members of Congress 
with greater access to veterans' claims information for tracking 
purposes. I understand and appreciate the need for county VSO's to have 
better access to claims for which they may have the Power of Attorney 
for the veteran.
    Next, H.R. 894, introduced by Mr. Johnson of Ohio, also a Member of 
the Full Committee, seeks to reform VA's fiduciary program.
    And finally, my bill, H.R. 1405, would target the appeals process. 
This measure would require that a VA Appeals form is included with a 
Notice of Decision letter, instead of waiting for a veteran to exercise 
his or her appeal rights before sending the form to the veteran. I 
believe this is a simple courtesy VA could extend to our Nation's 
veterans.
    I thank all of the Members for their thoughtful legislation. And, I 
thank all of our esteemed witnesses for joining us today and look 
forward to receiving their testimonies.
    Thank you and I yield back.

                                 <F-dash>
               Prepared Statement of Chairman Jeff Miller
    Thank you Mr. Chairman.
    With your permission, I would like to make a few remarks on H.R. 
602, the Veterans' Second Amendment Protection Act, a bill that I 
introduced to protect the constitutional rights of our Nation's 
veterans.
    This piece of legislation would end the arbitrary process through 
which the Department of Veterans Affairs (VA) strips certain veterans 
and other beneficiaries of their second amendment rights.
    Under current practice, veterans who have a fiduciary appointed to 
manage their affairs are deemed to be ``mentally defective.'' And as a 
result, these veterans are reported to the FBI's national instant 
criminal background check system (NICS), a system which prevents 
individuals from purchasing firearms in the United States, and 
criminalizes the possession of a firearm.
    I label this process ``arbitrary'' because pursuant to VA 
regulation thirty-eight CFR section three point three five three, the 
definition of mental incompetency is: ``one who because of injury or 
disease lacks the mental capacity to contract or to manage his or her 
own affairs, including disbursement of funds without limitation.''
    In plain English, this means that if VA determines that a person 
cannot manage their finances and needs a fiduciary, their second 
amendment rights are automatically taken away. This makes no sense. As 
a reminder, a majority of VA's regulations concerning fiduciary matters 
are from 1975. Although in the course of this Committee's oversight, VA 
has indicated that it will update these regulations, to date, no new 
fiduciary regulations have been promulgated.
    In previous discussion with VA, I have emphasized that its 
regulatory scheme does not take into account the importance that our 
judicial system plays in determining when someone's constitutional 
rights should be infringed upon.
    I would again encourage VA to update its regulations accordingly. 
As a reminder, the department itself was opposed to judicial review of 
any kind on VA determinations all the way through 1988. Judicial 
proceedings are comprehensive and all interested parties have a right 
to be represented and heard during them.
    This is a far cry from the process during which a VA rating 
specialist determines that a veteran is mentally defective. 
Accordingly, the Veterans' Second Amendment Protection Act would 
require that a judicial authority - rather than an internal VA 
decision-maker - make the determination that a veteran poses a danger 
to themselves or others prior to their name being sent to the NICS.
    Taking away a constitutional right is a serious action and one that 
should not be taken lightly, particularly when it concerns our Nation's 
veterans. Affording veterans their due process rights under the law in 
any and all contexts is of utmost importance to me.
    As will be further discussed during this hearing, there are other 
issues with VA's fiduciary program that also affect veterans' due 
process rights. I will defer to the witnesses that have been called 
here today to testify as to the specifics of the fiduciary program as a 
whole for further comment.
    Mr. Chairman, I thank you and the Members of the Subcommittee for 
your time. I would like to encourage all of you to support H.R. 602, 
the Veterans' Second Amendment Protection Act, and I yield back.

                                 <F-dash>
               Prepared Statement of Hon. Chellie Pingree
    Thank you Chairman Runyan and Ranking Member Titus for having me 
here today and for considering the Ruth Moore Act in this afternoon's 
legislative hearing. I appreciate the opportunity to talk more about 
this bill and why I think we desperately need it to become law.
    This legislation has been endorsed by the American Legion, Disabled 
American Veterans, Veterans of Foreign Wars, Vietnam Veterans of 
America, Iraq and Afghanistan Veterans of America, Service Women's 
Action Network, Military Officers Association of America, the National 
Organization of Veterans' Advocates, and the Fleet Reserve Association. 
We appreciate their support and all the work they do for veterans.
    The Ruth Moore Act would relax the evidentiary standards for 
survivors of military sexual trauma who file claims for mental health 
conditions with the VA. Currently, MST survivors need further proof of 
the assault--which for many of them is impossible. Under this bill, in 
order to receive service-connected benefits, a veteran would have to 
provide a statement that the assault took place; along with a diagnosis 
from a VA health care professional that links the assault to a mental 
health condition.
    This bill also requires the VA to report MST related claims 
information back to Congress, such as the number of denied and approved 
MST claims each year, and the reasons for denial. As members of 
Congress, we have a responsibility to ensure that the VA is providing 
timely and accurate decisions to veterans, but we cannot do that 
without sufficient data.
    This bill is closely modeled after the 2010 change in VA 
regulations for combat veterans who have filed PTSD claims based on 
their military service.
    As you know, in 2010, the VA relaxed the evidentiary standards for 
veterans who suffer from combat related PTSD. The VA finally 
acknowledged that far too many veterans who have deployed into harm's 
way suffered the emotional consequences of their service but could not, 
through no fault of their own, locate military documentation that 
verified the traumatic events that triggered their PTSD.
    The VA now accepts their statement of traumatic events, along with 
a PTSD diagnosis and a medical link, as enough to receive disability 
benefits.
    So what we have is an inequity in the system, and those with a 
combat related mental health condition have an easier path to benefits 
than those who were raped or sexually harassed--even though both are 
service-connected injuries and the same standards should apply.
    Ruth Moore, who this bill is named for, is a US Navy veteran from 
Maine who was raped twice during her military service. When she 
reported it, she was discharged and labeled as having a personality 
disorder. She spent over 23 years fighting the VA to get disability 
benefits, and she battled homelessness and PTSD during that time.
    Ruth, like many MST survivors, did not have military records that 
corroborated the rape, so her claim was repeatedly denied. 
Unfortunately, she is not alone: DoD's own numbers indicate that over 
85% of assaults go unreported. So I ask you, how are these veterans 
supposed to qualify for the help they need from the VA?
    The VA will tell you that their system accepts ``secondary 
markers'' as evidence to verify an assault occurred--and as comforting 
as that sounds, we've seen time and time again that the VA is vastly 
inconsistent in applying those standards. What one Regional office will 
accept as proof another will deny. Almost every day I hear from another 
MST survivor who has had their claim denied after these secondary 
markers were ignored.
    This is a problem of fundamental fairness: If a medical diagnosis 
and link to a claimed event is enough for one group of veterans, it 
ought to be enough for another. Especially when we know how prevalent 
sexual assault in the military is and how hard it is for documentation 
to exist to support these instances of assault.
    Critics of this legislation might say that it makes it too easy to 
get benefits and veterans could just say anything to get those 
benefits. First of all, that's simply not true. There still needs to be 
a medical diagnosis and medical link, which are not at all easy to come 
by. And secondly, we heard that same argument when the VA proposed a 
similar change for combat veterans, and I haven't heard the VA say 
they've had big problems with veterans lying about their service.
    The bottom line is that for too long the burden of proof has been 
on the veteran--and that needs to change now.
    Mr. Chairman, over the last two years I have heard from dozens and 
dozens of veterans from all over the country. Men and women who 
volunteered to serve their country, many of them planning on a career 
in the military, only to have that career cut short by the horror of a 
violent, sexual assault.
    Whether the attack happened on a Navy base in Europe or at a 
National Guard training facility here in the U.S., whether they were 
soldiers, sailors, airmen or Marines, the story too often has the same 
ending: The victims were blamed, the crime was covered up, and the 
survivors themselves became the subject of further harassment and 
recrimination. And too often, what followed was years of mental health 
issues, lost jobs, substance abuse and homelessness.
    These stories don't have to end this way. With the Ruth Moore Act, 
we can change the VA's policy so veterans who survive a sexual assault 
can at least get the benefits they deserve.
    Again, thank you Mr. Chairman, Ranking Member Titus and Members of 
the Committee for considering this legislation. I am happy to answer 
any questions you may have.
Executive Summary
    HR 671, Ruth Moore Act of 2013

    Related Bill(s): S.294

    Sponsor: Congresswoman Chellie Pingree, (D- ME -01)

    SUMMARY AS OF:
    2/13/2013--Introduced.

    Ruth Moore Act of 2013 - Directs the Secretary of Veterans Affairs 
(VA), in any case in which a veteran claims that a covered mental 
health condition was incurred in or aggravated by military sexual 
trauma during active duty, to accept as sufficient proof of service-
connection a diagnosis by a mental health professional together with 
satisfactory lay or other evidence of such trauma and an opinion by the 
mental health professional that such condition is related to such 
trauma, if consistent with the circumstances, conditions, or hardships 
of such service, notwithstanding the fact that there is no official 
record of such incurrence or aggravation in such service, and to 
resolve every reasonable doubt in favor of the veteran. Allows such 
service-connection to be rebutted by clear and convincing evidence to 
the contrary.
    Includes as a ``covered mental health condition'' post-traumatic 
stress disorder, anxiety, depression, or any other mental health 
diagnosis that the Secretary determines to be related to military 
sexual trauma.
    Requires the Secretary to report annually to Congress in each of 
2014 through 2018 on covered claims submitted.
    Current Sponsors (*Original): Blumenauer*, Brownley*, Capps*, 
Connolly, DeFazio, DelBene, Ellison, Grijalva*, Honda*, Jones, Kuster, 
Larsen*, Lewis*, McGovern*, Michaud*, McLeod, Murphy, O'Rourke, Payne, 
Polis, Rush*, Shea-Porter*, Titus, Tsongas*
    Supported by: American Legion, Disabled American Veterans, Fleet 
Reserve Association, Iraq and Afghanistan Veterans of America, Military 
Officers Association of American, Service Womens Action Network, 
Veterans of Foreign Wars, Vietnam Veterans of America.

                                 <F-dash>
                Prepared Statement of Hon. Bill Johnson
    Chairman Runyan, Ranking Member Titus and Members of the 
Subcommittee:
    I appreciate the opportunity to testify before you on H.R. 894, 
important legislation I introduced to reform the Department of 
Veterans' Affairs (VA) Fiduciary Program.
    As most of you know, last Congress, I served as the Oversight and 
Investigations Subcommittee Chairman on the House Veterans' Affairs 
Committee. An investigation into the VA's Fiduciary Program by my 
Subcommittee revealed shocking behavior on the part of the VA's hired 
fiduciaries, and gross misfeasance on the part of the VA. Some 
fiduciaries - entrusted to manage the finances of our Nation's heroes 
who are unable to do so themselves - were caught abusing the system by 
withholding funds, embezzling veterans' money and other egregious 
actions.
    Furthermore, an Oversight and Investigations Subcommittee hearing 
held on February 9 of last year uncovered the fact that many of the 
VA's Fiduciary Program policies do not correspond with actual 
practices. For instance, the VA claims to have a policy stating 
preference for family members and friends to serve as a veteran's 
fiduciary. However, the investigation into the Fiduciary Program 
revealed instances where this is not the case. In one instance, the VA 
arbitrarily removed a veteran's wife, who served as her husband's 
fiduciary for ten years, and replaced her with a paid fiduciary. There 
are also many honest and hardworking fiduciaries that experience 
difficulty performing their duties due to the bureaucratic nature of 
the VA's fiduciary program. We owe it to America's heroes to provide 
them with a fiduciary program that is more responsive to the needs of 
the veterans it is supposed to serve.
    For these reasons, I am proud to sponsor H.R. 894, the ``Veteran's 
Fiduciary Reform Act.'' This important legislation, initially 
introduced last Congress, is based on problems uncovered before, 
during, and after the hearing, as well as valuable input from veterans' 
service organizations and individuals who have experienced difficulties 
with the program firsthand. It is designed to transform the VA's 
Fiduciary Program to better serve the needs of our most vulnerable 
veterans and their hardworking fiduciaries. And, most importantly, it 
will protect veterans in the program from falling victim to deceitful 
and criminal fiduciaries.
    Specifically, the Veterans Fiduciary Reform Act would require a 
credit and criminal background check each time a fiduciary is 
appointed, and allow veterans to petition to have their fiduciary 
removed if problems arise. It would also decrease the potential maximum 
fee a fiduciary can receive to the lesser of 3 percent or $35 per 
month, similar to Social Security's fiduciary program. This will help 
discourage those who enroll as VA fiduciaries with only a profit motive 
in mind.
    Importantly, H.R. 894 would enable veterans to appeal their 
incompetent status at any time, a right not currently granted to 
veterans. Additionally, it would allow veterans to name a preferred 
fiduciary, such as a family member.
    Last year, my Subcommittee heard numerous complaints about the 
requirement for fiduciaries to obtain a bond. While proper in some 
settings, it is inappropriate when it causes unnecessary hardship, such 
as a mother caring for her veteran son. This legislation would require 
the VA to consider whether a bond is necessary, and if it will 
adversely affect the fiduciary and the veterans he or she serves. H.R. 
894 would also direct the VA's Under Secretaries for Health and 
Benefits to coordinate their efforts to ensure that fiduciaries caring 
for their loved ones are not overly burdened by redundant requirements.
    Lastly, this bill aims to simplify annual reporting requirements. 
Currently, the VA does not have to review a fiduciary's annual 
accounting, and when it does, it places an onerous burden on those 
fiduciaries who are serving out of love, not for monetary gain. This 
bill will implement a straight forward annual accounting requirement, 
and gives VA the opportunity to audit fiduciary's whose accounting is 
suspect.
    These significant changes would strengthen the VA's standards for 
administering the Fiduciary Program, and increase protection for 
vulnerable veterans. Requiring background checks and lowering the fee a 
fiduciary can charge would also increase scrutiny of potential 
fiduciaries, and help root out potential predators. This legislation 
also adds a layer of protection for veterans with fiduciaries by 
incorporating the ability for veterans to petition to have their 
fiduciary removed and replaced.
    I am proud that last Congress, the Veterans Fiduciary Act of 2012 
passed the House Veterans' Affairs Committee unopposed, and passed the 
full House by voice vote on September 19, 2012. Unfortunately, this 
important legislation was not considered by the Senate, and therefore, 
the VA's Fiduciary Program is still in urgent need of reform.
    Chairman Runyan, Ranking Member Titus, thank you again for the 
opportunity to speak on this important legislation, H.R. 894. I am 
hopeful that this legislation will again be favorably considered by the 
Veterans' Affairs Committee, and this time become law. Our veterans 
were willing to sacrifice everything to serve our Nation, and they 
deserve to receive the care, benefits, and respect that they have 
earned.
Executive Summary
    Last Congress, the Veterans Fiduciary Act of 2012 passed the House 
Veterans' Affairs Committee unopposed, and passed the full House by 
voice vote on September 19, 2012. Unfortunately, this important 
legislation was not considered by the Senate, and therefore, the VA's 
Fiduciary Program is still in urgent need of reform.
    H.R. 894, the ``Veteran's Fiduciary Reform Act,'' is designed to 
transform the VA's Fiduciary Program to better serve the needs of our 
most vulnerable veterans and their hardworking fiduciaries, and to 
protect veterans in the program from falling victim to deceitful and 
criminal fiduciaries.
    In order discourage bad actors from enrolling as VA paid 
fiduciaries, this legislation would require a credit and criminal 
background check each time a fiduciary is appointed, and allow veterans 
to petition to have their fiduciary removed if problems arise. It would 
also decrease the potential maximum fee a fiduciary can receive to the 
lesser of 3 percent or $35 per month, similar to Social Security's 
fiduciary program.
    Importantly, H.R. 894 would enable veterans to appeal their 
incompetent status at any time, a right not currently granted to 
veterans. It would also allow veterans to name a preferred fiduciary, 
such as a family member.
    This legislation also takes several important steps to provide 
straightforward guidelines and prevent burdensome requirements on 
fiduciaries. It would require the VA to consider whether acquiring a 
bond for each fiduciary is necessary, and if it will adversely affect 
the fiduciary and the veterans he or she serves. And it would also 
implement a straight forward annual accounting requirement that gives 
the VA the opportunity to audit fiduciary's whose accounting is 
suspect.

                                 <F-dash>
              Prepared Statement of Hon. Timothy J. Walz 
    I am here to speak in support of H.R. 679, Honor America's Guard-
Reserve Retirees Act. The bill ensures that we recognize the service 
and sacrifice of members of the National Guard by honoring them with 
status as Veterans under law. I would like to thank Chairman Runyan and 
the group of bi-partisan Members of Congress who introduced this bill 
with me.
    I would like to commend the Subcommittee's Chairman and the Ranking 
Member, as well as the Majority and Minority staff for what I consider 
being an exceptional work ethic in this Subcommittee, a sense of 
urgency to get things done. Thank you for the opportunity to move this 
legislation forward.
    The men and women of the reserve components take the same oath to 
serve and protect our country as the active component: they sacrifice 
their time and energy and stand ready if called upon, to serve in 
combat in time of war. For those who have completed 20 years or more in 
the reserve component but have not served a qualifying period of 
Federal active duty, we honor their service with similar benefits given 
to active duty military retirees - with one notable exception: they are 
denied the title ``Veteran''.
    Today, a reservist can successfully complete a Guard or Reserve 
career but not earn the title of, ``Veteran of the Armed Forces of the 
United States,'' unless he or she has served on Title 10 active duty 
for other than training purposes. Title 38 excludes from the definition 
of ``Veteran career,'' those reservists who have not served on Title 10 
active duty for other than training purposes. Drill training, annual 
training, active duty for training, and Title 32 duty are not deemed 
qualifying service for ``Veteran'' status.
    H.R. 679 would recognize all people who served in the National 
Guard and Reserve for more than 20 years by honoring all of them with 
the status of Veteran. It specifically bestows no additional benefits 
to these brave men and women, it merely honors them with a title of 
Veteran.
    H.R. 679 is about recognizing our National Guard and Reserve 
components play an integral role in the Defense of our Nation. It is 
about recognizing that our all-volunteer force would be unsustainable 
if it were not for the men and women who dedicate twenty years of their 
lives to the training and welfare of America's Soldiers, Airmen, 
Sailors and Marines. These servicemembers could have spent their time 
and talents doing other things; they could have spent their weekends 
enjoying time with their families. Instead they chose to prepare to 
defend our country. It is high time that the U.S. Congress honor their 
service and sacrifice.
    This is a question of honor for those who have served our Nation 
faithfully for 20 years in the Guard or Reserve. This legislation 
corrects this injustice, at no cost to taxpayers. There are over 
280,000 former Reservist and Guardsman across the country who served 
dutifully for 20 years that will benefit. I believe that these men and 
women have earned the respect and recognition that comes with the 
designation of ``Veteran,'' which is why we have introduced H.R. 679, 
the Honor America's Guard-Reserve Retirees Act.
    The House of Representatives passed this legislation without any 
opposition in both the 111th and 112th Congresses. Last Congress fifty-
three bi-partisan members made supporting this legislation a priority, 
and the legislation continues to gain support today.
    I emphatically encourage the House Veterans Affairs Committee to 
streamline this legislation through the Committee and bring this to the 
floor of the House of Representatives. Thank you for your time and 
consideration.

                                 <F-dash>
                   Prepared Statement Jeffrey C. Hall
    Chairman Runyan, Ranking Member Titus and Members of the 
Subcommittee:
    Thank you for inviting the DAV (Disabled American Veterans) to 
testify at this legislative hearing of the Subcommittee on Disability 
Assistance and Memorial Affairs. As you know, DAV is a non-profit 
veterans service organization comprised of 1.2 million wartime service-
disabled veterans dedicated to a single purpose: empowering veterans to 
lead high-quality lives with respect and dignity. DAV is pleased to be 
here today to present our views on the bills under consideration by the 
Subcommittee.
                                H.R. 569
    H.R. 569, the Veterans' Compensation Cost-of-Living Adjustment Act 
of 2013, would increase, effective December 1, 2013, the rates of 
compensation for veterans with service-connected disabilities and the 
rates of dependency and indemnity compensation (DIC) for the survivors 
of certain disabled veterans. Although a cost-of-living adjustment 
(COLA) was passed last year at the modest increase of 1.7%, each of the 
past two years, there was no increase in the rates for compensation and 
DIC because the Social Security index used to measure the COLA did not 
increase. Many disabled veterans and their families rely heavily or 
solely on VA disability compensation or DIC as their only means of 
financial support have struggled during these difficult times. While 
the economy has faltered, their personal economic circumstances have 
been negatively affected by rising costs of many essential items, 
including food, medicines and gasoline. As inflation becomes a greater 
factor, it is imperative that veterans and their dependents receive a 
COLA and DAV supports this legislation; however, DAV is adamantly 
opposed to Section 2(c)(2) of the bill requiring the practice of 
rounding down COLA increases to the next lower whole dollar amount, 
which incrementally reduces the support to disabled veterans and their 
families. The practice of permanently rounding down a veteran's COLA to 
the next lower whole dollar amount can cause undue hardship for 
veterans and their survivors whose only support comes from these 
programs and it is time to end this practice.
                                H.R. 570
    H.R. 570, the American Heroes COLA Act, would provide for annual 
COLAs to be made automatically by law each year for the rates of 
disability compensation for veterans with service-connected 
disabilities as well as the rates of DIC for survivors of certain 
service-connected disabled veterans. DAV supports this legislation; 
however, as mentioned, DAV is adamantly opposed to the section of the 
bill requiring the practice of rounding down COLA increases to the next 
lower whole dollar amount.
                                H.R. 602
    H.R. 602, the Veterans 2nd Amendment Protection Act, would clarify 
the conditions under which certain persons may be treated as 
adjudicated mentally incompetent for certain purposes. An individual 
who is mentally incapacitated, deemed mentally incompetent, or 
experiencing an extended loss of consciousness shall not be considered 
mentally defective without the finding from a judge, magistrate, or 
other judicial authority of competent jurisdiction that such individual 
is a danger to himself or herself or to others. DAV has no resolution 
on this matter.
                                H.R. 671
    H.R. 671, the Ruth Moore Act of 2013, would improve the disability 
compensation evaluation procedure of the Secretary of Veterans Affairs 
for veterans with mental health conditions related to military sexual 
trauma. DAV supports this legislation.
    This bill would change the standard of proof required to establish 
service connection for veterans suffering from certain mental health 
conditions, including post-traumatic stress disorder (PTSD), resulting 
from military service or from military sexual trauma that occurred in 
service.
    Essentially, H.R. 671 would eliminate the requirement of an in-
service, verifiable stressor in conjunction with claims for PTSD. Under 
this change, VA would now be able to award entitlement to service 
connection for PTSD even when there is no official record of such 
incurrence or aggravation in service, provided there is a confirmed 
diagnosis of PTSD coupled with the veteran's written testimony that the 
PTSD is the result of an incident that occurred during military 
service, and a medical opinion supporting a nexus between the two.
    In November 2010, VA modified its prior standard of proof for PTSD 
related to combat veterans by relaxing the evidentiary standards for 
establishing in-service stressors if it was related to a veteran's 
``fear of hostile military or terroristic activity.'' H.R. 671 would 
build upon that same concept and expands it to cover all environments 
in which a veteran experiences a stressor that can reasonably result in 
PTSD, regardless of whether it occurred in a combat zone, as long as it 
occurred when the veteran had been on active duty. The legislation 
would also remove the current requirement that the diagnosis and nexus 
opinion come only from VA or VA-contracted mental health professionals, 
but would instead allow any qualified mental health professional.
    This legislation would also allow VA to award entitlement to 
service connection for certain mental health conditions, including 
PTSD, anxiety and depression, or other mental health diagnosis 
described in the current version of the Diagnostic and Statistical 
Manual for Mental Disorders (DSM), which a veteran claims was incurred 
or aggravated by military sexual trauma experienced in service, even in 
the absence of any official record of the claimed trauma. Similar to 
the evidentiary standard above for PTSD, the veteran must have a 
diagnosis of the covered mental health condition together with 
satisfactory lay or other evidence of such trauma and an opinion by the 
mental health professional that such covered mental health condition is 
related to such military sexual trauma, if consistent with the 
circumstances, conditions, or hardships of such service even in the 
absence official record of such incurrence or aggravation in such 
service and if so all reasonable doubt will be resolved in favor of the 
claimant.
    DAV supports H.R. 671, which is consistent with DAV Resolutions 30 
and 204. DAV Resolution 204 states that, ``[e]stablishing a causal 
relationship between injury and later disability can be daunting due to 
lack of records or certain human factors that obscure or prevent 
documentation of even basic investigation of such incidents after they 
occur...'' and that, ``[a]n absence of documentation of military sexual 
trauma in the personnel or military unit records of injured individuals 
prevents or obstructs adjudication of claims for disabilities for this 
deserving group of veterans injured during their service, and may 
prevent their care by VA once they become veterans...'' Further, DAV 
Resolution 30 states that, ``[p]roof of a causal relationship may often 
be difficult or impossible...'' and that, ``...current law equitably 
alleviates the onerous burden of establishing performance of duty or 
other causal connection as a prerequisite for service connection...'' 
Enactment of H.R. 671 would provide a more equitable standard of proof 
for veterans who suffer from serious mental and physical traumas in 
environments that make it difficult to establish exact causal 
connections.
                                H.R. 679
    H.R. 679, the Honor America's Guard-Reserve Retirees Act, would 
recognize the service in the reserve components of certain persons 
entitled to receive retired pay under Chapter 1223 of title 10, United 
States Code, by honoring them with status as veterans under law. DAV 
has no resolution on this matter.
                                H.R. 733
    H.R. 733, the Access to Veterans Benefits Improvement Act, would 
amend title 38, United States Code, to provide certain employees of 
Members of Congress and certain employees of State or local 
governmental agencies with access to case-tracking information of the 
VA.
    DAV had concerns about this legislation when it was introduced in 
the 112th Congress. While we were supportive of the previous bill's 
intent, we advanced our concerns about the broad language, which would 
have allowed certain individuals to gain unrestricted access to 
veterans' claims information without accreditation or security 
permission. We are extremely pleased some of our suggestions were 
considered and the language changed in the previous bill and now 
carried forward in H.R. 733. DAV supports the intent of this 
legislation, as it would provide assistance to the veteran by keeping 
them informed as to the current status of their claim for benefits; 
especially important during a time when the time for a claim to be 
processed is averaging over 280 days.
    DAV National Service Officers (NSOs) are accredited by the VA and 
given access to veterans' records and computerized processing systems, 
but only for those in which we hold power of attorney. DAV NSOs 
regularly interact with certain local government employees, such as 
County Veterans Service Officers (CVSOs), who provide local assistance 
to veterans. When the assistance desired involves obtaining an update 
as to the status of a pending claim, CVSOs generally are not able to 
access the information and they must contact the accredited 
representative of record, such as a veterans service organization (VSO) 
to obtain a status of the pending claim, and then inform the veteran. 
If the veteran does not have an accredited representative, such as a 
VSO, the CVSO is very limited as to the information that may be 
accessed. Likewise, an accredited representative only has access to 
those cases for which they hold power of attorney.
    Allowing certain covered employees of Members of Congress or local 
government agencies to access the VA's case-tracking system to obtain a 
status of a claim submitted by a veteran without a properly executed 
power of attorney poses many serious questions. As a matter of privacy, 
veterans or other claimants must be protected from anyone without 
accreditation from being allowed to access VA's system and gain private 
information on the veteran or other claimant.
    This legislation sets out to amend title 38, United States Code, by 
adding a new subsection 5906, which, as written, would allow virtually 
any covered employee to gain access to any veteran's private 
information; far greater access than afforded to an accredited 
representative, such as a DAV NSO. First, the bill should contain the 
explicit language contained in title 5, United States Code, section 
552a(b), requiring the covered employee to have the written permission 
of the veteran or claimant requesting assistance from the covered 
employee. Without such request and written permission, the covered 
employee has no proprietary reason to access any veteran's information.
    Secondly, as stated in H.R. 733, before the covered employee is 
able to access the VA's system, he or she is required to certify that 
such access is for official purposes only. While we certainly agree 
with this requirement, DAV believes that written consent to do so 
should be obtained from the veteran or claimant in order to access the 
status of the veteran's pending claim. Thirdly, the bill should plainly 
set forth the penalties for any violations, such as accessing or 
attempting to access the status of any pending claim without the 
expressed written consent of the veteran or claimant.
    Lastly, DAV believes the bill should also contain an additional 
safeguard provision wherein the veteran or claimant is notified when 
his or her record is being accessed by a covered employee. This would 
further assure the veteran or claimant, especially those without 
representation, has authorized the covered employee to perform such 
action on their behalf and is aware when it is occurring. This would 
also alert VA when a covered employee is attempting to gain access 
without the express written consent of the veteran or claimant.
    Again, the intent of this bill is to help veterans by providing 
these covered employees limited access to VA's electronic database 
solely for the purpose of obtaining the status of a claim. DAV believes 
this could be very beneficial to all parties in the process, including 
DAV NSOs when DAV is the accredited representative of record. DAV 
simply wants to ensure that proper security measures are in place to 
protect the privacy of veterans and claimants. As such, DAV supports 
the intent of the bill, but we recommend the aforementioned changes in 
the bill's language in order for us to be able to fully support H.R. 
733. We feel the bill's current language is not explicit enough to 
ensure the privacy of a veteran or claimant is safeguarded; however, 
DAV would be pleased to work with the Subcommittee to make these 
necessary changes in the bill's language.
                                H.R. 894
    H.R. 894 would improve the supervision of fiduciaries of veterans 
under laws administered by the Secretary of Veterans Affairs. Our 
understanding of the bill's primary intent seems to be a restructuring 
of existing law with improved protection of a beneficiary's benefits 
from abusive, fraudulent or illegal activity by an appointed fiduciary, 
while allowing the beneficiary to be more engaged in the process when a 
fiduciary is appointment. While DAV does not have a resolution on this 
particular matter, we are supportive of the intent of this legislation.
                               H.R. 1405
    H.R. 1405 would require the Secretary of Veterans Affairs to 
include an appeals form in any notice of decision issued for the denial 
of a benefit sought. Initially we note the term ``appeals form'' in 
this legislation is apparently referring to a forthcoming standardized 
VA form for the purpose of a notice of disagreement, not a VA Form 9, 
Appeal to the Board of Veterans' Appeals. Currently, there is no 
prescribed or standardized form for a claimant to utilize when filing a 
notice of disagreement, which is the first step in the appellate 
process. It should be noted while there is no requirement for a 
claimant to utilize a VA Form 9 for a substantive appeal, it does make 
it easier for all parties involved by clearly laying out what is being 
contested, whether a hearing is being requested and specific 
contentions for each issue being contested.
    We believe a standardized form to be used for the purpose of a 
notice of disagreement makes equal sense to that of a VA Form 9, which 
is used for perfecting a substantive appeal. However, VA must still be 
required to accept written disagreement or appeal in another form, 
provided it clearly identifies the benefit(s) being sought.
    As stated, a standardized form to be used for a formal Notice of 
Disagreement (NOD) would be extremely beneficial to a veteran in many 
ways. For example, currently when a decision is sent to a claimant from 
the VA it simply provides appeal rights, which means claimants often 
send in their written disagreement by way of letter or by using a VA 
Form 21-4138, Statement in Support of Claim. However, many claimants do 
not clearly identify the correspondence as being an NOD to a particular 
decision. Many claimants mistakenly utilize an appeal form (VA Form 9), 
to express their disagreement, not knowing the first step in the 
appellate process is the NOD. Confusion begins when an appeal form is 
filed without their being an NOD of record. This prompts VA to accept 
the appeal form as the NOD, so when the claimant actually receives the 
appeal form included in the Statement of the Case, further confusion 
occurs. Many claimants do not understand they must complete the form 
again, because the first one submitted is actually an NOD. As such, the 
claimant fails to complete and submit a second appeal form, eventually 
leading to the appeal period expiring and being closed. Having a 
standardized VA form to be included with the notice of decision may 
alleviate these occurrences.
    DAV supports the intent of this legislation, but we feel the 
language is far too simplified and broad. We recommend a modest 
reworking of the language so it would alleviate any confusion as to the 
purpose of this bill or what is intended by ``appeals form'' or ``a 
form that may be used to file an appeal . . . '' as proposed in Section 
1, which would amend section 5104(b) of title 38. If it is a form to be 
used to submit a notice of disagreement, then it should clearly state 
such, rather than confusing it with a currently utilized appeal form.
    Mr. Chairman, this concludes my testimony and I would be happy to 
answer any questions from you or members of the Subcommittee.

                                 <F-dash>
                Prepared Statement of Raymond C. Kelley
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    On behalf of the nearly 2 million men and women of the Veterans of 
Foreign Wars of the United States (VFW) and our Auxiliaries, I would 
like to thank you for the opportunity to testify on today's pending 
legislation.
H.R. 569, Veterans' Compensation Cost-of-Living Adjustment Act of 2013:
    Disabled veterans, their surviving spouses and children depend on 
their disability and dependency and indemnity compensation to bridge 
the gap of lost earnings and savings that the veteran's disability has 
caused. Each year, veterans wait anxiously to find out if they will 
receive a cost-of-living adjustment. There is no automatic trigger that 
increases these forms of compensation for veterans and their 
dependents. Annually, veterans wait for a separate Act of Congress to 
provide the same adjustment that is automatic to Social Security 
beneficiaries.
    The VFW supports this legislation that will bring parity to VA 
disability and survivor recipients' compensation by providing a COLA 
beginning December 1, 2013, so long as VA disability, pension and 
survivor benefits continue to be calculated with the currently used 
Consumer Price Index - W and not change the calculations for these 
adjustments to the Chained - Consumer Price Index.
    The VFW continues to oppose the ``rounding down'' of the increase. 
This is nothing more than a money-saving gimmick that comes at the 
expense of our veterans and their survivors.
H.R. 570, American Heroes COLA Act:
    The VFW agrees with the intent of this bill, which would provide 
for an automatic trigger for COLA, eliminating the confusion and 
uncertainty the current process brings. However, with the concerted 
effort to change the index used to calculate COLA from the Consumer 
Price Index - W to Chained - Consumer Price Index, the VFW must oppose 
this bill in its current form. The VFW would provide support if this 
legislation was amended to provide for the automatic Social Security 
trigger, therein removing the Congressional step of passing a 
standalone bill, but maintain the current index to calculate the rate 
of COLA.
H.R. 602, Veterans 2nd Amendment Protection Act:
    The VFW supports H.R. 602, which would provide a layer of 
protection for veterans who might be seeking or undergoing mental 
health care for service-related psychological disorders from losing 
their Second Amendment right. Adding a provision that will require a 
finding through the legal system that the veteran's condition causes a 
danger to him or herself or others will prevent a veteran's name from 
being automatically added to federal no-sell lists.
H.R 671, Ruth Moore Act of 2013:
    The VFW strongly supports this legislation and believes that it is 
long overdue. ``The Ruth Moore Act of 2013'' would relax evidentiary 
standards for tying mental health conditions to an assault, making it 
easier for Military Sexual Assault (MST) survivors to receive VA 
benefits.
    Current regulations put a disproportionate burden on the veteran to 
produce evidence of MST - often years after the event and in an 
environment which is often unfriendly - in order to prove service-
connection for mental health disorders.
    With the extraordinarily high incidence of sexual trauma in the 
military and the failure of many victims to report the trauma to 
medical or police authorities, it is time Congress amends this 
restrictive standard. This legislation does that by providing equity to 
those suffering from post-traumatic stress disorder, anxiety, 
depression and other mental health diagnoses that are often related to 
MST. It puts MST in line with VA's standard of proof provided to combat 
veterans who suffer PTSD. Passage of this bill will allow those who 
have suffered from sexual violence in the military to get the care and 
benefits they deserve. The VFW urges Congress to pass this legislation 
quickly.
H.R. 679, Honor America's Guard-Reserve Retirees Act:
    The VFW strongly supports this legislation, which would give the 
men and women who choose to serve our nation in the Reserve component 
the recognition that their service demands. Many who serve in the Guard 
and Reserve are in positions that support the deployments of their 
active duty comrades to make sure the unit is fully prepared when 
called upon. Unfortunately, some of these men and women serve at least 
20 years and are entitled to retirement pay, TRICARE, and other 
benefits, but are not considered a veteran according to the letter of 
the law. Passing this bill into law will grant these Guard and reserve 
retirees the recognition their service to our country deserves.
H.R. 733, Access to Veterans Benefits Improvement Act:
    The VFW supports this legislative proposal, which would grant 
certain congressional staff members and local governmental agency 
employees access to VA's case-tracking information. This bill will 
allow Congress to better represent and respond to inquiries from their 
veteran constituents.
    The VFW contends that state and county service officers should only 
have access to veterans for whom they hold a Power of Attorney (POA) or 
for veterans who are not represented by a service officer. This will 
ensure that service officers who hold a POA will be maintained as the 
primary point of contact for the veterans they represent.
H.R. 894, Improvement of Fiduciaries for Veterans:
    The VFW supports the intent of H.R. 894. Protecting veterans from 
fraudulent fiduciaries, providing them an appeal process to have a new 
fiduciary appointed and ensuring veterans are capable of managing their 
own finances is critical.
    However, it is unclear to the VFW whether or not due process will 
be violated by this bill's proposed changes to Chapter 55 of title 38 
U.S.C. The VFW believes that changing the title of paragraph 5502 to 
read ``Appointment of fiduciaries'' from ``Payments to and supervision 
of fiduciaries'' will codify how and when the Secretary can appoint a 
fiduciary without regard to the due process provision provided in 38 
C.F.R. paragraph 3.353 (d) and (e).
    We look forward to working with Congressman Johnson to ensure the 
intent of this bill is realized and that veterans' due process is 
protected.
H.R. 1405, Inclusion of Appeals Forms in Notices of Decisions of 
        Benefits Denials:
    The VFW supports the intent of H.R. 1405. Ensuring VA has a clear 
notice of disagreement from the veteran is important to due process. 
Currently, veterans write a letter disagreeing with VA's decision. This 
acts as the ``Notice of Disagreement.'' Providing veterans with a 
standardized form to file the disagreement will help both the veteran 
and VA during the appeals process.
    However, the VFW is concerned by the current language of the bill. 
The VFW recommends amending this legislation to more clearly describe 
the bills intent. By amending Section 1, Paragraph (a), subparagraph 
(2) to read, ``(2) by inserting before the period at the end of the 
following: `, and (3) a form that may be used to file a notice of 
disagreement of the decision'.'' the bill would more closely reflect 
the intent of providing a standardized notice of disagreement when the 
initial rating decision is provided to the veteran.
    Mr. Chairman, this concludes my testimony and I will be happy to 
answer any questions you or the Committee may have.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2013, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <F-dash>
       Prepared Statement of Colonel Robert F. Norton, USA (Ret.)
    Deputy Director, Government Relations
    CHAIRMAN RUNYAN, RANKING MEMBER TITUS AND DISTINGUISHED MEMBERS OF 
THE SUBCOMMITTEE, on behalf of the over 380,000 members of The Military 
Officers Association of America (MOAA), I am pleased to present the 
Association's views on selected bills that are under consideration at 
today's hearing.
    MOAA does not receive any grants or contracts from the federal 
government.
    H.R. 679, the Honor America's Guard-Reserve Retirees Act of 2013.
    H.R. 679 (Reps. Walz, D-MN and Runyan, R-NJ) would honor as a 
veteran any retired member of the National Guard or Reserves entitled 
to retired pay for nonregular (reserve) service in the Armed Forces of 
the United States.
    National Guard and Reserve members who complete a full Guard or 
Reserve career and are receiving or entitled to a military pension, 
government health care and certain earned veterans' benefits under 
Title 38 are not ``veterans of the Armed Forces of the United States,'' 
in the absence of a qualifying period of active duty.
    This strange situation exists because the definitions in Title 38 
limit the term ``veteran'' only to servicemembers who have performed 
duty on active duty (Title 10) orders.
    National Guard members who served on military duty orders (other 
than Title 10) at Ground Zero in New York City on Sept. 11, 2001, the 
Gulf Coast following Hurricane Katrina or Hurricane Sandy, the BP oil 
spill catastrophe off the Gulf Coast, or conducted security operations 
on our Southwest border, and subsequently retire from the National 
Guard or Reserve are not deemed to be veterans under the law unless at 
some point they had served on Title 10 orders.
    Throughout the Cold War and continuing in practice today, 
Reservists may perform operational duty or support operational forces 
on 29 different sets of orders. Most of these duty order categories 
reflect Service funding and accounting protocols, but unless the orders 
purposely are issued under Title 10, they do not count towards 
recognition of career reservists as veterans of our Armed Forces.
    Ironically, these career reservists earn specified veterans' 
benefits, but they can't claim that they are veterans.
    For these career volunteers who have served and sacrificed for 
decades in uniform, it is deeply embarrassing that they are not 
authorized to stand and be recognized as veterans during Veterans Day 
and other patriotic celebrations.
    MOAA is grateful to the House Veterans Affairs Committee and the 
full House of Representatives for twice passing enabling legislation on 
this issue.
    H.R. 679 would establish that National Guard and Reserve members 
who are entitled to a non-regular retirement under Chapter 1223 of 10 
USC and who were never called to active federal service during their 
careers are veterans of the Armed Forces. The legislation expressly 
prohibits the award of any new or unearned veterans' benefits and is 
cost-neutral.
    A retired New York Army National Guard Master Sergeant recently 
responded to an article on this issue in Military Update, a syndicated 
column on military issues by Tom Philpott. The Master Sergeant wrote: 
``I served 35 years as a Guardsman and am told I am not a veteran. I 
did two weeks at Ground Zero and many tours in Germany doing logistics 
for the war in Iraq. Yet I am still not a veteran.'' On his behalf and 
on behalf of tens of thousands of other Guard and Reserve service 
members, MOAA urges passage of H.R. 679.
    MOAA strongly supports H.R. 679 to establish that career Reservists 
eligible for or in receipt of military retired pay (at age 60), 
government health care and certain earned veterans benefits, but who 
never served under active duty orders are ``veterans of the Armed 
Forces of the United States.''
    An Addendum to this Statement includes a Letter of support from The 
Military Coalition and Frequently Asked Questions about the Honor 
America's Guard-Reserve Retirees Act.
    H.R. 569, Veterans' Compensation Cost-of-Living Adjustment Act of 
2013. H.R. 569 (Reps. Runyan and Titus, D-NV) would adjust veterans' 
compensation, pension, survivors' Dependency and Indemnity compensation 
and related benefits by the same percentage as the annual adjustment of 
Social Security benefits. The adjusted rates would become effective on 
1 December 2013 and reflected in payouts on 1 January 2014. MOAA 
strongly supports H.R. 569.
    H.R. 570, The American Heroes COLA Act. H.R. 570 (Reps. Runyan and 
Titus) would authorize automatic annual cost-of-living adjustments each 
year in the rates of disability compensation for veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation for survivors of certain service-connected disabled 
veterans. The bill would provide for an automatic adjustment to the 
benefits described here whenever there is an increase in benefits 
payable for Social Security annuitants. MOAA supports H.R. 570.
    H.R. 602, Veterans 2d Amendment Protection Act. H.R. 602 (Rep. Jeff 
Miller, R-FL) would prohibit the VA from denying the right of a veteran 
deemed mentally incompetent or incapacitated from receiving or carrying 
firearms without a court order that such a person is a danger to 
himself / herself or others. MOAA has no position on H.R. 602.
    H.R. 671, Ruth Moore Act of 2013. H.R. 671 (Rep. Pingree, D-ME) 
would revise policy for adjudicating service-connection for veterans 
with a mental health condition that was caused or aggravated by 
military sexual trauma during active duty. The bill would require the 
VA to accept as sufficient proof of service-connection a diagnosis by a 
mental health professional together with satisfactory lay or other 
evidence of military sexual trauma and an opinion by the mental health 
professional that such condition is related to such trauma, if 
consistent with the circumstances, conditions, or hardships of the 
veteran's service, event when there is no official record of such 
incurrence or aggravation in such service, and for other purposes. MOAA 
strongly supports H.R. 671.
    H.R. 733, Access to Veterans Benefits Improvement Act. H.R. 733 
(Reps. Runyan and Walz) would authorize employees of Members of 
Congress or of a state or local governmental agency assisting veterans 
to have access to case-tracking information to assist them with their 
claims. Access would include access to medical records. The bill would 
prohibit the employee from modifying the data in the case-tracking 
system and require employees to complete certification training on 
privacy issues before gaining access to veterans' records. MOAA is not 
chartered by the VA to represent veterans' claims and therefore takes 
no position on the legislation.
    H.R. 894, a bill to improve the supervision of fiduciaries of 
veterans. H.R. 894 (Rep. Bill Johnson, R-OH) would revise the laws 
governing the appointment, supervision, removal and re-appointment of 
fiduciaries by the VA to administer benefits for certain disabled 
veterans. The bill establishes procedures for the appointment of 
temporary fiduciaries and for the pre-designation of a fiduciary. Among 
other purposes, the legislation requires (under current law, permits) a 
fiduciary to file an annual accounting of the administration of 
beneficiary benefits; requires the VA to conduct annual random audits 
of fiduciaries who receive a commission for such service; and, requires 
fiduciary repayment of misused benefits.
    The legislation grew out of the need to update VA fiduciary rules 
and regulations in the best interest of catastrophically disabled 
wounded warriors from the Iraq and Afghanistan conflicts. MOAA supports 
H.R. 894.
    H.R. 1405, a bill to require the Secretary of Veterans Affairs to 
include an appeals form in any notice of decision issued for the denial 
of a benefit sought. H.R. 1405 (Reps. Titus and Runyan) would take 
effect on the date of enactment. At this time, MOAA is not chartered by 
the VA to represent veterans' claims and takes no position on the 
legislation.
Conclusion
    The Military Officers Association of America is grateful to the 
leadership and members of the Subcommittee on Disability Assistance and 
Memorial Affairs Veterans for your commitment to our nation's veterans 
and their survivors.
    Addenda: 1. Letter from The Military Coalition, 13 March 2013, re: 
H.R. 679. 2. Frequently Asked Questions re the Honor America's Guard-
Reserve Retirees Act.
                   Letter From The Military Coalition

    March 14, 2013

    The Honorable Tim Walz
    United States House of Representatives
    Washington, DC 20515

    Dear Congressman Walz:

    The Military Coalition, a consortium of uniformed services and 
veterans associations representing more than 5.5 million current and 
former service members and their families and survivors, writes to 
thank you for your leadership in introducing HR 679, the ``Honor 
America's Guard-Reserve Retirees Act'' that would grant veteran status 
to members of the Reserve Components who served a career of 20 years or 
more and are military retirees, but who through no fault of their own 
are not recognized by our government as ``veterans.''
    The individuals covered by your legislation have already earned 
most of the benefits granted to veterans by the Department of Veterans 
Affairs, and yet they do not have the right to call themselves veterans 
because their service did not include sufficient duty under Title 10 
orders. Because of this they feel dishonored by their government. Your 
legislation simply authorizes them to be honored as ``veterans of the 
Armed Forces'' but prohibits the award of any new benefit.
    The ``Honor America's Guard-Reserve Retirees Act'' is a practical 
way to honor the vital role members of the Reserve Components have had 
in defending our nation throughout long careers of service and 
sacrifice. And it can be done at no-cost to the American tax-payer 
because of your legislation.
    We look forward to the early passage of your bill in the House of 
Representatives for the third time and we are hopeful both chambers of 
Congress will take favorable action so we can see it signed into law 
this year.
    You have been the champion for this bill in the House and we are 
grateful. We know you understand the importance of the honor of being 
recognized as a veteran and we sincerely appreciate your steadfast 
support and leadership on this issue that is very important to so many 
members of the National Guard and Reserve.

    The Military Coalition
    TMC letter dated 14 March 2013 in support of H.R. 679
                Honor America Guard-Reserve Retirees Act
                       Frequently Asked Questions
    Q. What's the purpose of this legislation? A. To honor certain 
career Guard and Reserve service men and women as ``veterans of the 
Armed Forces.'' Extract of the VFW's testimony before the Senate 
Veterans Affairs Committee on 8 June 2011: ``The VFW strongly supports 
this legislation, which would give the men and women who choose to 
serve our nation in the Reserve component the recognition that their 
service demands. Many who serve in the Guard and Reserve are in 
positions that support the deployments of their active duty comrades to 
make sure the unit is fully prepared when called upon. Unfortunately, 
some of these men and women serve 20 years and are entitled to 
retirement pay, TRICARE, and other benefits, but are not considered a 
veteran according to the letter of the law. . .
    In recent years, Congress has enhanced material benefits to the 
members of the Guard and Reserve and this bill does not seek to build 
upon those provisions; it simply seeks to bestow honor upon the men and 
women of the Guard and Reserve to whom it is due.'' [emphasis added]
    Q. Who will this legislation cover? A. Career National Guard and 
Reserve service men and women who are entitled to a military retirement 
(at age 60) but never served on active duty orders during their 
careers. Under the law, only a member of the Armed Forces who has 
qualifying active duty service is a ``veteran of the Armed Forces'' as 
set out in Title 38.
    Q. What qualifies a military member, including Reservists, as a 
``veteran''? A. A period of qualifying active duty service. In Title 
38, a veteran is defined as a ``person who served in the active 
military, naval or air service, and who was discharged or released 
therefrom under conditions other than dishonorable.'' (Section 101(2), 
38 USC). ``Active military, naval, or air service'' means ``active 
duty''; or any period of active duty for training (ADT) or inactive 
duty for training (IDT) - often called ``drill duty''--during which a 
service person was disabled or died from a disease or injury incurred 
or aggravated in the line of duty (Section 101(24)(A)(B)(C).
    Q. Why is this legislation important?
    A. For three reasons. First, honor. Honor is important to those who 
have volunteered to serve the nation in uniform. Second, for decades 
Guard and Reserve service men and women have performed military 
missions at home and overseas but because of accounting 
technicalities--funding sources and duty codes - their military 
missions were not considered valid active duty work; i.e., they 
performed the mission, but the orders did not credit the work as active 
duty. Thus, their very real contributions to the national security have 
been de-valued and dishonored leaving them in a no-man's land of ``non-
veteran'' status. Third, the bill simply provides statutory and public 
recognition that a full career of service in uniform qualifies a person 
with recognition as a veteran. Career reservists have earned specific 
military retirement and veterans' benefits but technically are excluded 
from being recognized as veterans under the law.
    Q. Do National Guard and Reserve service members qualify for any 
veterans' benefits even if they've never been called up? A. Yes. 
Reserve military service opens eligibility to certain benefits provided 
the member meets the specific criteria established in law. The reality 
is that reservists already can qualify for certain veterans' benefits, 
such as:

    <bullet>  Educational benefits under Chapter 1606, 10 USC for an 
initial enlistment of 6 years in the Selected Reserve
    <bullet>  VA-backed home mortgage loans upon completion of 6 years' 
reserve service
    <bullet>  Servicemembers Group Life Insurance (SGLI) managed by the 
Dept. of Veterans Affairs while serving in the National Guard or 
Reserve
    <bullet>  Burial in a national cemetery if qualified for a reserve 
retirement at age 60

    Ironically, however, career reservists who have earned specified 
veterans' benefits but never served on active duty orders are not 
``veterans of the Armed Forces.''
    Q. Are there any new benefits conferred by this legislation? A. No. 
The bill confers no benefits. The Congressional Budget Office has 
scored the bill as cost-neutral.
    Q. Could the bill become a ``nose under the tent'' to win unearned 
veterans' benefits?
    A. The language of the bill specifically precludes new or unearned 
veterans' benefits. ``Any person who is entitled under chapter 1223 of 
title 10 to retired pay for nonregular service or, but for age, would 
be entitled under such chapter to retired pay for nonregular service 
shall be honored as a veteran but shall not be entitled to any benefit 
by reason of this section. [emphasis added]
    (2) CLERICAL AMENDMENT- The table of sections at the beginning of 
such chapter is amended by inserting after the item relating to section 
107 the following new item:
    `107A. Honoring as veterans certain persons who performed service 
in the reserve components.'.
    (b) Clarification Regarding Benefits- No person may receive any 
benefit under the laws administered by the Secretary of Veterans 
Affairs solely by reason of section 107A of title 38, United States 
Code, as added by subsection (a)''. [emphasis added]
    Q. Why do military Reservists perform military missions on non-
active duty orders?
    A. During the Cold War (1945-1989), approximately 29 separate types 
of orders were created for the Guard and Reserve. These categories 
reflect funding sources and the types of duty performed, 
notwithstanding that some of these orders resulted in the performance 
of ``real world'' military missions. The DoD Comprehensive Review of 
the Future Role of the Reserve Component (April 2011) recommended a 
simpler framework of reserve duty orders and active duty orders, 
boiling down the 29 types of orders to about six. The point is that 
orders to carry out a military mission or in direct support of a 
mission should usually be accounted for as an active duty mission and 
credited accordingly. Unfortunately, some military missions are still 
conducted on ADT or IDT orders, denying some Reservists recognition as 
veterans.
    Q. How can an individual serve for 20 years in the National Guard 
or Reserve without having served on active duty?
    A. Since World War II, many Guard and Reserve service men and women 
have performed military missions - above and beyond their training - on 
military orders that do not specify Title 10 ``active duty''.
    For example, Naval Reserve, Air National Guard and Air Force 
Reserve members often flew overseas missions on other-than-Title 10 
orders. The Air National Guard had full responsibility for flying 
missions to Howard Air Force Base in Panama, but performed such 
missions on non-active duty orders.
    National Guard units serving along the southern U.S. border 
performing a homeland security mission do not serve on Title 10 orders. 
National Guard units who rushed to New York City in response to the 
Sept. 11, 2001 attacks, or to New Orleans in response to Hurricane 
Katrina performed military missions on non-active duty orders.
    Other Guard and Reserve members prepare Guard and Reserve 
formations for deployment but do not themselves deploy.
    And finally, there are those who have served full careers who were 
never activated because of the particular military specialty they 
performed.
    Over a 20 or more year career in traditional drill status a member 
of the Reserve Components serves at least two years and one month on 
military duty. But the classification of such duty as either ADT or IDT 
precludes veteran status.
    Q. Don't National Guard and Reserve members become veterans after 
completing their initial active duty service commitment - basic 
training or ``boot camp'' - and military skill training? A. No. 
National Guard and Reserve initial entry training is performed under 
active duty training (ADT) orders. Only in the case of a disability 
incurred on ADT or IDT orders would a Reservist be declared a veteran.
    Q. If this issue is so important to career Reservists, why hasn't 
it come up before?
    A. Since World War II, with the exception of the Korean War, 
substantial numbers of reservists rarely were called up to Federal 
Active duty until Gulf War I (1990) and later. Most career reserve 
members were reluctant to challenge accepted wisdom on this issue. With 
the creation of the ``Total Force Policy'' (1972), the Guard and 
Reserve were gradually integrated into the operational force. The first 
large-scale test was Gulf War I followed by routine activations in that 
decade for stability operations in Kosovo and Bosnia. Today, Guard and 
Reserve members are a sustaining element of the operating force and 
participate in every major military mission at home and overseas. Yet, 
some of these missions continue to be conducted on non-active duty 
orders and reservists whose mission is to prepare other troops for 
deployment can never be credited as veterans. In short, the current 
policy shortchanges reservists' contribution to the national security 
and undermines the vision of the Guard and Reserve as an operational 
force.
    Q. How many career Guard-Reserve members are affected by this 
legislation? A. Based on DoD data (2011), the Congressional Budget 
Office estimated that approximately 288,000 career reservists would 
become veterans (with no additional benefits) with enactment of the 
Honor America's Guard-Reserve Retirees Act.
Biography of Robert F. Norton, COL, USA (Ret.)
Deputy Director, Government Relations
    Bob Norton joined the MOAA Government Relations team in 1997, 
specializing in National Guard / Reserve, veterans' benefits and VA 
health care issues. He co-chairs The Military Coalition's (TMC) 
Veterans' Committee and is MOAA's representative to TMC's Guard and 
Reserve Committee. In 2000, Bob helped found the Partnership for 
Veterans Education, a consortium of TMC, higher education associations, 
and other veterans groups that advocates for the GI Bill. Bob served on 
the statutory Veterans Advisory Committee on Education from 2004-2008.
    Bob entered the Army in 1966 and was commissioned a second 
lieutenant of infantry in August 1967. He served in South Vietnam 
(1968-1969) as a civil affairs platoon leader. He transferred to the 
U.S. Army Reserve in 1969.
    Colonel Norton volunteered for full-time active duty in 1978. He 
served in various assignments on the Army Staff and the office of the 
Secretary of the Army specializing in Reserve manpower and personnel 
policy matters.
    Bob served two tours in the Office of the Assistant Secretary of 
Defense for Reserve Affairs, first as a personnel policy officer (1982-
1985) and then as the Senior Military Assistant to the Assistant 
Secretary (1989-1994). Reserve Affairs oversaw the call-up of more than 
250,000 members of the Guard / Reserve in the first Gulf War. Colonel 
Norton retired in 1995 and joined the MOAA Government Relations staff 
in 1997.
    Colonel Norton holds a B.A. from Niagara University and an M.S.Ed. 
from Canisius College. He is a graduate of the U.S. Army Command and 
General Staff College, the Army War College, and the Harvard Kennedy 
School of Government senior officials in national security course.
    His military awards include the Legion of Merit, Defense Superior 
Service Medal, Bronze Star, Vietnam Service Medal, and the Armed Forces 
Reserve Medal.
Executive Summary
    HR 671, Ruth Moore Act of 2013

    Related Bill(s): S.294

    Sponsor: Congresswoman Chellie Pingree, (D- ME -01)

    SUMMARY AS OF:
    2/13/2013--Introduced.

    Ruth Moore Act of 2013 - Directs the Secretary of Veterans Affairs 
(VA), in any case in which a veteran claims that a covered mental 
health condition was incurred in or aggravated by military sexual 
trauma during active duty, to accept as sufficient proof of service-
connection a diagnosis by a mental health professional together with 
satisfactory lay or other evidence of such trauma and an opinion by the 
mental health professional that such condition is related to such 
trauma, if consistent with the circumstances, conditions, or hardships 
of such service, notwithstanding the fact that there is no official 
record of such incurrence or aggravation in such service, and to 
resolve every reasonable doubt in favor of the veteran. Allows such 
service-connection to be rebutted by clear and convincing evidence to 
the contrary.
    Includes as a ``covered mental health condition'' post-traumatic 
stress disorder, anxiety, depression, or any other mental health 
diagnosis that the Secretary determines to be related to military 
sexual trauma.
    Requires the Secretary to report annually to Congress in each of 
2014 through 2018 on covered claims submitted.
    Current Sponsors (*Original): Blumenauer*, Brownley*, Capps*, 
Connolly, DeFazio, DelBene, Ellison, Grijalva*, Honda*, Jones, Kuster, 
Larsen*, Lewis*, McGovern*, Michaud*, McLeod, Murphy, O'Rourke, Payne, 
Polis, Rush*, Shea-Porter*, Titus, Tsongas*
    Supported by: American Legion, Disabled American Veterans, Fleet 
Reserve Association, Iraq and Afghanistan Veterans of America, Military 
Officers Association of American, Service Womens Action Network, 
Veterans of Foreign Wars, Vietnam Veterans of America.

                                 <F-dash>
                Prepared Statement of Heather L. Ansley
    Chairman Runyan, Ranking Member Titus, and other distinguished 
members of the subcommittee, thank you for the opportunity to testify 
regarding VetsFirst's views on the bills under consideration today.
    VetsFirst, a program of United Spinal Association, represents the 
culmination of over 60 years of service to veterans and their families. 
We provide representation for veterans, their dependents and survivors 
in their pursuit of Department of Veterans Affairs (VA) benefits and 
health care before VA and in the federal courts. Today, we are not only 
a VA-recognized national veterans service organization, but also a 
leader in advocacy for all people with disabilities.
Veterans' Compensation Cost-of-Living Adjustment Act of 2013 (H.R. 569)
    Disabled veterans and their survivors depend on VA benefits to 
provide for themselves and their families. Cost of living adjustments 
(COLAs) are an important aspect of ensuring that these benefits are 
able to meet beneficiaries' basic needs.
    This legislation will ensure that the disabled veterans and their 
survivors who receive these benefits are eligible for a COLA on 
December 1, 2013. Although the COLA received in 2012 was only 1.7 
percent, this small increase is critical for disabled veterans and 
their survivors. We would request, however, that any increase not be 
rounded down to the next whole dollar amount.
    We urge swift passage of this legislation which would ensure that 
disabled veterans and their survivors are able to benefit from any COLA 
increase. We also hope that Congress will ensure that this COLA is not 
reduced through adoption of the chained consumer price index to 
calculate any COLA.
American Heroes COLA Act (H.R. 570)
    Disabled veterans and their survivors depend on COLAs to their 
benefits to meet rising costs of goods and services. These VA 
beneficiaries should be automatically eligible for any COLAs. Social 
Security beneficiaries are already automatically eligible for these 
adjustments.
    This legislation will ensure that disabled veterans and their 
survivors will be automatically eligible for COLAs. The certainty of 
knowing that they are eligible for any potential COLA increase will 
provide stability and equality with other government benefits. Veterans 
and their survivors should not have to face the uncertainty of knowing 
whether or not their benefits will be adjusted.
    We urge swift passage of this legislation.
Veterans 2nd Amendment Protection Act (H.R. 602)
    When VA proposes to find veterans financially unable to manage 
their VA compensation or pension benefits, they are informed that such 
adjudication will prohibit them from purchasing, possessing, receiving, 
or transporting a firearm or ammunition. However, VA's authority to 
adjudicate a veteran or other beneficiary unable to manage his or her 
benefits does not grant VA the authority to take away that veteran's 
constitutional rights, including his or her rights under the second 
amendment. This authority should be in the purview of the legal system.
    For veterans with mental health concerns, fears about loss of 
second amendment rights could be a barrier to accessing needed care. We 
believe that veterans needing assistance should not be forced to weigh 
accessing care with the potential loss of their second amendment rights 
without proper legal protections.
    This legislation will ensure needed judicial protections. Thus, we 
support this legislation.
Ruth Moore Act of 2013 (H.R. 671)
    Many incidents of sexual trauma are never reported and too many of 
those that are reported do not result in justice for the victim. For 
veterans who acquired mental health conditions as the result of 
military sexual trauma (MST), the VA's claims process does not fully 
recognize the unique difficulty in proving that the trauma occurred. 
According to data obtain by the Service Women's Action Network (SWAN), 
32 percent of claims for Post Traumatic Stress Disorder (PTSD) related 
to MST are approved for benefits while 54 percent of non-MST related 
PTSD claims are approved for benefits.
    The Ruth Moore Act would ease the burden on veterans who are 
applying for benefits for an MST related mental health condition to 
prove the occurrence of sexual trauma during military service. 
Specifically, VA would be required to accept as sufficient proof of MST 
satisfactory lay or other evidence and an opinion of a mental health 
professional that a currently diagnosed mental health condition is 
related to the trauma as long the evidence is consistent with the 
circumstances, conditions, or hardships of such service. To ensure the 
integrity of the benefits process, the legislation provides that 
service-connection can be rebutted but only by clear and convincing 
evidence to the contrary.
    Reporting requirements included in the legislation will help to 
ensure that VA properly implements the provision. This legislation 
requires VA to submit an annual report to Congress regarding the number 
of covered claims, the number and percentage approved, the number and 
percentage denied, and the ratings assigned for approved claims, by 
gender. The report will also include information about the three most 
common reasons provided for denials and the number of denials that 
resulted from the failure of the veteran to attend a required medical 
examination.
    We support this legislation. We also urge VA to immediately take 
any and all actions currently available to expedite implementation.
Honor America's Guard-Reserve Retirees Act (H.R. 679)
    Lacking sufficient duty under Title 10 orders, some retired members 
of the Reserve Components who served 20 years and receive retiree pay 
are not considered veterans. This legislation would allow these men and 
women who have sacrificed through long careers of service and who 
already receive many of the benefits of veterans the honor of being 
formally recognized as veterans. We fully support this legislation and 
urge its quick passage.
Access to Veterans Benefits Improvement Act (H.R. 733)
    Veterans who have filed claims for benefits deserve to have ready 
access to information about the status of their claims. When a veteran 
is not easily able to obtain timely and accurate information from VA 
regarding their claim, they may contact their member of Congress or the 
office of a veterans representative who is affiliated with a state or 
county department of veterans affairs. To facilitate access for these 
individuals to information about the status of a veteran's claim, this 
legislation would allow congressional staff and employees of state or 
local governmental agencies to access a claimant's information 
regardless of whether the covered employees are acting under a power of 
attorney.
    While we support the goal of ensuring that veterans receive timely 
information regarding the status of their claims, we are concerned that 
providing access to sensitive claimant information without regard to 
the designation of a power of attorney or written request for release 
of information may jeopardize the veterans' private information. We 
appreciate the requirement for the covered employee to certify that 
each access attempt is for official purposes only and that employees 
complete a certification course on privacy issues. However, we feel 
that access to information should be limited to those for whom the 
covered employee has power of attorney or express written consent to 
review.
    With proper safeguards, the ability to access information through 
VA's case-tracking system could be of benefit to veterans and those who 
are assisting them. We also believe, however, that VA should take steps 
to better assist and provide accurate status information to claimants, 
which might limit the need for other users to access VA's case tracking 
system to provide updates.
To improve the supervision of fiduciaries of veterans under the law 
        administered by the Secretary of Veterans Affairs (H.R. 894)
    VA may appoint a fiduciary for a veteran or other beneficiary when 
VA determines that it would be in his or her best interest. As defined 
by Title 38 United States Code Section 5506, a VA fiduciary is ``a 
person who is a guardian, curator, conservator, committee, or person 
legally vested with the responsibility or care of a claimant (or a 
claimant's estate) or of a beneficiary (or a beneficiary's estate); or 
any other person having been appointed in a representative capacity to 
receive money paid under any of the laws administered by the Secretary 
for the use and benefit of a minor, incompetent, or other 
beneficiary.''
    In a hearing before the Subcommittee on Oversight and Investigation 
on February 9, 2012, witnesses testified about numerous problems and 
concerns involving VA's fiduciary program. Some of these problems 
included the inability of veterans to receive needed medications due to 
the inaction of a VA appointed fiduciary and demands that veterans and 
their families provide information on all of a veteran's finances, not 
just his or her VA benefits. VA has also appointed paid-fiduciaries 
despite the availability of competent family members and in disregard 
of valid powers of attorney. For other family members who serve as 
their veterans' fiduciaries, the specter of the appointment of a paid-
fiduciary is raised in a manner that feels threatening to these 
otherwise compliant fiduciaries.
    Although VA has taken some steps to address concerns about the VA 
fiduciary program, much more must be done to ensure that the program 
fully meets the needs of veterans and other beneficiaries. 
Specifically, we believe that VA's fiduciary program must be more 
veteran-centric and tailored to address only those veterans who truly 
need assistance due to a determination of financial incompetence. It is 
important to remember that these VA benefits have been earned by the 
veteran and that the funds belong to the veteran, even if he or she 
needs assistance with managing them. The program must also provide an 
appropriate balance between protecting the needs of veterans and 
placing undue burden on family members who serve as fiduciaries.
    This legislation takes important steps toward ensuring that VA's 
fiduciary program is more transparent and focused on the needs of 
veterans. For example, if VA determines that a beneficiary is 
incompetent then he or she must be provided with a written statement 
detailing the reasons for such a determination. We would like, however, 
specific language about the criteria VA should use in making the 
determination. We would also suggest that the legislation's use of the 
term ``mentally incompetent'' does not accurately reflect the limits of 
VA's role, however, which is to determine financial incompetence. Thus, 
we suggest that references in the legislation to mental incompetence be 
replaced with the term financially incompetent.
    Also included in this legislation are statutory protections to 
ensure that beneficiaries have the ability to request the removal and 
replacement of a fiduciary. While the ability to request a new 
fiduciary is critical to ensuring that the program is veteran-centric, 
a request to replace a fiduciary must be carefully considered to ensure 
that it was made in good faith. We are also pleased that the 
legislation requires that any removal or new appointment of a fiduciary 
not delay or interrupt the beneficiary's receipt of benefits. While 
matters of fiduciary appointment are being resolved, veterans must 
continue to have access to their benefits. Access to benefits, 
including retroactive benefits, while appealing a determination or 
completing the process for appointment of a fiduciary remains a problem 
for too many veterans.
    We also appreciate efforts to ensure that veterans have an 
opportunity to play a role in determining who may serve as their 
fiduciary. The opportunity to designate a fiduciary in the event that 
one is later needed is an intriguing effort to provide veterans with 
the opportunity to have their preferences considered. We think it is 
important to note, however, that the need for a fiduciary may arise 
many years after designation and that this individual may no longer 
represent the veteran's preference.
    This legislation also makes significant changes in the commissions 
that fiduciaries are able to receive for their services. We believe 
that a commission should only be authorized where absolutely necessary 
to ensure that the best possible fiduciary serves a veteran or other 
beneficiary. Regardless of whether the percent authorized is the 
current four percent or the proposed lesser of three percent or $35, 
our only concern is that a paid-fiduciary be available to veterans if 
there are no other alternatives. As long as highly qualified 
fiduciaries are available when needed, we support the lower commission.
    To expand the availability of fiduciaries, this legislation also 
broadens the definition of a fiduciary to include state or local 
government agencies and nonprofit social service agencies. Expanding 
the statutory definition of a VA fiduciary will open up avenues for 
individuals who need fiduciaries but lack family members or other 
individuals who can serve in that capacity. Requiring VA to maintain a 
list of entities that can serve as fiduciaries will ensure that this 
option may be easily exercised.
    This legislation also significantly strengthens the inquiry and 
investigation into and qualifications required for fiduciaries. 
Although the legislation removes the ability to waive aspects of the 
inquiry and investigation, we are pleased that the legislation allows 
for priority in conducting the required review for parents, spouses, 
and court appointed fiduciaries. We are hopeful that the requirement 
for an interview to be conducted within 30 days for all fiduciaries 
will ensure family members receive an especially prompt review. The 
legislation also adds to this list any person who is authorized to act 
on behalf of the beneficiary under a durable power of attorney. Adding 
individuals who hold viable durable powers of attorney to the expedited 
list of approval will hopefully ensure that VA will fully consider 
these individuals when appointing fiduciaries.
    We continue to have concerns about whether efforts to tighten the 
review of potential fiduciaries will be unduly burdensome on family 
members seeking to serve as fiduciaries. Family members must be fully 
reviewed prior to appointment, but we hope VA will make every effort to 
exercise discretion where appropriate. This also extends to required 
annual accountings and the need to secure a bond.
    It is also important to remember that VA's authority to appoint a 
fiduciary only extends to VA benefits. This duty does not extend, for 
instance, to Social Security benefits unless that agency appoints that 
fiduciary as a representative payee for those benefits. Thus, we 
believe that a fiduciary's annual accounting should be limited to VA 
benefits and not include other benefits or income that he or she might 
also oversee.
    We appreciate the efforts of the subcommittee to address concerns 
in the VA's fiduciary program. We pledge to continue serving as a 
resource to the committee and urge swift passage of legislation 
addressing VA's fiduciary program.
To require the Secretary of Veterans Affairs to include an appeals form 
        in any notice of decision issued for the denial of a benefit 
        sought (H.R. 1405)
    Veterans wishing to file a notice of disagreement with any aspect 
of a VA decision for benefits are not required to use a specific form. 
To simplify the process of appealing an initial denial of VA benefits, 
this legislation would require VA to include a form with each decision 
that may be used to file an appeal of the decision. We support this 
legislation but propose that the language be clarified to state that VA 
must provide ``a form that may be used to file a notice of disagreement 
with the decision.'' This clarification would eliminate any potential 
confusion with VA's Form 9, Appeal to the Board of Veterans' Appeals.
    Thank you for the opportunity to testify concerning VetsFirst's 
views on these important pieces of legislation. We remain committed to 
working in partnership to ensure that all veterans are able to 
reintegrate in to their communities and remain valued, contributing 
members of society.
    Information Required by Clause 2(g) of Rule XI of the House of 
                            Representatives
    Written testimony submitted by Heather L. Ansley, Vice President of 
Veterans Policy; VetsFirst, a program of United Spinal Association; 
1660 L Street, NW, Suite 504; Washington, D.C. 20036. (202) 556-2076, 
ext. 7702.
    This testimony is being submitted on behalf of VetsFirst, a program 
of United Spinal Association.
    In fiscal year 2012, United Spinal Association served as a 
subcontractor to Easter Seals for an amount not to exceed $5000 through 
funding Easter Seals received from the U.S. Department of 
Transportation. This is the only federal contract or grant, other than 
the routine use of office space and associated resources in VA Regional 
Offices for Veterans Service Officers that United Spinal Association 
has received in the current or previous two fiscal years.
Executive Summary
Veterans' Compensation Cost-of-Living Adjustment Act of 2013 (H.R. 569)
    We urge swift passage of this legislation which would ensure these 
beneficiaries are eligible for a cost of living adjustment (COLA) to 
their benefits on December 1, 2013.
American Heroes COLA Act (H.R. 570)
    Disabled veterans and their survivors should be automatically 
eligible for COLAs. We strongly support this legislation.
Veterans 2nd Amendment Protection Act (H.R. 602)
    Veterans should not be forced to accept the loss of their second 
amendment rights without proper legal protections. We support this 
legislation which would ensure those protections.
Ruth Moore Act of 2013 (H.R. 671)
    We support this legislation which would ease the burden on military 
sexual trauma survivors to receive needed compensation benefits and 
access to health care.
Honor America's Guard-Reserve Retirees Act (H.R. 679)
    This legislation would allow these men and women the right to call 
themselves veterans of the Armed Forces and we urge its quick passage.
Access to Veterans Benefits Improvement Act (H.R. 733)
    While we support the goal of ensuring that veterans receive timely 
information regarding the status of their claims, we believe access to 
case-tracking information should be limited to those who hold a 
claimant's power of attorney or have express written consent to receive 
status information.
To improve the supervision of fiduciaries of veterans under the law 
        administered by the Secretary of Veterans Affairs (H.R. 894)
    This legislation takes important steps toward ensuring that VA's 
fiduciary program is more transparent and focused on the needs of 
beneficiaries. We believe that the process should be veteran-centered 
and appreciate the efforts to ensure accountability to veterans 
concerning their benefits. Modifications that would strengthen the 
legislation include ensuring that family fiduciaries are not unduly 
burden and that veterans have access to benefits when appealing a 
determination of financial incompetence or while awaiting appointment 
of a fiduciary.
To require the Secretary of Veterans Affairs to include an appeals form 
        in any notice of decision issued for the denial of a benefit 
        sought (H.R. 1405)
    We support this legislation but propose that the language be 
clarified to state that VA must provide ``a form that may be used to 
file a notice of disagreement with the decision.''

                                 <F-dash>
                Prepared Statement of Michael D. Murphy
    Good morning Mr. Chairman, members of the committee, and staff, it 
is truly my honor to be here for this hearing. As Executive Director of 
the National Association of County Veterans Service Officers, I am here 
today, to comment on the:

    4    The proposed bill, HR 733, to grant access of Veterans 
Administration information to Governmental Veterans Service Officers

    The National Association of County Veterans Service Officers is an 
organization made up of local government employees. Local government 
employees that believe we can help the Department of Veterans Affairs 
reduce the number of backlogged benefits claims that veterans are 
currently waiting to have adjudicated by the Department of Veterans 
Affairs.
    Our members work in local government offices, an ``arm of 
government'' if you will, in 37 States and currently are comprised of 
2,400 full time employees in 700 communities. We are not like the 
Veterans Service Organizations. We are not dues driven or membership 
driven. Every veteran, their dependents and their survivors who live in 
our respective jurisdictions are all our clients. We serve them at no 
cost to the client. We are equipped to handle and ready to assist 
veterans one on one, with every Department of Veterans Affairs benefit, 
state and local benefits, and the reason we are here today, to assist 
them in tracking their claim.
    There are over 22 million honorably discharged veterans of the 
armed forces of the United States. During the course of their life 
after the military they may have occasion to file a benefits claim for 
pension or compensation. Most veterans are not members of a Veterans 
Service Organization, but chances are that they live within one of our 
communities served by a State, County or City Veterans Service Officer. 
To the citizens of our communities, we are the Veterans Administration.
    The main issue we are here to talk about today is the lack of 
cooperation by the Department of Veterans Affairs in recognizing our 
members as an arm of government. We are treated as if we are a Veterans 
Service Organization rather than what we are. As governmental employees 
we are not unlike the VA itself. There is just a failure to recognize 
us in that light.
    Let's say that a veteran comes into my office to file a claim for a 
knee injury that occurred while the veteran was on active duty in the 
Army. We first have to determine eligibility based on war time/peace 
time service and a number of factors established by the VA. Let's say 
this veteran appears to be eligible. We then put together a claim for 
compensation, gather up medical evidence, service medical records, 
service records, buddy statements, and other pertinent information and 
submit the claim to one of a number of Veterans Service Organizations. 
We help the veteran select a Veterans Service Organizations to 
represent the veteran through a Power of Attorney. This is done so that 
the veteran may have representation at the VA Regional Office and for 
any subsequent appeals that may occur. Our local Governmental Veterans 
Service Officers may hold the Power of Attorney but many are just too 
far away from the Regional Offices to adequately represent their 
client.
    Then after about 3 months the veteran comes back into my office and 
asks what the status of his claim is as he has heard nothing. I have no 
way to gain this knowledge even though the claim originated in my 
office. I have to refer him to the VA's 1-800 number and hope he can 
ask the right questions or to the Veterans Service Organization who 
holds his Power of Attorney and who he does not know and probably won't 
call. Hopefully he won't go to another jurisdiction and file another 
claim which adds to the backlog.
    What we are asking in this bill under consideration is to allow the 
Governmental Veterans Service Officers to have ``read only'' access to 
their client's information. This will allow the local Governmental 
Veterans Service Officer to properly track and provide follow-up for 
their clients. Sometimes a veteran will file an appeal on a denied 
claim and go to another Veterans Service Officer in another 
jurisdiction and file another claim for the same thing. This ultimately 
adds to the backlog and unnecessarily bogs down the system. If enacted, 
this bill will avoid duplication of claims which in turn, will assist 
in reducing the current backlog of claims.
    We know there is much consternation on the part of the Veterans 
Administration regarding this issue. They have had some problems, in 
the past, in keeping secure, that information that veterans must give 
to the government to obtain the benefits that they earned. We 
understand this and are held to the same standards as the VA already. 
Remember that a majority of claims for compensation and pension 
originate in local Governmental Veterans Service Offices. We are 
required to keep secure that information that we supplied to the 
Veterans Service Organization and ultimately to the Veterans 
Administration. As a prerequisite to receive access to the VA 
databases, the government employee must be accredited with the Veterans 
Administration, must have attended and successfully completed Training, 
Responsibility, Involvement and Preparation of Claims (TRIP) training 
and must have had a background check performed on them as a condition 
of employment.
    There has been much cooperation between the Federal, State and 
Local Government over many years. There are cooperative Memorandums of 
Understanding (MOU) the Department of Agriculture, Department of 
Justice and other Federal arms of government routinely sign every year. 
The United States Forest Service cooperatively works with local 
jurisdictions to safeguard the resources on the National Forest. The 
FBI and Homeland Security work closely with local law enforcement 
jurisdictions in an effort to safeguard local residents. A local law 
enforcement officer can run a records check on a subject and get most 
everything the FBI has on the subject in a few minutes. There are 
safeguards in place to make sure the information is not released 
improperly and it works very well. If the FBI treated local law 
enforcement like the VA treats our members there would be anarchy in 
the streets.
    In this day and age of our great nation it is unthinkable that a 
young man or woman enters the military service, serves honorably and 
upon discharge finds difficulties in obtaining the rights and benefits 
that they earned through service and sacrifice. It is our 
responsibility, the people of the United States, to live up to that 
promise of a better and brighter future. That promise that includes a 
myriad of veterans benefits should the service member becomes injured 
in defense of freedom; but also an underlying promise that says that if 
you serve your country with honor your country will be there to serve 
you, not with a hand out, but a hand up. Together we must develop a 
mechanism for solutions, so that veterans are able to return and find 
their part of the American Dream.
    The National Association of County Veterans Service Officers has 
been in existence since 1990, primarily as a vehicle to provide 
continuing education and accreditation training in Department of 
Veterans Affairs' procedures and regulations governing veterans' 
benefits. The Association provides basic and advanced training for 
County Veterans Service Offices and also serves as a vehicle for them 
to obtain national accreditation with the Department of Veterans 
Affairs.
    The National Association of County Veterans Service Officers is 
grateful for this opportunity to testify to this Committee. If we work 
together, I believe that we can reverse the growing backlog of veterans 
benefit claims and get our heroes what they earned and truly deserve.
    In Closing, the National Association of County Veterans Service 
Officers recommends that this committee move this bill along in the 
legislative process. We believe that this bill has the potential to 
make a significant difference in the lives of returning veterans and 
will afford them a better opportunity to obtain their earned benefits. 
Thank you for your time and attention.
Executive Summary
RECOMMENDATIONS:
    That the full House Veterans Affairs Committee hold hearings on a 
proposed bill to grant Governmental Veterans Service Officers limited 
access to Department of Veterans Affairs data bases.
    That the House Veterans Affairs Committee enact legislation to 
grant Governmental Veterans Service Officers limited access to 
Department of Veterans Affairs data bases.
    This is a no cost issue for congress. The National Association of 
County Veterans Service Officers is an organization made up of local 
government employees. Local government employees that believe we can 
help the Department of Veterans Affairs reduce the number of backlogged 
benefits claims that veterans are currently waiting to have adjudicated 
by the Department of Veterans Affairs.
    Our members work in local government offices, an ``arm of 
government'' if you will, in 37 States and currently are comprised of 
2,400 full time employees in 700 communities. We are not like the 
Veterans Service Organizations. We are not dues driven or membership 
driven. Every veteran, their dependents and their survivors who live in 
our respective jurisdictions are all our clients. We serve them at no 
cost to the client. We are equipped to handle and ready to assist 
veterans one on one, with every Department of Veterans Affairs benefit, 
state and local benefits, and the reason we are here today, to assist 
them in tracking their claim.
    What we are asking in this bill under consideration is to allow the 
Governmental Veterans Service Officers to have ``read only'' access to 
their client's information. This will allow the local Governmental 
Veterans Service Officer to properly track and provide follow-up for 
their clients. Sometimes a veteran will file an appeal on a denied 
claim and go to another Veterans Service Officer in another 
jurisdiction and file another claim for the same thing. This ultimately 
adds to the backlog and unnecessarily bogs down the system. If enacted, 
this bill will avoid duplication of claims which in turn, will assist 
in reducing the current backlog of claims.

                                 <F-dash>
               Prepared Statement of David R. McLenachen
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the Department of Veterans Affairs 
(VA) on several bills of interest to Veterans and VA. Joining me today 
are Mary Ann Flynn, Deputy Director, Policy and Procedures, 
Compensation Service, and Richard Hipolit, Assistant General Counsel.
    VA has not had time to develop cost estimates on H.R. 671, H.R. 
733, and H.R. 894 and will provide costs on these bills for the record.
                                H.R. 569
    H.R. 569, the ``Veterans' Compensation Cost-of-Living Adjustment 
Act of 2013,'' would require the Secretary of Veterans Affairs to 
increase, effective December 1, 2013, the rates of disability 
compensation for service-disabled Veterans and the rates of dependency 
and indemnity compensation (DIC) for survivors of Veterans. This bill 
would increase these rates by the same percentage as the percentage by 
which Social Security benefits are increased effective December 1, 
2013. Each dollar amount increased, if not a whole dollar amount, would 
be rounded to the next lower whole dollar amount. The bill would also 
require VA to publish the resulting increased rates in the Federal 
Register.
    VA strongly supports this bill because it would express, in a 
tangible way, this Nation's gratitude for the sacrifices made by our 
service-disabled Veterans and their surviving spouses and children and 
would ensure that the value of their well-deserved benefits will keep 
pace with increases in consumer prices.
    The cost of the cost-of-living adjustment (COLA) is included in 
VA's baseline budget because we assume a COLA will be enacted by 
Congress each year. Therefore, enactment of H.R. 569, which would 
extend the COLA adjustment through November 30, 2014, would not result 
in costs. The round-down in increased rates would result in savings of 
approximately $41.6 million in fiscal year (FY) 2014, $262.0 million 
over five years, and $573.8 million over ten years.
                                H.R. 570
    H.R. 570, the ``American Heroes COLA Act,'' would amend 38 U.S.C. 
Sec.  5312 to permanently authorize the Secretary of Veterans Affairs 
to implement cost-of-living increases to the rates of disability 
compensation for service-disabled Veterans and the rates of DIC for 
survivors of Veterans. This bill would direct the Secretary to increase 
the rates of those benefits whenever a cost-of-living increase is made 
to benefits under title II of the Social Security Act. The rates of 
compensation and DIC would be increased by the same percentage as 
Social Security benefits. This bill would also make permanent the 
round-down requirement for compensation cost-of-living adjustments. The 
amendments made by the bill would take effect on December 1, 2014.
    VA supports this bill because it would be consistent with Congress' 
long-standing practice of enacting regular cost-of-living increases for 
compensation and DIC benefits in order to maintain the value of these 
important benefits, but would eliminate the need for additional 
legislation to implement such increases in the future. It would also be 
consistent with current 38 U.S.C. Sec. Sec.  1104(a) and 1303(a), which 
provide that cost-of-living adjustments to compensation and DIC 
amounts, if they are made, will be at a uniform percentage not 
exceeding the percentage increase to Social Security benefits.
    The cost of the COLA is included in VA's baseline budget because we 
assume Congress will enact a COLA each year. Therefore, making the 
annual COLA automatic would not result in costs. However, making 
permanent the provision to round down the COLA would result in savings 
of approximately $41.6 million in FY 2014, $712.5 million over five 
years, and $2.6 billion over ten years.
                                H.R. 602
    H.R. 602, the ``Veterans 2nd Amendment Protection Act,'' would 
provide that a person who is mentally incapacitated, deemed mentally 
incompetent, or unconscious for an extended period will not be 
considered adjudicated as a ``mental defective'' for purposes of the 
Brady Handgun Violence Prevention Act in the absence of an order or 
finding by a judge, magistrate, or other judicial authority that such 
person is a danger to himself, herself, or others. The bill would, in 
effect, exclude VA determinations of incompetency from the coverage of 
the Brady Handgun Violence Prevention Act. VA does not support this 
bill.
    VA determinations of mental incompetency are based generally on 
whether a person, because of injury or disease, lacks the mental 
capacity to manage his or her own financial affairs. We believe 
adequate protections can be provided to these Veterans under current 
statutory authority. Under the [National Instant Criminal Background 
Check System] NICS Improvement Amendments Act of 2007, individuals whom 
VA has determined to be incompetent can have their firearms rights 
restored in two ways: First, a person who has been adjudicated by VA as 
unable to manage his or her own affairs can reopen the issue based on 
new evidence and have the determination reversed. When this occurs, VA 
is obligated to notify the Department of Justice to remove the 
individual's name from the roster of those barred from possessing and 
purchasing firearms. Second, even if a person remains adjudicated 
incompetent by VA for purposes of handling his or her own finances, he 
or she is entitled to petition VA to have firearms rights restored on 
the basis that the individual poses no threat to public safety. VA has 
relief procedures in place, and we are fully committed to continuing to 
conduct these procedures in a timely and effective manner to fully 
protect the rights of our beneficiaries.
    Also, the reliance on an administrative incompetency determination 
as a basis for prohibiting an individual from possessing or obtaining 
firearms under Federal law is not unique to VA or Veterans. Under the 
applicable Federal regulations implementing the Brady Handgun Violence 
Prevention Act, any person determined by a lawful authority to lack the 
mental capacity to manage his or her own affairs is subject to the same 
prohibition. By exempting certain VA mental health determinations that 
would otherwise prohibit a person from possessing or obtaining firearms 
under Federal law, the bill would create a different standard for 
Veterans and their survivors than that applicable to the rest of the 
population and could raise public safety issues.
    The enactment of H.R. 602 would not impose any costs on VA.
                                H.R. 671
    VA is committed to serving our Nation's Veterans by accurately 
adjudicating claims based on military sexual trauma (MST) in a 
thoughtful and caring manner, while fully recognizing the unique 
evidentiary considerations involved in such an event. Before addressing 
the specific provisions of H.R. 671, it would be useful to outline 
those efforts, which we believe achieve the intent behind the bill. The 
Under Secretary for Benefits has spearheaded the efforts of the 
Veterans Benefits Administration (VBA) to ensure that these claims are 
adjudicated compassionately and fairly, with sensitivity to the unique 
circumstances presented by each individual claim.
    VA is aware that, because of the personal and sensitive nature of 
the MST stressors in these cases, it is often difficult for the victim 
to report or document the event when it occurs. To remedy this, VA 
developed regulations and procedures specific to MST claims that 
appropriately assist the claimant in developing evidence necessary to 
support the claim. As with other posttraumatic stress disorder (PTSD) 
claims, VA initially reviews the Veteran's military service records for 
evidence of the claimed stressor. VA's regulation also provides that 
evidence from sources other than a Veteran's service records may 
corroborate the Veteran's account of the stressor incident, such as 
evidence from mental health counseling centers or statements from 
family members and fellow Servicemembers. Evidence of behavior changes, 
such as a request for transfer to another military duty assignment, is 
another type of relevant evidence that may indicate occurrence of an 
assault. VA notifies Veterans regarding the types of evidence that may 
corroborate occurrence of an in-service personal assault and asks them 
to submit or identify any such evidence. The actual stressor need not 
be documented. If minimal circumstantial evidence of a stressor is 
obtained, VA will schedule an examination with an appropriate mental 
health professional and request an opinion as to whether the 
examination indicates that an in-service stressor occurred. The 
Veteran's lay statement during this examination can establish 
occurrence of the claimed stressor.
    With respect to claims for other disabilities based on MST, VA has 
a duty to assist in obtaining evidence to substantiate a claim for 
disability compensation. When a Veteran files a claim for mental or 
physical disabilities other than PTSD based on MST, VBA will obtain a 
Veteran's service medical records, VA treatment records, relevant 
Federal records identified by the Veteran, and any other relevant 
records, including private records, identified by the Veteran that the 
Veteran authorizes VA to obtain. VA must also provide a medical 
examination or obtain a medical opinion when necessary to decide a 
disability claim. VA will request that the medical examiner provide an 
opinion as to whether it is at least as likely as not that the current 
symptoms or disability are related to the in-service event. This 
opinion will be considered as evidence in deciding whether the 
Veteran's disability is service connected.
    VBA has also placed a primary emphasis on informing VA regional 
office (RO) personnel of the issues related to MST and providing 
training in proper claims development and adjudication. VBA developed 
and issued Training Letter 11-05, Adjudicating Posttraumatic Stress 
Disorder Claims Based on Military Sexual Trauma, in December 2011. This 
was followed by a nationwide Microsoft Live Meeting broadcast on MST 
claims adjudication. The broadcast focused on describing the range of 
potential markers that could indicate occurrence of an MST stressor and 
the importance of a thorough and open-minded approach to seeking such 
markers in the evidentiary record. In addition, the VBA Challenge 
Training Program, which all newly hired claims processors are required 
to attend, now includes a module on MST within the course on PTSD 
claims processing. VBA also provided its designated Women Veterans 
Coordinators with updated specialized training. These employees are 
located in every VA RO and are available to assist both female and male 
Veterans with their claims resulting from MST.
    VBA worked closely with the Veterans Health Administration (VHA) 
Office of Disability Examination and Medical Assessment to ensure that 
specific training was developed for clinicians conducting PTSD 
compensation examinations for MST-related claims. VBA and VHA further 
collaborated to provide a training broadcast targeted to VHA clinicians 
and VBA raters on this very important topic, which aired initially in 
April 2012 and has been rebroadcast numerous times.
    Prior to these training initiatives, the grant rate for PTSD claims 
based on MST was about 38 percent. Following the training, the grant 
rate rose and at the end of February 2013 stood at about 52 percent, 
which is roughly comparable to the approximate 59-percent grant rate 
for all PTSD claims.
    In December 2012, VBA's Systematic Technical Accuracy Review team, 
VBA's national quality assurance office, completed a second review of 
approximately 300 PTSD claims based on MST. These claims were denials 
that followed a medical examination. The review showed an overall 
accuracy rate of 86 percent, which is roughly the same as the current 
national benefit entitlement accuracy level for all rating-related end 
products.
    In addition, VBA's new standardized organizational model has now 
been implemented at all of our ROs. It incorporates a case-management 
approach to claims processing. VBA reorganized its workforce into 
cross-functional teams that give employees visibility of the entire 
processing cycle of a Veteran's claim. These cross-functional teams 
work together on one of three segmented lanes: express, special 
operations, or core. Claims that predictably can take less time flow 
through an express lane (30 percent); those taking more time or 
requiring special handling flow through a special operations lane (10 
percent); and the rest of the claims flow through the core lane (60 
percent). All MST-related claims are now processed in the special 
operations lane, ensuring that our most experienced and skilled 
employees are assigned to manage these complex claims.
    Under Secretary Hickey's efforts have dramatically improved VA's 
overall sensitivity to MST-related PTSD claims and have led to higher 
current grant rates. However, she recognized that some Veterans' MST-
related claims were decided before her efforts began. To assist those 
Veterans and provide them with the same evidentiary considerations as 
Veterans who file claims today, VBA is planning to advise Veterans of 
the opportunity to request that VA review their previously denied PTSD 
claims based on MST. Those Veterans who respond will receive 
reconsideration of their claims based on VA's heightened sensitivity to 
MST and a more complete awareness of evidence development. VBA will 
also continue to work with VHA medical professionals to ensure they are 
aware of their critical role in processing these claims.
    Turning to the specifics of H.R. 671, the ``Ruth Moore Act of 
2013,'' section 2(a) would add to 38 U.S.C. Sec.  1154 a new subsection 
(c) to provide that, if a Veteran alleges that a ``covered mental 
health condition'' was incurred or aggravated by MST during active 
service, VA must ``accept as sufficient proof of service-connection'' a 
mental health professional's diagnosis of the condition together with 
satisfactory lay or other evidence of such trauma and the 
professional's opinion that the condition is related to such trauma, 
provided that the trauma is consistent with the circumstances, 
conditions, or hardships of such service, irrespective of whether there 
is an official record of incurrence or aggravation in service. Service 
connection could be rebutted by ``clear and convincing evidence to the 
contrary.'' In the absence of clear and convincing evidence to the 
contrary, and provided the claimed MST is consistent with the 
circumstances, conditions, and hardships of service, the Veteran's lay 
testimony alone would be sufficient to establish the occurrence of the 
claimed MST. The provision would define the term ``covered mental 
health condition'' to mean PTSD, anxiety, depression, ``or other mental 
health diagnosis described in the current version'' of the American 
Psychiatric Association Diagnostic and Statistical Manual of Mental 
Disorders that VA ``determines to be related to military sexual 
trauma.'' The bill would define MST to mean ``psychological trauma, 
which in the judgment of a mental health professional, resulted from a 
physical assault of a sexual nature, battery of a sexual nature, or 
sexual harassment which occurred during active military, naval, or air 
service.''
    Section 2(a) of the bill would require VA to accept as proven the 
occurrence of MST or a PTSD stressor without what we consider the 
minimal threshold evidence that is needed to maintain the integrity of 
the claims process. It would permit a Veteran's lay testimony alone to 
establish the occurrence of claimed MST, and service connection for a 
covered mental health condition would be established if a mental health 
professional diagnoses a covered mental health condition and opines 
that the such condition is related to the MST. This would occur whether 
or not the mental health professional had access to the Veteran's 
service records or was otherwise able to evaluate the claimant's 
statements regarding the occurrence of the claimed in-service stressor 
or event.
    Through VA's extensive, recent, and ongoing actions, we are 
ensuring that MST claimants are given a full and fair opportunity to 
have their claim considered, with a practical and sensitive approach 
based on the nature of MST. As noted above, VA has recognized the 
sensitive nature of MST-related PTSD claims and claims based on other 
covered mental health conditions, as well as the difficulty inherent in 
obtaining evidence of an in-service MST event. Current regulations 
provide multiple means to establish an occurrence, and VA has initiated 
additional training efforts and specialized handling procedures to 
ensure thorough, accurate, and timely processing of these claims.
    VA's regulations reflect the special nature of PTSD. Section 
3.304(f) of title 38 Code of Federal Regulations, currently provides 
particularized rules for establishing stressors related to personal 
assault, combat, former prisoner-of-war status, and fear of hostile 
military or terrorist activity. These particularized rules are based on 
an acknowledgement that certain circumstances of service may make the 
claimed stressor more difficult to corroborate. Nevertheless, they 
require threshold evidentiary showings designed to ensure accuracy and 
fairness in determinations as to whether the claimed stressor occurred. 
Evidence of a Veteran's service in combat or as a prisoner of war 
generally provides an objective basis for concluding that claimed 
stressors related to such service occurred. Evidence that a Veteran 
served in an area of potential military or terrorist activity may 
provide a basis for concluding that stressors related to fears of such 
activity occurred. In such cases, VA also requires the opinion of a VA 
or VA-contracted mental health professional, which enables VA to ensure 
that such opinions are properly based on consideration of relevant 
facts, including service records, as needed. For PTSD claims based on a 
personal assault, lay evidence from sources outside the Veteran's 
service records may corroborate the Veteran's account of the in-service 
stressor, such as statements from law enforcement authorities, mental 
health counseling centers, family members, or former Servicemembers, as 
well as other evidence of behavioral changes following the claimed 
assault. Minimal circumstantial evidence of a stressor is sufficient to 
schedule a VA examination and request that the examiner provide an 
opinion as to whether the stressor occurred.
    The regulatory provisions at 38 C.F.R. Sec. Sec.  3.303 and 
3.304(f) have established equitable standards of proof and of evidence 
for corroboration of an in-service injury, disease, or event for 
purposes of service connection. Further, 38 U.S.C. Sec.  1154 requires 
consideration of the places, types, and circumstances of service when 
evaluating disability claims and provides for acceptance of lay 
statements concerning combat-related injuries, provided evidence 
establishes that the Veteran engaged in combat. H.R. 671 would expand 
section 1154 to require VA to accept lay statements as sufficient proof 
of in-service events in all MST claims involving covered mental health 
conditions, based solely on the nature of the claim and without 
requiring the objective markers, such as combat service, that are 
essential to the effective operation of section 1154. Without the 
requirement of any evidentiary threshold for the mandatory acceptance 
of a lay statement as sufficient proof of an occurrence in service, 
this bill would eliminate, for discrete groups of Veterans, generally 
applicable requirements that ensure the fairness and accuracy of claim 
adjudications.
    In summary, while we appreciate the intent behind this legislation, 
we would prefer to continue pursuing non-legislative actions to address 
the special nature of claims based upon MST.
    Section 2(b) would require VA, for a 5-year period beginning 
December 1, 2014, to submit to Congress an annual report on claims 
covered by new section 1154(c) that were submitted during the previous 
fiscal year. Section 2(b) would also require VA to report on the: (1) 
number and percentage of covered claims submitted by each sex that were 
approved and denied; (2) rating percentage assigned for each claim 
based on the sex of the claimant; (3) three most common reasons for 
denying such claims; and (4) number of claims denied based on a 
Veteran's failure to report for a medical examination; (5) number of 
claims pending at the end of each fiscal year; (6) number of claims on 
appeal; (7) average number of days from submission to completion of the 
claims; and (8) training provided to VBA employees with respect to 
covered claims.
    VA does not oppose section 2(b).
    Section 2(c) would make proposed section 1154(c) applicable to 
disability claims ``for which no final decision has been made before 
the date of the enactment'' of the bill. H.R. 671 does not define the 
term ``final decision.'' As a result, it is unclear whether the new law 
would be applicable to an appealed claim in which no final decision has 
been issued by VA or, pursuant to 38 U.S.C. Sec.  7291, by a court.
    Benefit costs associated with H.R. 671 are estimated to be $135.9 
million in FY 2014, $2.0 billion over five years, and $7.1 billion over 
ten years. Costs for information technology and general operating 
expenses will be provided for the record.
                                H.R. 679
    H.R. 679, the ``Honor America's Guard-Reserve Retirees Act,'' would 
add to chapter 1, title 38, United States Code, a provision to honor as 
Veterans, based on retirement status, certain persons who performed 
service in reserve components of the Armed Forces but who do not have 
service qualifying for Veteran status under 38 U.S.C. Sec.  101(2). The 
bill provides that such persons would be ``honored'' as Veterans, but 
would not be entitled to any benefit by reason of the amendment.
    Under 38 U.S.C. Sec.  101(2), Veteran status is conditioned on the 
performance of ``active military, naval, or air service.'' Under 
current law, a National Guard or Reserve member is considered to have 
had such service only if he or she served on active duty, was disabled 
or died from a disease or injury incurred or aggravated in line of duty 
during active duty for training, or was disabled or died from any 
injury incurred or aggravated in line of duty or from an acute 
myocardial infarction, a cardiac arrest, or a cerebrovascular accident 
during inactive duty training. H.R. 679 would eliminate these service 
requirements for National Guard or Reserve members who served in such a 
capacity for at least 20 years. Retirement status alone would make them 
eligible for Veteran status.
    VA recognizes that the National Guard and Reserves have admirably 
served this country and in recent years have played an even greater 
role in our Nation's overseas conflicts. Nevertheless, VA does not 
support this bill because it represents a departure from active service 
as the foundation for Veteran status. This bill would extend Veteran 
status to those who never performed active military, naval, or air 
service, the very circumstance which qualifies an individual as a 
Veteran. Thus, this bill would equate longevity of reserve service with 
the active service long ago established as the hallmark for Veteran 
status.
    VA estimates that there would be no additional benefit or 
administrative costs associated with this bill if enacted.
                                H.R. 733
    H.R. 733, the ``Access to Veterans Benefits Improvement Act,'' 
would add a new section 5906 to chapter 59 of title 38, United States 
Code. Proposed section 5906(a)(1) would require VA to provide a 
``covered employee'' with access to the ``case-tracking system'' to 
provide a Veteran with information regarding the status of the 
Veteran's claim, regardless of whether the covered employee is acting 
under a power of attorney executed by the Veteran. Proposed section 
5906(d) would define the term ``covered employee'' to mean an employee 
of a Member of Congress or an employee of a State or local government 
agency who, in the course of carrying out the responsibilities of such 
employment, assists Veterans with VA benefit claims and would define 
the term ``case-tracking system'' to mean ``the system of [VA] that 
provides information regarding the status of a claim submitted by a 
veteran.''
    Proposed section 5906(a)(2) would require VA to ensure that such 
access would not allow the covered employee to modify the data in the 
case-tracking system and would not include access to medical records. 
Proposed section 5906(b) would prohibit VA from providing case-tracking 
system access to a covered employee unless the employee has 
successfully completed a certification course on privacy issues 
provided by VA. Proposed section 5906(c) would essentially create a new 
exception to the Privacy Act and the Health Insurance Portability and 
Accountability Act of 1996 (HIPAA) by deeming such access to be a 
covered disclosure under 5 U.S.C. Sec.  552a(b) and a permitted 
disclosure under regulations promulgated under section 264(c) of HIPAA.
    VA does not support this bill. It would significantly lessen the 
personal privacy protections currently enjoyed by our Nation's 
Veterans. In addition, the purpose of the bill is already satisfied 
through existing means by which Veterans may secure assistance for 
their claims. The measure would create conflicts with other statutory 
provisions that would be unchanged by the bill. Finally, it would 
impose on VA a substantial burden to accommodate the access 
contemplated by the bill through its current operating systems.
    National Veterans service organizations are already an integral 
part of VA's efforts to assist Veterans. VA provides the individual 
members of these organizations with special training and certification 
to ensure familiarization with VA claim processing and VA computer 
systems. Training and certification are also available for state and 
county employees representing Veterans. Additionally, Members of 
Congress and their employees are already provided access to claim 
status information when authorized by a Veteran constituent or when 
they have proper authority to conduct oversight. Each VA RO has a 
congressional liaison who may be contacted for claim information. 
Finally, any qualified representative authorized by a Veteran has 
access to the status of that Veteran's claim information, within 
statutory guidelines.
    With the exception of medical records, the bill would not limit the 
type of information in the case-tracking system to which the Secretary 
would be required to provide access. VA tracking systems contain a wide 
variety of information, some of it confidential and imbued with a high 
degree of personal privacy. Providing access to VA's case-tracking 
system would compromise the privacy of Veterans' personal information.
    Proposed section 5906(a)(2)(A)(ii) would require VA to ensure that 
access is not provided to medical records, yet proposed section 
5906(c)(2) would provide that access to such information shall be 
deemed to be a permitted disclosure under HIPAA. If the Secretary is 
precluded from providing access to protected health information, the 
provision concerning a permitted disclosure pursuant to the HIPAA 
Privacy Rule promulgated by the Department of Health and Human Services 
is superfluous. Furthermore, VA claims are inextricably intertwined 
with medical information, so it would be very difficult to allow access 
to claims information without access to the information concerning 
medical conditions involved in a claim.
    Case-tracking information is also protected by 38 U.S.C. Sec.  5701 
(the statute protecting the confidentiality of Veterans' records and 
the records of their dependents). Section 5701 provides no exception 
for disclosure of names and addresses to covered employees without 
consent or a power of attorney. The bill contains no exception for 
disclosure of information protected by section 5701 to covered 
employees without consent or a power of attorney. Thus, the bill would 
be inconsistent with the longstanding protections provided by section 
5701.
    This bill also appears to be inconsistent with 38 U.S.C. Sec.  
7332, which protects from unauthorized disclosure records of drug 
abuse, alcoholism or alcohol abuse, sickle cell anemia, and infection 
with HIV. For example, if a Veteran has established service connection 
for one of these conditions, then records of treatment for the 
condition would appear in a case-tracking system.
    The definition of the term ``covered employee'' in proposed section 
5906(d)(2) is quite broad, including a widespread universe of 
individuals, employees of Members of Congress and State and local 
government employees, including Veterans service officers (an undefined 
term), who have, as one of their responsibilities, the provision of 
assistance to Veterans with claims for VA benefits. VA's release of 
Veterans' information outside of VA always removes to some degree the 
protections afforded under Federal privacy laws and regulations and has 
the potential to undermine Veterans' trust of VA.
    This bill would also impose on VA a substantial administrative 
burden. Under 38 U.S.C. Sec.  5723(f), users of VA information and 
information systems already must comply with all VA information 
security program policies, procedures, and practices. They must attend 
security awareness training at least annually, immediately report all 
security incidents to the Information Security Officer of the system, 
comply with orders from the Assistant Secretary for Information and 
Technology when a security incident occurs, and annually sign an 
acknowledgement that they have read, understand, and agree to abide by 
the VA National Rules of Behavior. Under the bill, ``covered 
employees'' would fall within the scope of section 5723(f) as users of 
VA information and information systems. Considering the potentially 
vast number of covered employees that could be granted access by the 
bill, training and oversight by VA would be extremely burdensome and 
time consuming. Monitoring changes in duties among covered employees 
would be another burden. These administrative burdens are not justified 
when VA prefers to direct its resources to providing more timely and 
accurate claims decisions and eliminating the claims backlog.
    The goal of H.R. 733 is to provide Veterans with status updates on 
the processing of their claims. Processing claims involves gathering 
and evaluating evidence and providing VA medical examinations when 
needed. VA currently informs Veteran claimants of these steps in 
writing as they occur. Additionally, the self-service features of 
eBenefits allow claimants and their representatives to determine the 
status of their claims at any time, day or night. VBA is also 
implementing the Stakeholder Enterprise Portal, a secure web-based 
access point for VA's authorized business partners. This portal 
provides the ability for Veterans service officers and other approved 
external VA business partners to represent Veterans quickly, 
efficiently, and electronically. Providing covered employees with 
access to the same information for duplicative communication with 
Veteran claimants would result in an unjustified drain on VA resources 
that could result in reduced timeliness in claim processing.
                                H.R. 894
    H.R. 894, a bill to improve the supervision of fiduciaries of 
Veterans under laws administered by VA, would make several changes to 
VA's administration of its fiduciary program for beneficiaries who 
cannot manage their own VA benefits. VA appreciates the interest in 
improving VA's fiduciary program, but finds several provisions of the 
bill problematic, as set out in detail below. Although VA does not 
support those measures, VA shares the desire to improve oversight of 
fiduciaries and has already taken steps to clarify VA's and 
fiduciaries' roles in the program and improve oversight. Among other 
things, VA consolidated its fiduciary activities to six regionally-
aligned hubs to increase efficiency of operations and improve quality 
of service, rewrote all of its fiduciary regulations, implemented a new 
field examiner training program, and designed a new information 
technology system for the program. VA welcomes the opportunity to 
discuss these improvements and the goals of, and intent behind, this 
bill with you or your staff. VA has just proposed a measure through 
last week's budget submission that would allow more effective oversight 
of fiduciaries through enhanced access to financial records. We would 
welcome discussion of that idea as well.
    Section 1(a) of the bill would amend 38 U.S.C. Sec.  5502 governing 
payments to and supervision of fiduciaries. Section 1(a) would permit a 
beneficiary whom VA has determined is mentally incompetent for purposes 
of appointing a fiduciary to appeal VA's determination and would permit 
a beneficiary for whom VA has appointed a fiduciary to request, at any 
time, that VA remove the fiduciary and appoint a new fiduciary. VA 
would have to comply with the request unless VA determines that ``the 
request is not made in good faith.'' VA would have to ensure that 
removal of a fiduciary or appointment of a new fiduciary does not delay 
or interrupt the beneficiary's receipt of benefits. Section 1(a) would 
specify that a VA-appointed fiduciary must operate independently of VA 
to determine the actions that are in the beneficiary's interest.
    The provisions concerning appeals of incompetence determinations 
and replacement of fiduciaries generally codify current VA policy. 
Under current VA policy, a beneficiary may appeal an incompetency 
determination and may at any time for good cause shown request the 
appointment of a successor fiduciary. Accordingly, VA does not oppose 
these provisions, except for the ``not made in good faith'' provision, 
which could disrupt the fiduciary program by requiring VA to frequently 
replace fiduciaries for Veterans who are dissatisfied with oversight of 
funds under the program.
    However, VA opposes the provision that would require VA to ensure 
that any removal or appointment of a new fiduciary does not delay or 
interrupt the beneficiary's receipt of benefits. If a fiduciary is 
removed and a successor fiduciary is being appointed, VA's objective is 
to ensure the continuation of benefits to the beneficiary. However, in 
some cases, benefit payments get delayed or interrupted when a 
fiduciary is being replaced, for reasons beyond VA's control. Under 
current law, VA must conduct the inquiry or investigation prescribed by 
Congress in 38 U.S.C. Sec.  5507 when it replaces a fiduciary, and 
sometimes VA encounters an uncooperative beneficiary or beneficiary's 
representative. Some delay may be unavoidable in these cases. 
Consequently, VA opposes this provision to the extent that it would 
prohibit, without exception or qualification, any delay in the delivery 
of benefits upon removal of a fiduciary.
    Section 1(a) would permit a Veteran to ``predesignate a fiduciary'' 
by providing VA with written notice of the predesignated fiduciary or 
submitting a VA form for such purpose and would require VA, if VA 
appoints a fiduciary other than the one designated by the beneficiary, 
to notify the beneficiary of the reason for not appointing the 
designated individual and of the beneficiary's ability to request a 
change in the appointed fiduciary. In appointing a fiduciary for a 
beneficiary who has not designated one, VA would, to the extent 
possible, have to appoint the beneficiary's relative, a court-appointed 
guardian, or a person authorized to act on the beneficiary's behalf 
under a durable power of attorney.
    VA opposes the provision that would permit predesignation of a 
fiduciary. As a result of VA's increased outreach and collaboration 
with the Department of Defense, many individuals complete their initial 
benefit application early in their lifetime when they have no need for 
fiduciary services. Designating a fiduciary decades before any actual 
need for a fiduciary would likely render the initial designation stale. 
Also, VA's current appointment policy gives preference to the 
beneficiary's choice and family members' or guardian's desires as 
expressed at the time of the field examination, which VA believes is 
the best available and most relevant information for purposes of making 
a best-interest determination. Such determination should not be based 
upon stale information.
    VA also opposes the provision that would give priority in 
appointment consideration to individuals holding a beneficiary's 
durable power of attorney (POA). Based upon experience, VA does not 
favor giving a person holding a beneficiary's POA priority over other 
candidates based only on the existence of the POA. Veterans and other 
beneficiaries in the fiduciary program can be extremely vulnerable and 
easily coerced into signing documents. Additionally, a POA can be 
executed and revoked by the beneficiary at any time. If an individual 
is holding a POA, VA would have no way of determining whether the POA 
is still in effect or if the beneficiary had the capacity to execute a 
legally enforceable POA under State law at the time. Implementing 
policies and procedures related to the assessment of POAs would 
needlessly complicate and delay the fiduciary-appointment process.
    Also, under current law, VA has a duty to appoint, based upon a 
field examination and consideration of the totality of the 
circumstances, the individual or entity that is in the beneficiary's 
best interest. Although VA might conclude that appointment of an 
individual who holds the beneficiary's POA is in the beneficiary's 
interest, VA strongly opposes statutory imposition of a preference to 
an individual named in a POA. Under current law, VA appoints the person 
or entity who will provide the least restrictive fiduciary 
relationship. Thus, VA first considers the beneficiary's preference, 
followed by a spouse, another family member, or a friend or other 
individual who is willing to serve as fiduciary without a fee. Such 
appointments constitute the overwhelming majority of VA's fiduciary 
appointments. Nonetheless, under this provision of the bill, if a 
beneficiary has not designated a fiduciary and a relative is not 
available, VA would be required to consider the beneficiary's court-
appointed guardian or an individual who holds the beneficiary's durable 
POA. It would require priority consideration for more restrictive 
arrangements, contrary to current VA policy.
    VA also opposes the provision mandating preference for the 
beneficiary's court-appointed guardian because of possible effects on 
VA's most vulnerable beneficiaries. Court appointment of a guardian 
often is the most restrictive method of payment and the most costly. 
Under current law, a VA-appointed fiduciary may collect a maximum fee 
of 4 percent of the VA benefits paid to the beneficiary each year. 
Further, under VA's interpretation of the law, a fee may not be based 
upon retroactive, lump-sum, or other one-time payments or upon 
accumulated funds under management. However, under State law, guardians 
may collect fees in excess of the 4-percent Federal limit. Although the 
fee structure varies from State to State, basic fees range between 5 
percent of all income received by the guardian to as high as 10 to 15 
percent of all income and funds under management by the guardian. 
Additionally, courts often allow extraordinary fees in excess of the 
standard fee. The appointment of a guardian often results in the 
guardian incurring the cost of attorney fees for filing motions and 
annual court accountings. These fees and costs can be as much as 
thousands to tens of thousands of dollars per year and are paid from 
the beneficiary's VA benefits. Also, because the fee structure varies 
from State to State, VA cannot conduct consistent and effective 
oversight of guardians appointed by courts, resulting in undesirable 
disparate treatment for vulnerable beneficiaries depending upon the 
beneficiaries' State of residence. VA believes that Congress 
established the fiduciary program for the express purpose of ensuring a 
nation-wide, Federal standard for beneficiaries who cannot manage their 
own benefits.
    Section 1(b) of the bill would make several changes with respect to 
the commission payable for fiduciary services. It would: (1) limit a 
monthly commission to the lesser of 3 percent of the monthly monetary 
benefits paid or $35; (2) prohibit a commission based on any 
beneficiary award regarding ``back pay or retroactive benefits 
payments''; (3) prohibit a commission if VA determines that the 
fiduciary misused a benefit payment; and (4) permit VA to revoke the 
appointment if VA determines that a fiduciary has misused any benefit 
payment.
    VA opposes the provision limiting monthly commissions to a maximum 
of 3 percent of benefits paid or $35. Payment of a suitable fee is 
necessary if there is no other person who is qualified and willing to 
serve as a fiduciary without a fee. In some instances, a beneficiary's 
interests can be served only by the appointment of a qualified paid 
fiduciary. As of March 31, 2012, VA had identified and appointed 
fiduciaries willing to serve without a fee for more than 92 percent of 
its beneficiaries needing fiduciaries.
    Under current VA policy, fiduciaries are more than mere bill 
payers. VA's emerging view is that fiduciaries should remain in contact 
with the beneficiaries they serve and assess those beneficiaries' 
needs. Without such an assessment, fiduciaries who serve VA's most 
vulnerable beneficiaries would be unable to fulfill their obligation to 
determine whether disbursement of funds is in the beneficiary's 
interest. As noted above, for the overwhelming majority of 
beneficiaries needing fiduciaries, a relative or close personal friend 
will perform the duties without cost to the beneficiary. However, there 
are difficult cases in which VA has no alternative but to turn to an 
individual or entity that is willing to serve Veterans and their 
survivors for a suitable fee. Reducing the allowable fee when VA is 
attempting to strengthen the role of fiduciaries in the program would 
create a disincentive for serving these vulnerable beneficiaries. VA 
strongly opposes such a reduction because it would harm beneficiaries 
and needlessly hinder the program, which has a clear preference for 
volunteer service but recognizes the need for a pool of paid 
fiduciaries who are willing to accept appointment for a suitable fee in 
some of VA's most difficult cases. However, VA supports the prohibition 
on deriving commissions from back pay or retroactive payments, which 
would codify VA's current policy regarding limitations on fees, and VA 
has no objection to the remaining fee and revocation provisions because 
they essentially restate current law.
    Section 1(c) of the bill would clarify the statutory definition of 
``fiduciary'' in 38 U.S.C. Sec.  5506. It would clarify that the term 
``person'' in that definition includes a State or local government 
agency whose mission is to carry out income maintenance, social 
service, or healthcare-related activities; any State or local 
government agency with fiduciary responsibilities; or any nonprofit 
social service agency that VA determines regularly provides fiduciary 
services concurrently to five or more individuals and is not a creditor 
of any such individual. It would also require VA to maintain a list of 
State or local agencies and nonprofit social service agencies that are 
qualified to act as a fiduciary.
    VA opposes this provision because it is unnecessary and could cause 
confusion regarding the applicability of other statutes. Current 38 
U.S.C. Sec.  5507 requires VA to conduct an inquiry or investigation of 
any ``person'' to be appointed as a fiduciary to determine the person's 
fitness to serve as a fiduciary. Defining the term ``person'' to 
include State and local government and nonprofit social service 
agencies would imply that VA must conduct the inquiry or investigation 
required by section 5507 to determine such agency's fitness to serve as 
a fiduciary. However, some provisions of section 5507, such as those 
requiring VA to obtain a credit report and to request information 
concerning criminal convictions, cannot be made applicable to agencies. 
VA already appoints such agencies under current law if VA determines 
that it is in a beneficiary's interest. However, VA does not consider 
such agencies ``persons'' for purposes of completing the inquiry and 
investigation requirements of section 5507.
    VA also opposes the provision that would require VA to compile and 
maintain a list of State or local and nonprofit agencies qualified to 
serve as a fiduciary for beneficiaries because it would divert limited 
resources away from the primary program mission. There are as many as 
3,009 counties, 64 parishes, 16 boroughs, and 41 independent 
municipalities in the United States. In addition, there are over 19,000 
municipal governments and more than 30,000 incorporated cities in the 
Nation. The resources needed to compile and maintain such a list would 
exceed by far any benefit for VA beneficiaries in the fiduciary 
program. VA currently appoints fiduciaries according to an order of 
preference, which begins with the beneficiary's preference and 
otherwise seeks to appoint family members, friends, or other 
individuals who are willing to serve without a fee. Rarely does VA need 
to appoint a State, local, or nonprofit agency as a fiduciary for a 
beneficiary.
    Section 1(d) of the bill would revise 38 U.S.C. Sec.  5507, the 
statute governing qualification of fiduciaries. It would add to the 
list of items required to form the basis of a fiduciary appointment 
adequate evidence that the person protects the beneficiary's ``private 
information.'' VA supports this provision because VA agrees that 
information security is important and that a VA-appointed fiduciary 
must safeguard such information. With respect to face-to-face 
interviews of proposed fiduciaries, section 1(d) would strike the 
phrase ``to the extent practicable'' from current statutory language 
requiring such interviews and would require VA to conduct an interview 
not later than 30 days after beginning the inquiry or investigation. VA 
opposes requiring a face-to-face interview with every proposed 
fiduciary because it does not account for the circumstances actually 
encountered by VA in the administration of the program, would 
needlessly delay some initial fiduciary appointments, and thus could 
harm affected beneficiaries. In some cases, a face-to-face interview of 
a proposed fiduciary is not practicable and should be waivable. For 
example, a face-to-face interview would not be practicable for natural 
parents of minor children or certain persons who already manage funds 
for multiple beneficiaries. VA has not been able to discern a need for 
a face-to-face interview to be conducted within 30 days after beginning 
a fitness inquiry or investigation. Therefore, VA does not support this 
provision.
    Section 1(d) would require a background check of a proposed 
fiduciary to determine whether the proposed fiduciary has been 
convicted of any offense under Federal or State law, without regard to 
the length of resulting imprisonment. VA supports this provision. 
Section 1(d) would also require VA to determine whether the proposed 
fiduciary will serve the beneficiary's best interest, including by 
conducting a credit check and by checking records VA would be required 
to maintain of persons who have previously served as fiduciaries and 
had their fiduciary status revoked by VA. It would require VA to 
conduct the criminal history and credit history background check at no 
cost to the beneficiary and each time a person is proposed as a 
fiduciary, regardless of whether he or she is serving or has served as 
a fiduciary.
    Section 1(d) of the bill would also remove the current statutory 
authority permitting VA, in conducting an inquiry or investigation on 
an expedited basis, to waive any inquiry or investigation requirement 
with respect to certain classes of proposed fiduciaries and would add 
to the list of proposed fiduciaries, the investigation of whom may be 
conducted on an expedited basis, a person who is authorized under a 
durable power of attorney to act on a beneficiary's behalf. VA opposes 
removal of the waiver provision because it would needlessly delay 
certain fiduciary appointments, such as appointments of legal guardians 
and certain parents, for whom one or more of the inquiry or 
investigation requirements are not needed. In the case of a 
beneficiary's immediate family members seeking to provide fiduciary 
services, the proposal would result in greater intrusion into family 
matters with no real benefit for beneficiaries. VA does not oppose 
permitting VA to expedite the inquiry or investigation regarding any 
proposed fiduciary, including a person holding a beneficiary's durable 
POA.
    Section 1(d) would require VA, in requiring the furnishing of a 
bond, to ensure that the bond is not paid using any beneficiary funds 
and to consider the care a proposed fiduciary has taken to protect the 
beneficiary's interests and the proposed fiduciary's capacity to meet 
the financial requirements of a bond without sustaining hardship. 
Section 1(d) would also require each RO to maintain a list of the name 
and contact information for each fiduciary, the date of each 
fiduciary's most recent VA background check and credit check, the date 
any bond was paid, the name and contact information of each beneficiary 
for whom the fiduciary acts, and the amount that the fiduciary controls 
for each beneficiary.
    VA strongly opposes the provisions that would require fiduciaries 
to pay annual surety bond premiums. Requiring the fiduciary to pay the 
annual premium would be a disincentive for both volunteer and paid 
fiduciaries and would significantly impair VA's ability to find 
qualified fiduciaries in some of its most difficult cases. Most 
fiduciaries are family members or friends who may not have the funds 
needed to meet the cost of the bond premium. With respect to paid 
fiduciaries who agree to take some of VA's most difficult cases, the 
cost of a bond premium might consume the entire nominal fee authorized 
by Congress. It is standard practice in the guardianship industry to 
allow for payment of surety bond premiums out of estate funds. If this 
provision is enacted, VA anticipates a dramatic increase in the number 
of fiduciaries who are also court appointed. Courts will allow the 
deduction of the cost of the bond and a substantial fee, in many cases 
between 5 and 15 percent of estate value, from the beneficiary's funds. 
VA cannot support the inequitable treatment of, and significant harm 
to, beneficiaries that would likely result from the enactment of this 
provision.
    Section 1(e) would mandate that VA require a fiduciary to file an 
annual report or accounting and that VA transmit the report or 
accounting to the beneficiary and any legal guardian of the 
beneficiary. It would also require that a report or accounting include 
for each beneficiary the amount of benefits that accrued during the 
year, the amount spent, and the amount remaining and an accounting of 
all sources of benefits or other income other than VA benefits that are 
overseen by the fiduciary.
    VA opposes these provisions because they would burden fiduciaries, 
most of whom are volunteer family members or friends, but would not 
significantly improve VA's oversight of fiduciaries. Under current 
policy, which is based upon VA's experience in administering the 
program, VA generally requires fiduciaries to submit an annual 
accounting in cases in which: (1) the beneficiary's annual VA benefit 
amount equals or exceeds the compensation payable to a single Veteran 
with service-connected disability rated totally disabling; (2) the 
beneficiary's accumulated VA funds under management by the fiduciary 
equals $10,000 or more; (3) the fiduciary was appointed by a court; or 
(4) the fiduciary receives a fee. These accountings are comprehensive 
and must be supported by financial documentation that identifies all 
transactions during the accounting period. VA audits more than 30,000 
accountings each year.
    VA currently pays benefits to more than 17,000 spouse fiduciaries, 
many of whom are also caring for severely disabled or infirm Veterans. 
Countless other beneficiaries receive only $90 each month and reside in 
the protected environment of a Medicaid-approved nursing home. Many 
other beneficiaries are cared for by family members who, due to the 
beneficiaries' recurring needs, expend all available VA benefits each 
month for the beneficiaries' care. The additional burden of documenting 
income and expenditure annually for the majority of our beneficiaries 
would be an undue hardship and would not result in any benefit to the 
beneficiary or the program. VA does not otherwise oppose the 
provisions, which restate current law or codify current VA policy 
regarding the information that must be included in an accounting.
    VA opposes the provision that would require VA to conduct annual, 
random audits of paid fiduciaries. Under current policy, VA requires 
all paid fiduciaries to submit annual accountings. VA audits every 
accounting that it receives. This provision would add to VA's 
administrative burden by also requiring a random, annual audit of each 
paid fiduciary. VA already has authority to conduct any additional 
oversight it deems necessary based upon a case-by-case determination. 
Experience administering the program has not identified a need to 
randomly audit paid fiduciaries.
    VA opposes the provision which would require VA to ensure that the 
bill's requirements do not interfere with the care provided to a 
beneficiary by a VA fiduciary who is also the beneficiary's care-giver. 
This provision is vague with regard to the definition of ``care'' and 
other matters. It would require VA personnel to conduct additional 
burdensome oversight to somehow determine whether fiduciary 
requirements affect care. It is unclear how VA would implement this 
provision.
    As it is unclear how this bill would be implemented, VA cannot 
estimate the cost associated with enactment of H.R. 894.
                               H.R. 1405
    H.R. 1405 would require VA to provide, with notice of each decision 
on a claim for benefits, a form that may be used to appeal the 
decision. VA supports this bill as it would improve the timeliness and 
quality of processing notices of disagreement (NODs), which initiate 
the VA appellate process.
    Currently, VA accepts as an NOD any ``written communication from a 
claimant or his or her representative expressing dissatisfaction or 
disagreement with an adjudicative determination by the agency of 
original jurisdiction [(AOJ)] and a desire to contest the result.'' If 
an AOJ receives a timely filed written communication expressing 
disagreement, but cannot clearly identify that communication as 
expressing an intent to appeal, or cannot identify which claims the 
claimant wants to appeal, then the AOJ will contact the claimant orally 
or in writing to request clarification of his or her intent. If the 
claimant is contacted in writing, then he or she must respond to the 
clarification request within the later of 60 days from the date of the 
contact or the remainder of the one year period from the date of 
mailing of the notice of the AOJ decision. This clarification process 
can consume substantial time.
    Providing claimants with a standardized appeal form would reduce 
the time it takes an AOJ to recognize or clarify the nature of a 
claimant's response to an AOJ decision. In addition, it would simplify 
the VA appellate process for claimants. Also, an appeal form would 
reduce errors in identifying NODs that can delay resolution of claims. 
For example, in Fiscal Year 2011, the Board of Veterans' Appeals 
(Board) remanded 1,554 issues to AOJs because the Board identified 
timely filed NODs for which the AOJs had not issued a statement of the 
case.
    Providing claimants with a form on which to submit their initial 
disagreement with an AOJ decision would clarify what action claimants 
must take to initiate an appeal of an AOJ decision. This in turn would 
improve VA's ability to identify NODs when they are received and would 
eliminate the need to contact a claimant to clarify whether he or she 
intended to initiate an appeal and, if so, of exactly which decisions. 
This would help speed up the early steps of the appellate process.
    VA estimates that enactment of H.R. 1405 would not result in 
significant benefit or administrative costs.
    This concludes my statement, Mr. Chairman. I would be happy to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                 <F-dash>
                       Statements For The Record

                            AMERICAN LEGION
    Chairman Runyan, Ranking Member Titus and distinguished Members of 
the Subcommittee, on behalf of Commander Koutz and the 2.4 million 
members of The American Legion, we thank you and your colleagues for 
the work you do in support of our service members and veterans as well 
as their families. The hard work of this Subcommittee in creating 
significant legislation has left a positive impact on our military and 
veterans' community.
    Nationwide, The American Legion has over 2,600 accredited service 
officers to ensure veterans receive the benefits to which they are 
entitled at no cost to those veterans. Not only do we advocate for the 
2.4 million members in our organization but also the millions of 
veterans who do not hold membership; in short, we live by the motto ``a 
veteran is a veteran'' and is deserving of representation when seeking 
VA benefits. We recognize the necessity to adequately compensate 
veterans and veterans' families for disabilities incurred during 
service to our nation.
    As a grassroots organization, The American Legion draws upon the 
strength of its membership to provide guidance on policies in the form 
of resolutions passed in national assembly during annual national 
convention or at meetings of the National Executive Committee. The will 
of the membership of the Legion is expressed through these resolutions, 
which support or oppose policy decisions on topics of concern, whether 
for veterans, the children and youth of America, the strong national 
defense or the principles of Americanism. The support and positions of 
The American Legion on any legislation naturally derives from the 
guidance of these resolutions and the founding documents of our 
organization.
 H.R. 569: Veterans' Compensation Cost-of-Living Adjustment Act of 2013
                   H.R. 570: American Heroes COLA Act
    H.R. 569: To increase, effective as of December 1, 2013, the rates 
of compensation for veterans with service-connected disabilities and 
the rates of dependency and indemnity compensation for the survivors of 
certain disabled veterans, and for other purposes.
    H.R. 570: To amend title 38, United States Code, to provide for 
annual cost-of-living adjustments to be made automatically by law each 
year in the rates of disability compensation for veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation for survivors of certain service-connected disabled 
veterans.
    The American Legion strongly supports a periodic cost-of-living 
adjustment (COLA) for veterans reflective of increased expenses due to 
inflation and other factors. However, there are many factors currently 
being considered regarding the calculation of COLA that merit 
discussion.
    Within The American Legion's Code of Procedures, accredited 
representatives are advised under no circumstances should they cause 
harm to veterans' claims for benefits. Current proposals in the 
President's proposed budget, as well as in amendments to other bills 
that have been floated from time to time, would replace the current 
Consumer Price Index (CPI) used to calculate increases to Social 
Security COLA with a so-called Chained CPI (C-CPI). Through chaining VA 
benefits to the new C-CPI and COLA for Social Security benefits, the 
veteran community would indeed be harmed. On December 19, 2012, Dean 
Stoline, Deputy Director, The American Legion Legislative Division, 
stated that a chained CPI is misguided policy and ``would have 
significant deleterious effect on the benefits of millions of 
veterans''.
    Senator Bernie Sanders (VT) has provided evidence that displays the 
long term negative effect upon the veteran community should Congress 
mandate a C-CPI approach to determining COLA increases. According to a 
press release from Sen. Sanders' office, the proposal would cut VA 
disability benefits for a 30-year-old veteran by more than $13,000 a 
year by age 45, $1,800 a year by age 55, and $2,260 a year by age 65. 
Senior citizens who retire by age 65 would see their Social Security 
benefits reduced by about $650 a year by the time they reach 75, and 
more than $1,000 a year when they turn 85. These cuts would certainly 
place many veterans and their families' economic security in peril.
    By resolution \1\ ``The American Legion support[s] legislation to 
amend title 38, United States Code, section 1114, to provide a periodic 
COLA increase and to increase the monthly rates of disability 
compensation; and . . . oppose[s] any legislative effort to 
automatically index such [COLA] adjustments to the [COLA] adjustment 
for Social Security recipients, non-service connected disability 
recipients and death pension beneficiaries.'' The opposition to direct 
connection to the Social Security policies reflects the understanding 
that veterans and specifically disabled veterans represent a unique 
subsection of the American community, and their unique concerns should 
receive individual consideration when determining the need for periodic 
increases for cost of living.
---------------------------------------------------------------------------
    \1\ Resolution No. 178: Department of Veterans Affairs (VA) 
Disability Compensation, AUG 2012
---------------------------------------------------------------------------
    We do not support either bill. In fact, we encourage Congress to 
separate VA benefits from Social Security benefits altogether regarding 
COLA adjustments. The long-term negative effects created through 
permitting C-CPI for VA benefits could prove disastrous to millions of 
veterans.
    The American Legion supports an increased Cost-of-Living Adjustment 
for veterans, but is unable to support these bills at this time until 
they reflect assurances that veterans' needs will be adequately 
reflected and not subject to whims of overzealous cost cutting 
measures.
            H.R. 602: Veterans 2nd Amendment Protection Act
    H.R. 602: To amend title 38, United States Code, to clarify the 
conditions under which certain persons may be treated as adjudicated 
mentally incompetent for certain purposes.
    It is both sad and ironic that the veterans' community, a community 
in which each and every member swore to uphold the Constitution of the 
United States to include the 2nd Amendment, requires advocacy to 
maintain its constitutional right to bear arms. Unless deemed unfit to 
possess weapons by a judicial authority with the full benefit of due 
process, each veteran regardless of disability should maintain the 
right to possess a firearm. Any constitutional right should engender 
this same expectation of careful scrutiny to ensure no right is removed 
without due process.
    On December 2, 2012, NBC News published an article regarding 
veteran hunting trips as a form of therapy for combat hardened veterans 
\2\. Throughout the nation, numerous organizations organize hunting 
trips for veterans. Even the Department of Veterans Affairs (VA) 
acknowledges the positive effects of shooting firearms for some 
veterans. Jose Llamas, community and public affairs officer for VA's 
National Veterans Sports Program, stated that hunting is included in a 
veteran's health-life plan. At various adaptive sports summits 
throughout the nation, veterans can enjoy target shooting. 
Additionally, a recent $25,000 grant was made to the Grand Junction, 
Colorado, VA Medical Center, to purchase the necessary equipment for 
veterans to hunt.
---------------------------------------------------------------------------
    \2\ http://usnews.nbcnews.com/--news/2012/12/02/15575983-florida-
guide-uses-hunting-as-rustic-therapy-for-combat-veterans?lite.
---------------------------------------------------------------------------
    Furthermore, there are concerns that the threat of being placed on 
a list that might deny them of their 2nd Amendment rights could act as 
a deterrent for veterans who might otherwise seek treatment. When the 
positive effects of therapy for conditions such as Posttraumatic Stress 
Disorder (PTSD) are so important, driving veterans away for fear of 
repercussions such as confiscation of firearms could only exacerbate 
existing stigmas.
    During the 94th National Convention of The American Legion, 
Resolution 68 was passed. According to the resolution, ``The American 
Legion reaffirms its recognition that the Second Amendment to the 
Constitution of the United States guarantees each law-abiding American 
citizen the right to keep and bear arms; and, be it finally resolved, 
that the membership of The American Legion urges our nation's lawmakers 
to recognize, as part of their oaths of office, that the Second 
Amendment guarantees law-abiding citizens the right to keep and bear 
arms of their choice, as do the millions of American veterans who have 
fought, and continue to fight, to preserve those rights, hereby advise 
the Congress of the United States and the Executive Department to cease 
and desist any and all efforts to restrict these right by any 
legislation or order.''
The American Legion supports this bill.
                  H.R. 671: ``Ruth Moore Act of 2013''
    H.R. 671: To amend title 28, United States Code, to improve the 
disability compensation evaluation procedure of the Secretary of 
Veterans Affairs for veterans with mental health conditions related to 
military sexual trauma, and for other purposes.
    The American Legion's accredited representatives located in VA 
Regional Offices, state and county offices, and the Board of Veterans' 
Appeals have acknowledged a unique situation exists for victims of 
military sexual trauma (MST). MST is often an unreported crime, or even 
in the best cases poorly documented. Even when MST is reported, it is 
not uncommon for a lackluster investigation to occur and the 
perpetrator of the crime to be brought to justice.
    On March 26, 2013, the Institute of Medicine (IOM) released a 
study: Returning Home from Iraq and Afghanistan: Assessment of 
Readjustment Needs of Veterans, Service Members, and Their Families. 
According to the study, ``[M]ilitary sexual trauma has been occurring 
in high rates throughout the U.S. armed forces, including the Iraq and 
Afghanistan theaters. Sexual harassment and assaults disproportionately 
affect women; they have both mental and physical ramifications, and in 
many cases these victims have a difficult time readjusting.'' It is 
evident by the study that a staggering number of veterans reported 
suffering MST; over 48,000 women and 43,000 men reported experiencing 
MST.
    H.R. 671 addresses the concerns raised repeatedly by The American 
Legion regarding MST. In testimony provided by The American Legion 
before this subcommittee on July 18, 2012, Lori Perkio, Assistant 
Director, The American Legion Veterans Affairs and Rehabilitation 
Division, pointed to changes regarding combat zones made by VA 
regarding posttraumatic stress disorder in 2010 and asserted that equal 
treatment should be applied to MST victims. Both combat zones and MST 
related claims are similar in that both types of claims reflect 
situations where there is a known and acknowledged lack of record 
keeping. Regulations have allowed for extra latitude on behalf of 
combat veterans to reflect the lack of record keeping, but the same 
consideration is not extended to rape and assault survivors, though 
their trauma is no less devastating.
    The American Legion believes that VA should review ``military 
personnel files in all MST claims and apply reduced criteria to MST-
related PTSD to match that of combat-related PTSD \3\.'' H.R. 671 
adequately addresses this resolution by setting up similar criteria for 
MST victims as those in effect for combat victims.
---------------------------------------------------------------------------
    \3\ Resolution No. 295: Military Sexual Trauma (MST), AUG 2012.
---------------------------------------------------------------------------
The American Legion supports this bill.
        H.R. 679: ``Honor America's Guard-Reserve Retirees Act''
    H.R. 679: To amend title 38, United States Code to recognize the 
service in the reserve components of certain persons by honoring them 
with status as veterans under law.
    This legislation would provide a purely honorific title of veteran 
for those individuals who completed appropriate service in the National 
Guard and Reserve components of the Armed Forces, but for whatever 
reason do not have active duty service sufficient to bestow a title of 
veteran subject to the conditions provided for under the normal titles 
of the United States Code which assign veteran status for the purposes 
of benefits. This bill would not provide any benefit beyond the title 
of `veteran' and is stated to be intended purely as a point of honor.
The American Legion has no position on this legislation.
        H.R. 733: ``Access to Veterans Benefit Improvement Act''
    H.R. 733: To amend title 38, United States Code, to provide certain 
employees of Members of Congress and certain employees of State or 
local governmental agencies with access to case-tracking information of 
the Department of Veterans Affairs.
    This legislation would entitle governmental employees in Congress 
as well as state and local governments to access case tracking 
information through the VA claims process.
The American Legion has no position on this legislation.
           H.R. 894: Improvement of Fiduciaries for Veterans
    H.R. 894: To amend title 38, United States Code, to improve the 
supervision of fiduciaries of veterans under the laws administered by 
the Secretary of Veterans Affairs.
    Attention to the VA Fiduciary program came before congressional 
subcommittees in 2010 and again in 2012. Veterans who have been deemed 
as mentally incompetent by VA standards deserve every effort to protect 
them from any possible injustice.
    Ensuring background checks are completed on all fiduciaries as well 
as providing the veterans their choice of family member before any 
other fiduciary is appointed should never be optional and must be 
completed in an expedited manner. Requiring the VA to create a database 
of all appointed fiduciaries would reduce the time to appoint needed 
fiduciaries and not over burden those already being utilized with more 
beneficiaries than is appropriate. The beneficiary needs to be able to 
utilize their VA monetary benefits beyond the payment of daily living 
expenses. When large amounts of monetary `` savings'' are created by 
the fiduciary that were in some cases turned back over to the VA after 
the death of the beneficiary needs to be provided to the surviving 
family members of the beneficiary as it is with all other VA monetary 
benefits. Veterans who have been deemed incompetent by VA deserve the 
same respect and quality of life as those who have not been deemed 
incompetent.
    The VA created fiduciary ``hubs'' to streamline and better utilize 
their resources. The emphasis now needs to be focused on serving and 
protecting the same veterans who selflessly served their country. The 
myriad provisions of this bill serve to strengthen protections for 
veterans and their families, and address many of the concerns which 
have been raised by this committee and concerned veterans groups over 
the course of the past several years through hearings addressing the 
topic. As those veterans deemed to need a fiduciary are often among the 
most vulnerable veterans, special care must be taken to ensure any 
legislation on their behalf is fully protective of the veteran first. 
The American Legion is willing to work with the committee to ensure the 
technical language of this bill is consistent with the veteran first 
protective mindset.
The American Legion supports this legislation.
                               H.R. 1405
    H.R. 1405: To amend title 38, United States Code, to require the 
Secretary of Veterans Affairs to include an appeals form in any notice 
of decision issued for the denial of a benefit sought.
    The American Legion understands that H.R. 1405 will require the 
Secretary of VA to provide an appeals form with any notice of decision 
denying the veteran benefits. The bill fails to consider if the same 
letter would be mailed to a veteran where a full granting of the 
benefit does not occur. A veteran could be granted a 30 percent 
disability rating; however, after review of the veteran's case, it 
could be argued that a 70 percent disability rating is warranted. 
Through VA's failure to include this letter, the veteran may not 
realize the existence of appellate review for the claim.
    The American Legion believes in protecting the appellate rights of 
veterans, and ensuring the process gives clear and understandable 
information to help them make proper decisions about when they should 
appeal the decisions rendered regarding their claims. Although The 
American Legion does not currently have a resolution to address this 
issue, we do welcome the opportunity to work with Congress regarding 
this bill to further investigate the process and ensure the appellate 
rights of veterans are being served in the most beneficial manner 
possible. We encourage the Committee to consider all veterans' 
appellate rights with regard to this bill.
The American Legion has no position on this legislation.
    For any questions regarding this testimony please contact Ian de 
Planque, Deputy Legislative Director of The American Legion at (202) 
863-2700 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b8b5b4a1bdb0bfa0a4b491bdb4b6b8bebfffbea3b6ff">[email&#160;protected]</a>

                                 <F-dash>
                IRAQ AND AFGHANISTAN VETERANS OF AMERICA


----------------------------------------------------------------------------------------------------------------
       Bill #                             Bill Name                           Sponsor              Position
----------------------------------------------------------------------------------------------------------------
          H.R. 569                   Veterans' Compensation Cost of Living adjustmenRunyan              Support
                                                         Act of 2013
----------------------------------------------------------------------------------------------------------------
           H.R 570                                American Heroes COLA Act          Runyan              Support
----------------------------------------------------------------------------------------------------------------
          H.R. 602             Veterans 2nd Amendment Protection Act                Miller              Support
----------------------------------------------------------------------------------------------------------------
          H.R. 671                            Ruth Moore Act of 2013               Pingree              Support
----------------------------------------------------------------------------------------------------------------
          H.R. 679        Honor America's Guard-Reserve Retirees Act                  Walz              Support
----------------------------------------------------------------------------------------------------------------
          H.R. 733       Access to Veterans Benefits Improvement Act                Runyan              Support
----------------------------------------------------------------------------------------------------------------
          H.R. 894    ..to improve the supervision of fiduciaries of               Johnson              Support
                         veterans under the laws administered by the
                                       Secretary of Veterans Affairs
----------------------------------------------------------------------------------------------------------------
         H.R. 1405        . . . to require the Secretary of Veterans                 Titus              Support
                      Affairs to include an appeals form in any notice
                      of decision issued for the denial of a benefit
                                                             sought.
----------------------------------------------------------------------------------------------------------------

    Chairman Runyan, Ranking Member Titus and distinguished members of 
the subcommittee, on behalf of Iraq and Afghanistan Veterans of America 
(IAVA) I would like to extend our gratitude for being given the 
opportunity to share with you our views and recommendations regarding 
H.R. 569, H.R. 570, H.R. 602, H.R. 671, H.R. 679, H.R. 733, H.R. 894 
and H.R. 1405.
    IAVA is the nation's first and largest nonprofit, nonpartisan 
organization for veterans of the wars in Iraq and Afghanistan and their 
supporters. Founded in 2004, our mission is critically important but 
simple - to improve the lives of Iraq and Afghanistan veterans and 
their families. With a steadily growing base of over 200,000 members 
and supporters, we strive to help create a society that honors and 
supports veterans of all generations.
H.R. 569
    IAVA is pleased to offer our support for H.R. 569, the ``Veterans' 
Compensation Cost of Living Adjustment Act of 2013.'' This bill will 
give qualified disabled veterans and their dependents annual Cost of 
Living Adjustments (COLA) starting in December 2013. Tough economic 
times have placed a heavy burden on our wounded veterans and the 
limited resources they are afforded. As the cost of living increases, 
wounded veterans are forced to make difficult financial decisions with 
resources that may be insufficient to address economic realities 
particular to their needs. In order to receive an increase in benefits, 
veterans must rely on legislation authorizing an increase in annual 
COLA. HR 569 increases the rates for qualified disabled veterans and 
their dependents starting in December 2013. This legislation will help 
protect the financial stability of our disabled veterans and their 
families. H.R. 569 helps to ensure that the deserved benefits earned by 
our veterans remain protected.
H.R. 570
    IAVA supports H.R. 570, the ``American Heroes COLA Act,'' which 
will make veterans' Cost of Living Adjustments (COLA) permanent, 
similar to Social Security benefits. Cost of Living Adjustments in 
veterans' benefits, like Social Security benefits, are based on the 
Consumer Price Index-Urban Wage Earners and Clerical Workers (CPIW). 
However, unlike Social Security benefit increases, veterans' benefit 
increases rely on Congress to pass legislation authorizing an increase 
each year. Financial planning by our veterans requires them to take 
into account COLA rates that may or may not increase. H.R. 570 
authorizes the Secretary of Veterans Affairs (VA) to automatically 
increase COLA benefits annually based upon the CPIW rate. This 
legislation will help protect the financial stability of our disabled 
veterans and their families, as well as eliminating an extra redundant 
step in the annual COLA process.
H.R.602
    IAVA supports H.R. 602, the ``Veterans 2nd Amendment Protection 
Act.'' Inaccurate information on mental health and gun ownership rights 
feeds the false rhetoric and misinformation of veterans and mental 
health, thus adding to the stigmas attached to seeking mental health 
care. IAVA believes this bill will help reduce the stigma surrounding 
PTSD by creating a fair appeals process for veterans who may have been 
wrongly or automatically categorized as unfit to own or purchase 
firearms. IAVA strongly supports this bill.
H.R. 671
    IAVA supports H.R. 671, the ``Ruth Moore Act of 2013.'' This bill 
will improve the VA claims disability process for victims of military 
sexual assault who suffer from Post Traumatic Stress Disorder (PTSD) 
and other mental health conditions. Current VBA policy requires a 
diagnosis of PTSD, medical link to diagnosis, and evidence verifying 
the occurrence of sexual assault in order to receive a service 
connected disability rating for Military Sexual Trauma (MST). 
Furthermore, vast inconsistencies remain among VA offices when 
considering secondary evidence. Under H.R. 671 a veteran will be 
granted service connection for PTSD if the veteran states he or she was 
sexually assaulted in the military, is diagnosed with PTSD or related 
mental health condition and has a medical nexus between the two. This 
will give MST victims who suffer from PTSD the same standard of proof 
that other veterans with PTSD have. IAVA supports this important piece 
of legislation.
H.R. 679
    IAVA supports H.R. 679, the ``Honor America's Guard-Reserve 
Retirees Act.'' Any man or women who chooses to enlist and serve their 
country deserves, at minimum, to be called a veteran. If a veteran 
devotes years of their life to being ready to serve at a moment's 
notice is admirable and selfless. These men and women served honorably 
and should not be penalized simply because their country did not call 
upon them to actively serve.
H.R. 733
    IAVA supports H.R. 733, the ``Access to Veterans Benefits 
Improvement Act.'' This bill is another step in the right direction to 
ending the VA claims backlog. This bill provides certain employees of 
members of Congress and certain employees of state or local 
governmental agencies access to VA case-tracking information, while 
still protecting veteran's privacy. This bill will help provide 
stricter oversight on the actions of VA and the steps that they are 
taking to eliminate the claims backlog.
H.R. 894
    IAVA supports H.R. 894, to amend title 38, United States Code, to 
improve the supervision of fiduciaries of veterans under the laws 
administered by the Secretary of Veterans Affairs. A fiduciary is a 
person appointed by VA to determine what is in the best interest of a 
veteran. However, in recent years there have been numerous problems 
identified within this program. The VSO community, including IAVA, has 
voiced concerns that many fiduciaries have moved away from the original 
intent of the program (protecting the best financial interest of 
disabled veterans) to more of an investment banking style and not 
veteran-centric at all. This is not, nor will it ever be in the best 
interest of a veteran. We believe this legislation is a step in the 
right direction in addressing many current problems. This bill will add 
transparency, redesign the fiduciary commission model and help protect 
the best interest of the veterans using this program. Again, while IAVA 
supports this bill we caution that there is still much to be done in 
correcting the fiduciary program and sincerely hope this committee will 
continue to correct these issues through additional pieces of good 
legislation, like HR 894.
H.R. 894
    Finally, IAVA strongly supports H.R. 1405, to amend title 38, 
United States Code, to require the Secretary of Veterans Affairs to 
include an appeals form in any notice of decision issued for the denial 
of a benefit sought. Currently, when veterans receive a rating decision 
and they wish to appeal it, they must request an appeals form from the 
VA and then wait for the VA to send them the form. This unnecessary and 
burdensome process typically takes 60 days. HR 1405 is expected to 
reduce the need for the VA to mail more than 100,000 unnecessary 
letters annually to veterans appealing their decision and will save the 
VA approximately 50,000 man hours. The VA is working to reduce the 
disability claims backlog, and this legislation provides an opportunity 
for Congress to assist. By passing this bill, Congress will instantly 
reduce the appeals process for veterans by 60 days. A similar provision 
was passed with bipartisan support by the House Veterans Affairs 
Subcommittee on Disability Assistance and Memorial Affairs during the 
112th Congress.
    We again appreciate the opportunity to offer our views on these 
important pieces of legislation, and we look forward to continuing to 
work with each of you, your staff, and this subcommittee to improve the 
lives of veterans and their families. Thank you for your time and 
attention.

                                 <F-dash>
              NATIONAL ORGANIZATION OF VETERANS' ADVOCATES
    The National Organization of Veterans' Advocates, Inc. (NOVA) 
thanks Committee Chairman Runyan and Ranking Member Titus for the 
opportunity to testify on H.R. 671, to amend title 38, United States 
Code, to improve the disability compensation evaluation procedure of 
the Secretary of Veterans Affairs for veterans with mental health 
conditions related to military sexual trauma (MST), and for other 
purposes. NOVA is honored to share our views on H.R. 671, cited as the 
Ruth Moore Act of 2013, for this hearing.
    NOVA is a not for profit 501(c)(6) educational membership 
organization incorporated in the District of Columbia in 1993. NOVA 
represents nearly 500 attorneys and agents assisting tens of thousands 
of our nation's military Veterans, their widows, and their families 
obtain benefits from VA. NOVA members represent Veterans before all 
levels of VA's disability claim process. This includes the Veterans 
Benefits Administration (VBA), the Board of Veterans' Appeals (BVA or 
Board), the U.S. Court of Appeals for Veterans Claims (Veterans Court 
or CAVC), and the U.S. Court of Appeals for the Federal Circuit 
(Federal Circuit). In 2000, the CAVC recognized NOVA's work on behalf 
of Veterans when the CAVC awarded the Hart T. Mankin Distinguished 
Service Award.
1.Necessity of the legislation
    Post-traumatic stress disorder (PTSD) cases have posed significant 
problems for the Department of Veterans Affairs (VA) because this 
disability, by its nature, often has a delayed onset. Consequently, the 
precipitating events are often unrecorded in a service member's medical 
records or in-service department records. This is particularly true for 
incidents of sexual assault while on active duty. In 2011, the Pentagon 
estimated that about 19,000 male and female service members were 
sexually assaulted, yet less than 14 percent of these crimes were 
reported.
    As with any assault case, the victims of in-service personal 
assaults are afraid to report the crime. This fear is especially likely 
when the assailant is a superior: the person to whom the victim is 
instructed to report in these situations. Reporting an assault while on 
active duty, however, is problematic for many reasons, even when the 
assailant is not the victim's superior. The nature of military service 
discourages reporting both implicitly as well as explicitly. Even when 
the service member does make a report of the assault, these reports are 
rarely documented or associated with the veteran's service records.
    The number of veterans who have experienced an in-service personal 
assault is high. Among the veterans who use VA health care, over 20 
percent of female veterans report being sexually assaulted while in 
service. See http://www.ptsd.va.gov/public/pages/how-common-is-
ptsd.asp. Additionally, over 50 percent of female veterans and over 35 
percent of male veterans report experiencing sexual harassment in the 
military. Id.
Effectiveness of Current Regulation
    The current PTSD regulation, as it pertains to in-service personal 
assault cases, is not effective. 38 C.F.R. 3.303(f) (5) purports to 
reduce the burden for these veterans to prove their claims. In 
practice, this has not happened. From 2008 to 2010, VA approved over 50 
percent of PTSD claims related to combat, but approved barely 35 
percent of PTSD claims related to in-service personal assault. 
Ironically, VA concluded that it had made it too difficult for combat 
veterans to prove that their PTSD was related to service and, as a 
result, reduced the burden on them to show that their PTSD should be 
service connected. Unfortunately, VA has not attempted to help in-
service personal assault victims in a similar manner, even though the 
approvals for in-service personal assault are significantly lower than 
those for combat veterans.
    Recently, two significant changes have occurred: first, the 
acceptance of a resulting psychiatric disability from trauma; second, 
the adoption of VA regulations which impose an often insurmountable 
burden on the victims of sexual assault. The taboo and misgivings that 
accompanied PTSD and other mental disabilities that result from trauma 
have disappeared. Turning to the burden created by VA regulation, the 
proposed amendment to 38 U.S.C. Sec.  1154 removes that impediment. 
Victims of sexual assault should not have the burden of corroborating 
their in-service sexual assaults. Proving that these events occurred is 
not merely painful, it is often impossible. The proposed amendment 
correctly makes the determination of entitlement to service-connected 
compensation for the resulting disability from the in-service trauma a 
medical question, not a factual one. This legislation further makes the 
appropriate public policy determination that victims of sexual assault 
should be entitled to compensation when a competent mental health 
professional confirms the existence of a current disability from PTSD. 
The legislation also confirms the relationship of that disability to 
the reported in-service sexual assault. Importantly, this legislation 
relieves the victims of sexual assault from being victimized further by 
an adjudication process which implicitly questions the veracity of the 
reported in-service assault.
2.Alleviating the VA's backlog
    Processing in-service personal assault claims is a slow and time-
consuming process. These claims require VA to make extra efforts to 
contact the veteran and fulfill the VA's duty to assist. Before one of 
these claims can be decided, VA has to contact the veteran multiple 
times to make sure that the veteran understands the special rules that 
apply to these claims and the different types of evidence that the 
veteran can supply. Furthermore, the adjudicator must request and 
attempt to obtain not just the veteran's service medical records, but 
also the veteran's full service record jacket. This can require 
multiple requests to the National Personnel Records Center. Still, 65 
percent of these claims are denied.
    Ruth Moore's case is the quintessence of how these claims drag on 
and slow down the system. Moore had to fight VA for 23 years over her 
benefits -23 years of claims that did not go anywhere. All the while, 
she was suffering from depression and a sexually transmitted disease 
that she contracted from her attacker. Moore even had the benefit of 
the relaxed requirements of 38 C.F.R. 3.304(f) (5), yet it was not 
until 2009 that VA finally awarded her claim.
    With the proposed legislation, these cases would be streamlined. 
The fulcrum would shift from wasting time and effort to navigate a 
paper chase to obtaining a medical opinion to determine whether the 
veteran's disabilities are related to military sexual trauma (MST). At 
a time when the VA's resources are scarce, this legislation would 
alleviate some of the backlog.
Conclusion
    The vast majority of sexual assaults in the military are not 
reported, and even those that are reported are often not prosecuted. As 
a result, many survivors of MST have found it hard to prove that an 
assault--the stressor--occurred. Furthermore, current VA policy allows 
so-called ``secondary markers'' to be considered as evidence of an 
assault, although VA has been very inconsistent in applying that 
policy. Secondary markers can include evidence from rape kits, 
statements from family members citing a change in behavior since 
military service, and drug and alcohol abuse. In 2010, VA policy for 
combat veterans applying for disability payments was changed in a 
similar fashion, allowing lay testimony as evidence that a trauma such 
as exposure to a roadside bomb or mortar attack had occurred.
    H.R. 671 would allow as sufficient proof of service-connection a 
diagnosis of a mental health condition by a mental health professional 
together with satisfactory lay or other evidence of MST and an opinion 
by the mental health professional that the covered mental health 
condition and the MST are indeed related. By allowing the veteran's lay 
testimony alone to establish the occurrence of the claimed MST, this 
Act brings affected veterans one step closer to receiving the benefits 
they deserve for a covered mental health condition incurred or 
aggravated by military sexual assault. By further resolving every 
reasonable doubt in favor of the Veteran, H.R. 671 effectively serves 
to eliminate further victimization of those who have already suffered 
enough.
    As always, NOVA stands ready to assist the Committee or VA in 
whatever way possible to further eliminate the systemic issues that 
negatively affect the lives of our Veterans and their families.
    We thank you for this opportunity to provide our testimony.

                                 <F-dash>
                        WOUNDED WARRIOR PROJECT
    Chairman Runyon, Ranking Member Titus, and Members of the 
Subcommittee:
    Wounded Warrior Project (WWP) welcomes the opportunity to share 
views on two of the bills before the Subcommittee today, H.R. 894, the 
Veterans Fiduciary Reform Act of 2013, and H.R. 602, the Ruth Moore Act 
of 2013. Each raises issues of concern that we have addressed in our 
Policy Agenda this year.
                    Caregiver-Fiduciaries: H.R. 894
    WWP works closely with family members of severely wounded warriors 
who are both full-time caregivers and fiduciaries for those warriors. 
Almost three years ago, recognizing the sacrifices these family members 
have made to care for their loved ones as well as the emotional and 
financial toll associated with sustained caregiving, Congress 
established the Comprehensive Caregiver-Assistance Program in Public 
Law 111-163 to provide them needed supports. The Veterans Benefits 
Administration (VBA), however, fails--in administering the fiduciary 
program--to recognize the extensive and regularly-ongoing oversight the 
Veterans Health Administration (VHA) mounts in determining initial and 
continuing eligibility for caregiver-assistance services. As a result, 
while the Caregiver-Assistance law was aimed at lightening the family 
caregiver's burden, the additional, ongoing VBA scrutiny makes the 
caregiver-fiduciary's situation even more stressful.
    For example, WWP has seen all too clearly that VBA's intensely 
detailed reporting requirements can be overwhelming to an already 
emotionally drained family member who is shouldering a young veteran's 
total-care needs and yet is left to feel that VA deems her suspect and 
distrusted. As one mother described it, ``we are probed yearly by a 
forensic accounting that seemingly investigates for `murderous' 
infractions,'' even requiring fiduciaries to ``line-item Walmart 
receipts.''
    As an organization dedicated to the well-being of wounded warriors, 
we appreciate the importance of assuring responsible stewardship of 
veterans' benefits and the protection of vulnerable beneficiaries and 
welcome the focus in H.R. 894 on adding safeguards to strengthen the 
program. But it is important to appreciate the unique circumstance of 
family members who have given up careers and depleted savings to care 
for their loved ones. These individuals are not unknown to VA. In fact, 
to qualify and win formal approval for support under the Caregiver-
Assistance program, the family member of a seriously wounded warrior 
must undergo VA review, training, home-inspection, and a determination 
that the proposed arrangement is in the veteran's best interest. The 
caregiver must also undergo regular quarterly home-inspections and 
monitoring of the veteran's well-being to continue to receive VA 
assistance. Any ``red flags'' that might arise in the course of these 
home-inspections can result in revocation of approved caregiver-status. 
In short, Veterans Health Administration staff assist and work closely 
with family caregivers - who in many instances are also fiduciaries and 
who have not only been screened before qualifying for the program, but 
whose care of the veteran is closely monitored. Surely that process and 
ongoing oversight provide ample evidence that these individuals are 
trustworthy, and do not pose a risk of misusing the veteran's benefits.
    WWP applauds the effort in H.R. 894 to tighten the fiduciary 
program, and we are not proposing that caregiver-fiduciaries have no 
accountability for management of the beneficiary's funds. But we do see 
a need to make provision in law for more balanced accountability and 
far less intrusive oversight under circumstances where caregiver-
fiduciaries have demonstrated that they do not pose significant risk 
and have earned VA's trust. Dedicated caregiving, as evidenced through 
unblemished participation in VA's comprehensive caregiver assistance 
program, should be recognized as establishing that trust.
    In that regard, we appreciate that H.R. 894 includes language 
relating to caregiver-fiduciaries. \1\ Unfortunately, that language--
directing the Secretary to ensure that care provided by a fiduciary is 
not worsened by the fiduciary complying with bill's reporting 
requirements--falls short of resolving the underlying problem. First, 
the provision relates only to reporting, and not audits and other 
oversight. But even at that, these self-sacrificing loved ones will not 
allow the veteran's care to diminish under any circumstances; as such a 
``do-no-harm-to-care'' provision fails to provide real protection. In 
our view, where VHA has already screened and approved a family member 
as a caregiver, and has carried out home visits that demonstrate that 
care is being well maintained, a level of trustworthiness has surely 
been established. Under those circumstances, that - at a minimum - 
should warrant much less detailed and more ``user-friendly'' reporting, 
and more balanced, much less intrusive oversight. Unfortunately, the 
bill does not yet achieve that. At the same time, its reporting 
requirements are actually more demanding than under current law - 
requiring annual reporting in place of the discretion afforded under 
existing law - and expanding the scope of such reporting to include an 
accounting of benefits and income from sources other than VA. 
Consistent with the bill's recognition that caregiver-fiduciaries merit 
special consideration, we ask that the Subcommittee refine the language 
to more effectively accommodate family caregivers. We would be happy to 
work with the Subcommittee to develop language to address these 
concerns.
---------------------------------------------------------------------------
    \1\ As amended, section 5509(f) of title 38, U.S. Code would 
provide that ``In prescribing regulations to carry out this section 
[relating to reporting requirements], the Secretary, in consultation 
with the Under Secretary for Benefits and the Under Secretary for 
Health, shall ensure that the care provided by a fiduciary . . . [who 
also provides care to the beneficiary pursuant to this title (including 
such care provided under section 1720G of this title] is not diminished 
or otherwise worsened by the fiduciary complying with this section.''
---------------------------------------------------------------------------
                                H.R. 671
    H.R. 671, the Ruth Moore Act, highlights another important issue, 
military sexual assaults. As the Department of Defense has stated 
unequivocably, military sexual assault is a crime that may forever 
change the live of its victims. \2\ Yet it is also a significantly 
underreported crime. \3\
---------------------------------------------------------------------------
    \2\ Department of Defense Annual Report on Sexual Assault in the 
Military: Fiscal Year 2011 (April 2012), 1.
    \3\ Id., 7.
---------------------------------------------------------------------------
    Victims of military sexual trauma (MST) often not only do not 
readily disclose these traumatic events, but delay seeking treatment 
for conditions relating to that experience. \4\ Yet in-service sexual 
assaults have long-term health implications, including post-traumatic 
stress disorder, increased suicide risk, major depression and alcohol 
or drug abuse. \5\ A comprehensive review of individuals seeking VA 
care found that those who experienced MST were three times more likely 
to receive a mental health diagnosis of some type, almost nine times 
more likely to be diagnosed with PTSD, and twice as likely to be 
diagnosed with a substance abuse issue. \6\ Researchers report that the 
effects of sexual assault on health are similar to those for combat. 
\7\
---------------------------------------------------------------------------
    \4\ Rachel Kimerling, et al., ``Military-Related Sexual Trauma 
Among Veterans Health Administration Patients Returning From 
Afghanistan and Iraq,'' Am J Public Health, 100(8), (August 2010), 
1409-1412.
    \5\ M. Murdoch, et al., ``Women at War,'' Journal of General 
Internal Medicine, vol. 21, Issue S3 (March 2006) accessed at http://
www.ncbi.nlm.nih.gov/pmc/articles/PMC1513175/.
    \6\ Rachel Kimerling, Kristian Gima, Mark Smith, et al. ``The 
Veterans Administration and Military Sexual Trauma,'' American Journal 
of Public Health 97, no. 12 (2007) 2163.
    \7\ Id.
---------------------------------------------------------------------------
    VA reports that some 1 in 5 women and 1 in 100 men seen in its 
medical system responded ``yes'' when screened for military sexual 
trauma (MST). \8\ Though rates of MST are higher among women, there are 
almost as many men seen in VA that have experienced MST as there are 
women. \9\ While researchers cite the importance of screening for 
military sexual trauma and associated referral for mental health care, 
many victims do not seek VA care. Indeed researchers have noted 
frequent lack of knowledge on the part of women veterans regarding 
eligibility for and access to VA care, with many mistakenly believing 
eligibility is linked to establishing service-connection for a 
condition. \10\ Compounding this misperception is the difficulty 
individuals experience in attempting to establish service-connection 
for mental health conditions resulting from in-service sexual trauma.
---------------------------------------------------------------------------
    \8\ Department of Veterans Affairs National Center for PTSD, 
``Military Sexual Trauma'' fact sheet, accessed at http://
www.ptsd.va.gov/public/pages/military-sexual-trauma-general.asp.
    \9\ Id.
    \10\ See Donna Washington, et al., ``Women Veterans' Perceptions 
and Decision-Making about Veterans Affairs Health Care,'' Military 
Medicine 172, no. 8 (2007): 813-815.
---------------------------------------------------------------------------
    VA's regulation governing service-connection for PTSD does reflect 
an attempt to address some of the difficulties veterans face in light 
of the general requirement that there be ``credible supporting evidence 
that the claimed stressor occurred.'' \11\ The regulation specifies 
that, in the case of a claim based on in-service personal assault, 
evidence from sources other than the veteran's service records may 
corroborate the veteran's account, and it provides examples of such 
evidence, to include evidence of behavior changes following the claimed 
assault.
---------------------------------------------------------------------------
    \11\ 38 C.F.R. sec. 3.304(f)
---------------------------------------------------------------------------
    But with the overwhelming percentage of military assault-incidents 
going unreported, the unique circumstances of the military experience 
heighten the likelihood of such an incident going undetected, and 
subsequently eluding efforts to provide corroborating evidence. 
Military training and culture foster a spirit of comradeship, teamwork, 
and loyalty that is critical to success in battle. A sexual assault is 
a profound violation of those principles. In the experience of many MST 
victims, being sexually assaulted by a fellow servicemember creates 
intense feelings of betrayal, confusion and shame. Military culture 
strongly values servicemembers' keeping their pain and distress to 
themselves. As described in one journal report, ``unit cohesion may 
create environments where victims are strongly encouraged to keep 
silent about their experiences, have their reports ignored, or are 
blamed by others for the sexual assault.'' \12\ Given all these 
circumstances, it is very common for victims to experience such 
profound fear or shame regarding a military sexual assault that they 
remain silent and cover up or hide the attack for years. As one report 
noted, despite the pervasiveness of military sexual trauma, many 
clinicians fail to recognize as many as 95% of cases among veterans and 
active duty personnel. \13\
---------------------------------------------------------------------------
    \12\ Kimerling R, Gima K, Smith M, Street A, Frayne S; The Veterans 
Health Administration and Military Sexual Trauma, American Journal of 
Public Health, vol. 97, no. 12 (December 2007), 2160.
    \13\ Sharon Valente and Callie Wight, ``Military Sexual Trauma: 
Violence and Sexual Abuse,'' Military Medicine, vol. 172, no. 3 (March 
2007), pp. 259-265.
---------------------------------------------------------------------------
    For veterans who file claims for service connection for PTSD based 
on MST, \14\ the challenges both of providing or identifying evidence 
to support the claim and of meeting the inherently subjective 
requirement that that evidence be deemed ``credible'' can be 
monumental. WWP warriors and benefits' staff tell us that most victims 
of MST have no hard evidence on which to rely. The VA's regulation 
invites consideration of corroborative evidence of behavioral changes 
in service, but ``markers'' of such changes may be subtle or 
nonexistent. Moreover, it has been observed that many adjudicators 
handling these cases look for obvious, blatant, concrete evidence that 
is more likely to be in the claims file, rather than subtle, nuanced 
evidence. \15\ As other commentators have observed, even cases with 
strong corroborating evidence may still be denied (citing YR v. West, 
11 Vet. App. 393 (1998), where evidence included detailed testimony 
from the victim's sister reporting observable physical injuries just 
two days after a reported in-service assault). \16\
---------------------------------------------------------------------------
    \14\ In WWP's experience, some warriors are unwilling to relive the 
trauma and simply elect not to initiate claims of service connection 
for PTSD based on sexual trauma.
    \15\ Jennifer C. Schingle, ``A Disparate Impact on Female Veterans: 
The Unintended Consequences of Veterans Affairs Regulations Governing 
the Burdens of Proof for Post-traumatic Stress Disorder Due to Combat 
and Military Sexual Trauma,'' William & Mary Journal of Women and the 
Law, vol. 16: 155 (2009), 170.
    \16\ Id.,172.
---------------------------------------------------------------------------
    WWP believes that the uniquely troubling circumstances associated 
with MST, the health risks it holds, and the heavy burden on the victim 
of corroborating a widely-unreported traumatic experience, merits 
easing that evidentiary burden. H.R. 671 sets the right evidentiary 
standard, in our view, in providing that the veteran's lay statement 
may establish the occurrence of the claimed military sexual trauma, 
absent clear, convincing evidence to the contrary and if consistent 
with the circumstances of the veteran's service. (Acceptance of the lay 
statement as establishing in-service trauma is, of course, only one 
element in establishing service-connection for PTSD.)
    As commentators have aptly noted, VA has the authority to ease the 
evidentiary burden of establishing service-connection for PTSD, \17\ 
and has exercised that authority as recently as 2010. In that most 
recent rulemaking, VA established a framework under which the 
evidentiary requirement for corroboration of a stressor would be 
eliminated in claims for PTSD due to fear of hostile military activity, 
\18\ just as in claims involving a combat stressor. \19\ Despite marked 
differences, the trauma associated with combat, exposure to hostile 
military activity, and military sexual assault are all strong 
predictors of PTSD. And each presents great difficulties for the 
veteran to provide corroborative evidence of that trauma.
---------------------------------------------------------------------------
    \17\ See Schingle, ibid; Moomey, ibid; Brianne Ogilvie and Emily 
Tamlyn, ``Coming Full Circle: How VBA Can Complement Recent Changes in 
DoD and VHA Policy Regarding Military Sexual Trauma,'' Veterans Law 
Review, vol 4 (2012).
    \18\ Stressor Determinations for Posttraumatic Stress Disorder, 75 
Fed. Reg. 39,843, 39, 846 (July 13, 2010). With that rulemaking, VA 
provided that where a VA psychiatrist or psychologist confirms (1) that 
a claimed stressor related to fear of hostile military or terrorist 
activity is adequate to support a PTSD diagnosis, and (2) the veteran's 
symptoms are related to that stressor, the claimant's lay testimony 
alone may establish the stressor's occurrence (provided the stressor is 
consistent with the places, types, and circumstances of the veteran's 
service).
    \19\ 38 C.F.R. sec. 3.304(f)(5).
---------------------------------------------------------------------------
    Since VA has the requisite authority to remedy this problem 
administratively and there are compelling policy reasons, in our view, 
to exercise that authority, we urge the Committee to press the 
Department to do so. That course would be preferable, in our view, to 
the Committee's having to find savings to offset any direct spending 
deemed to be associated with enactment of H.R. 671. Ultimately, such 
regulatory reform would be an important step toward healing a deep 
wound many have suffered.
    Thank you for your consideration of our views.

                                 <F-dash>
                     AMERICAN CIVIL LIBERTIES UNION
    On behalf of the American Civil Liberties Union (ACLU) and its more 
than a half million members, countless additional supporters and 
activists, and 53 affiliates nationwide, we commend the House Veterans 
Affairs DAMA Subcommittee for its continued commitment to addressing 
the problems survivors of military sexual trauma face when applying for 
disability benefits from the Department of Veterans Affairs (VA).
    For decades, the ACLU has worked not only to end discriminatory 
treatment within our military, \1\ but also to prevent and respond to 
gender-based violence and harassment in the workplace and to ensure 
women's full equality. The ACLU also works to hold governments, 
employers and other institutional actors accountable so as to ensure 
that women and men can lead lives free from violence.
---------------------------------------------------------------------------
    \1\ Most recently, In November 2012, the ACLU initiated a lawsuit, 
on behalf of the Service Women Action Network and other plaintiffs, 
against the Department of Defense challenging the ground combat 
exclusion. Over the years, we have also successfully challenged 
military recruitment standards and military academy admissions policies 
that discriminated against women; fought for servicewomen to receive 
the same military benefits as their male counterparts; and defended the 
rights of pregnant servicewomen; and advocated for servicewomen's 
access to reproductive health care.
---------------------------------------------------------------------------
    Over the last several years, Congress, the Department of Defense 
and the VA have grappled with the scourge of sexual harassment, sexual 
assault and rape within the military. Although a variety of proposals 
have been implemented and some progress has been made to prevent and 
respond to sexual assault, sexual harassment and rape in the military, 
the problem is deeply-rooted and persists. More than 3,100 reports of 
sexual assault were made in FY 2011, \2\ but we know that the incidence 
of sexual assault is significantly underreported. The Pentagon 
estimated that more than 19,000 incidents of sexual assault occurred in 
2010 alone, \3\ and that one in three women serving in the military has 
been sexually assaulted. \4\ While such statistics alone are alarming, 
the problem of military sexual assault is compounded by the fact that 
service members who leave the service find that the trauma they 
experienced as a result of sexual assault is not adequately recognized 
by the VA.
---------------------------------------------------------------------------
    \2\ DEPARTMENT OF DEFENSE, ANNUAL REPORT ON SEXUAL ASSAULT IN THE 
MILITARY: FISCAL YEAR 2011, 33 (2012), available at http://
www.sapr.mil/media/pdf/reports/Department--of--Defense--Fiscal--Year--
2011--Annual--Report--on--Sexual--Assault--in--the--Military.pdf.
    \3\ DEPARTMENT OF DEFENSE, ANNUAL REPORT ON SEXUAL ASSAULT IN THE 
MILITARY: FISCAL YEAR 2010, 90 (2011), available at http://
www.sapr.mil/media/pdf/reports/DoD--Fiscal--Year--2010--Annual--
Report--on--Sexual--Assault--in--the--Military.pdf.
    \4\ James Risen, Military Has Not Solved Problem of Sexual Assault, 
Women Say, N.Y. TIMES, Nov. 2, 2012 at A15, available at http://
www.nytimes.com/2012/11/02/us/women-in-air-force-say-sexual-misconduct-
still-rampant.html?pagewanted=all&--r=0.
---------------------------------------------------------------------------
    The ACLU supports the Ruth Moore Act of 2013 (H.R. 671), which 
would remove current barriers that far too often prove insurmountable 
for sexual assault survivors who apply for disability compensation for 
post-traumatic stress disorder (PTSD) and other mental health 
conditions. Congress should act quickly to enact this legislation.
I. Congressional action is needed to ease the evidentiary burden of 
        proof survivors of sexual assault must meet when seeking 
        disability benefits.
    Veterans who were sexually assaulted during their service in our 
armed forces, and who now seek disability benefits, for conditions such 
as PTSD and depression, face enormous barriers. Data obtained through a 
FOIA lawsuit, filed in 2010 by the ACLU and the Service Women's Action 
Network (SWAN) against the VA and the Department of Defense, shows that 
only 32 percent of PTSD disability claims based on military sexual 
trauma were approved by the Veterans Benefits Administration (VBA), 
compared to an approval rate of 54 percent of all other PTSD claims 
from 2008-2010. Moreover, of those sexual assault survivors who were 
approved for benefits, women were more likely to receive a lower 
disability rating than men, therefore qualifying for less compensation.
    Despite the disparity in approved claims uncovered by the FOIA 
lawsuit, the VA has indicated that it is unwilling to amend 38 C.F.R. 
Sec.  3.304(f), the current regulation governing the claims process for 
PTSD. \5\ In 2011, the VA issued a ``fast letter'' to all VA Regional 
Offices (VAROs) reiterating the current policy while also emphasizing 
that the regulation should be interpreted liberally to give a veteran's 
claim the benefit of the doubt. \6\ The letter provided further 
guidance for what secondary markers--evidentiary signs, events or 
circumstances--a claims officer should seek out and review in 
determining the validity of a disability claim. While we commend the VA 
for providing such guidance, it fails to address the problem. Although 
the VA specifically ``developed regulations and procedures that provide 
for a liberal approach to evidentiary development and adjudication of 
[] claims,'' \7\ the subjective nature of the current policy actually 
works against survivors of sexual assault.
---------------------------------------------------------------------------
    \5\ See Invisible Wounds: Examining the Disability Compensation 
Benefits Process for Victims of Military Sexual Trauma: Hearing Before 
the Subcomm. on Disability Assistance & Mem'l Affairs of the H. Comm. 
on Veterans' Affairs, 112th Cong. (2012) (statement of Anu Bhagwati, 
Executive Director, Service Women's Action Network).
    \6\ See Training Letter 11-05 from Thomas J. Murphy, Director, 
Compensation & Pension Services, to all VA Regional Offices (Dec. 2, 
2011).
    \7\ Id.
---------------------------------------------------------------------------
    The VA's regulations explicitly treat veterans who suffer from PTSD 
based on sexual trauma differently from all other PTSD claims, 
including those related to combat and hostile military activity. Even 
when a veteran can establish a diagnosis of PTSD and his or her mental 
health provider connects PTSD to sexual assault during service, the VA 
``is not required to accept doctors' opinions that the alleged PTSD had 
its origins'' \8\ in the claimant's military service. The VA reasoned 
that while such a diagnosis may constitute credible evidence, it is not 
always probative. \9\ As a result, the VA requires additional evidence, 
such as records from law enforcement authorities, hospitals, or mental 
health facilities, that generally does not exist. As the Department of 
Defense itself acknowledges, the vast majority of service members who 
are assaulted do not report that assault because of the retaliation 
they are likely to face.
---------------------------------------------------------------------------
    \8\ Godfrey v. Brown, 8 Vet. App. 113, 121 (1995).
    \9\ Post-Traumatic Stress Disorder Claims Based on Personal 
Attacks, 67 Fed. Reg. 10330 (Mar. 7, 2002) (codified in 38 C.F.R. pt. 
3).
---------------------------------------------------------------------------
    Another problem faced by veterans is that until recently, the 
Department of Defense retained restricted reports of sexual assault for 
only 5 years; after that time the records were destroyed. \10\ On 
average, a veteran who was assaulted waits 15 years after leaving the 
service to file a disability claim with the VA. \11\ Because of this 
delay and the Pentagon's former record retention policy, veterans who 
were sexually assaulted are effectively cut off from accessing critical 
evidence substantiating their disability claim to the VA. Likewise, as 
more time passes before a veteran seeks disability benefits, the harder 
it becomes for that individual to later prove a claim of sexual assault 
through secondary markers, such as statements from fellow service 
members or deterioration in work performance. People move away, while 
documents are lost or discarded.
---------------------------------------------------------------------------
    \10\ The National Defense Authorization Act for FY13 changed this 
policy so that now DoD must retain these documents for 50 years, but 
only at the request of the service member. Pub. L. No. 112-239, Sec.  
577, 126 Stat. 1632, 1762.
    \11\ DEP'T OF VETERANS AFFAIRS, VETERANS HEALTH INITIATIVE: 
MILITARY SEXUAL TRAUMA 58 (2004), available at http://
www.publichealth.va.gov/docs/vhi/military--sexual--trauma.pdf.
---------------------------------------------------------------------------
    Even when a veteran is able to present evidence to a claims 
examiner, whether the claim is approved is ultimately determined by a 
subjective standard that differs from examiner to examiner leading to 
inconsistent outcomes. \12\ Moreover, VAROs have seen high workforce 
turnover and the time period over which new employees receive training 
on adjudicating claims has been significantly reduced from one year to 
just eight weeks. \13\ As the VA grapples with the overwhelming number 
of outstanding benefits claims, which now total almost 900,000, \14\ 
unprepared and overburdened employees may not have the time or the 
skill set needed to properly investigate and adjudicate complex sexual 
assault disability claims.
---------------------------------------------------------------------------
    \12\ A study commissioned by the VA reported that ``rating 
decisions often call for subjective judgments.'' INST. FOR DEF. 
ANALYSES, ANALYSIS OF DIFFERENCES IN DISABILITY COMPENSATION IN THE 
DEPARTMENT OF VETERANS AFFAIRS, VOLUME 1: FINAL REPORT, S-3 (2006), 
available at http://www.va.gov/VETDATA/docs/SurveysAndStudies/State--
Variance--Study-Volumes--1--2.pdf. See also Title Redacted by Agency, 
Bd. Vet. App. 0318972 (2003) (veteran's claim was denied despite 
presenting substantial evidence corroborating his sexual assault, 
including documentation of erratic behavior, sworn statements attesting 
to military performance issues, and records of mental counseling and 
treatment for sexual transmitted diseases.).
    \13\ Focusing on People: A Review of VA's Plans for Employee 
Training, Accountability, and Workload Management to Improve Disability 
Claims Processing: Hearing Before H. Comm. on Veterans' Affairs, 113th 
Cong. (2013) (submission for the record of The American Federation of 
Government Employees).
    \14\ Rick Maze, VFW defends VA official, despite continued backlog, 
FED. TIMES (Mar. 20, 2013, 4:19 PM), http://www.federaltimes.com/
article/20130320/DEPARTMENTS04/303200003/VFW-defends-VA-official-
despite-continued-backlog.
---------------------------------------------------------------------------
    While the VA stands by its current policy, it is clear that the 
Department is not achieving its mission to ``treat all veterans and 
their families with the utmost dignity and compassion.'' \15\ Instead 
the VA has created an unfair standard that sets sexual assault 
survivors up to fail in claiming the disability benefits they deserve.
---------------------------------------------------------------------------
    \15\ U.S. DEP'T OF VETERANS AFFAIRS, ABOUT VA: MISSION, CORE VALUES 
& GOALS, available at http://www.va.gov/about--va/mission.asp (last 
visited Apr. 15, 2013).
---------------------------------------------------------------------------
    The Ruth Moore Act would rectify the current policy and bring 
fairness to the claims process. Under H.R. 671, the VA would be 
required to treat PTSD claims related to sexual assault the same way it 
treats all other PTSD claims: by accepting the veteran's lay testimony 
as sufficient proof that the trauma occurred ``in the absence of clear 
and convincing evidence to the contrary.'' \16\ This standard will help 
reduce the number of inconsistent and arbitrary adjudication decisions 
that result from applying a subjective standard and will decrease the 
risk of veterans experiencing further trauma as they navigate the 
claims process.
---------------------------------------------------------------------------
    \16\ Ruth Moore Act of 2013, H.R. 671, 113th Cong. Sec.  2(a) 
(2013).
---------------------------------------------------------------------------
II. H.R. 671's reporting requirement helps ensure government 
        accountability.
    The ACLU works to hold our government accountable for responding to 
and taking proactive measures to end the cycle of violence in our 
country. For this reason, in 2010 we filed a federal lawsuit against 
the Department of Defense and the VA for their failure to respond to 
our FOIA requests seeking records documenting incidents of sexual 
assault, sexual harassment, and domestic violence in the military and 
how the government addresses this violence. The goal of the lawsuit was 
to ``obtain the release of records on a matter of public concern, 
namely, the prevalence of [military sexual trauma] (MST) within the 
armed services, the policies of DoD and the VA regarding MST and other 
related disabilities, and the nature of each agency's response to 
MST.'' \17\
---------------------------------------------------------------------------
    \17\ Complaint at 2, Serv. Women's Action Network v. U.S. Dep't of 
Def., No. 3:2010cv01953 (D. Conn. Feb. 23, 2011).
---------------------------------------------------------------------------
    Given our past work in advancing government accountability, we 
strongly support the provision in the bill that requires the VA to 
submit an annual report to Congress that includes statistics, such as 
the number sexual assault-related claims that were approved or denied, 
and the average time it took the VA to adjudicate a claim.
                                  ****
    Should you have any questions, please don't hesitate to contact 
Senior Legislative Counsel Vania Leveille at 202-715-0806 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c1a00091a09050000092c080f0d0f001942031e0b42">[email&#160;protected]</a>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
